<html>
<title> - POLICIES AND PROGRAMS FOR PREVENTING AND RESPONDING TO INCIDENTS OF SEXUAL ASSAULT IN THE ARMED SERVICES</title>
<body><pre>[Senate Hearing 108-799]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-799
 
  POLICIES AND PROGRAMS FOR PREVENTING AND RESPONDING TO INCIDENTS OF 
                   SEXUAL ASSAULT IN THE ARMED SERVICES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2004

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
93-578 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                       Subcommittee on Personnel

                   SAXBY CHAMBLISS, Georgia, Chairman

SUSAN M. COLLINS, Maine              E. BENJAMIN NELSON, Nebraska
ELIZABETH DOLE, North Carolina       EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

  Policies and Programs for Preventing and Responding to Incidents of 
                  Sexual Assault in the Armed Services

                           february 25, 2004

                                                                   Page

Chu, Hon. David S.C., Under Secretary of Defense for Personnel 
  and Readiness..................................................     8
Casey, Gen. George W., Jr., USA, Vice Chief of Staff, United 
  States Army....................................................   147
Mullen, Adm. Michael G., USN, Vice Chief of Naval Operations, 
  United States Navy.............................................   150
Nyland, Gen. William L., USMC, Assistant Commandant, United 
  States Marine Corps............................................   157
Moseley, Gen. T. Michael, USAF, Vice Chief of Staff, United 
  States Air Force...............................................   160
Hansen, Christine, Executive Director, The Miles Foundation......   192
Rau, Terry J., Head, Policy and Prevention Section, Counseling, 
  Advocacy and Prevention Branch, Navy Personnel Command.........   204
Tucker, Deborah D., Executive Director, National Center on 
  Domestic and Sexual Violence...................................   208
Mather, Susan H., Chief Officer, Office of Public Health and 
  Environmental Hazards, Veterans Health Administration..........   218

                                 (iii)


                  POLICIES AND PROGRAMS FOR PREVENTING
                     AND RESPONDING TO INCIDENTS OF
                  SEXUAL ASSAULT IN THE ARMED SERVICES

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:40 a.m. in 
room SH-216, Hart Senate Office Building, Senator Saxby 
Chambliss (chairman of the subcommittee) presiding.
    Committee members present: Senators Chambliss, Warner, 
Allard, Collins, Dole, Cornyn, E. Benjamin Nelson, Clinton, and 
Pryor.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Scott W. Stucky, general 
counsel; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, counsel.
    Minority staff members present: Gabriella Eisen, research 
assistant; and Gerald J. Leeling, minority counsel.
    Staff assistants present: Andrew W. Florell, Sara R. 
Mareno, Nicholas W. West, and Pendred K. Wilson.
    Committee members' assistants present: Jayson Roehl, 
assistant to Senator Allard; Derek J. Maurer, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Meredith Moseley, assistant to Senator Graham; 
Russell J. Thomasson, assistant to Senator Cornyn; Eric Pierce, 
assistant to Senator Ben Nelson; Andrew Shapiro, assistant to 
Senator Clinton; and Terri Glaze, assistant to Senator Pryor.

     OPENING STATEMENT OF SENATOR SAXBY CHAMBLISS, CHAIRMAN

    Senator Chambliss. The hearing will come to order. Good 
morning. I apologize for running late. They've been running me 
around the building. I was just telling these folks, I couldn't 
find the right room, my Blackberry quit, and the elevators 
quit. Everything that could go wrong did go wrong. Things are 
going to get better with this hearing.
    Good morning, the subcommittee will come to order. The 
subcommittee meets today to receive testimony on policies and 
programs for preventing and responding to incidents of sexual 
assault in the armed services.
    We'll hear from two panels this morning. First, we'll hear 
from Dr. David Chu, Under Secretary of Defense for Personnel 
and Readiness. Joining Dr. Chu is General George W. Casey, Vice 
Chief of Staff for the Army; Admiral Michael G. Mullen, Vice 
Chief of Naval Operations (CNO); General William L. Nyland, 
Assistant Commandant of the Marine Corps; and General T. 
Michael Moseley, Vice Chief of Staff for the Air Force.
    Welcome, gentlemen. We look forward to hearing your 
testimony this morning.
    Our second panel will consist of witnesses with expertise 
on issues related to violence against women and the treatment 
of victims of sexual assault. I will introduce that panel upon 
conclusion of our first panel.
    Let me just make a comment about this morning. There is no 
more serious subject, in my opinion, that the military of our 
country has to deal with today, than the issue that we're going 
to be talking about. We're in the middle of a war. We're 
concerned about our men and women who are putting themselves in 
harm's way as we are here this morning, and that's a very 
serious situation that they are dealing with. The fact of the 
matter is, we have military men and women who not only need to 
have the right morale, but they need to know that they can 
operate, on a daily basis in the United States military, 
without fear of assault, without fear of sexual harassment, and 
without fear of any person interrupting their daily routine. 
They need to know they can carry out their normal activities on 
a day-to-day basis.
    I have to tell you that some of the stories that everybody 
behind this table has heard over the last several months are 
very frightening, and we take them very seriously. I will also 
say that we are not here today to prosecute anybody, whether 
it's an individual case that has come to our attention or the 
individuals who were responsible for supervising the people who 
were involved. We're here today to look at the facts as they 
are, relative to how the military is dealing with this very 
critical issue, and to do our job, which is oversight of the 
United States military and to make sure that the policies that 
are in place are doing what those policies are designed to do 
to protect our men and women who are members of the United 
States military.
    We chose this important and troubling subject for the first 
meeting of the Personnel Subcommittee this year in order to 
underscore our deep concern about the problem of violence 
against women in the Armed Forces. The information we have 
received, as reflected in interviews with victims, in news 
accounts, reports from the Services, and, indeed, in the 
written statements submitted by our second panel of witnesses, 
describes shocking percentages of sexual assault suffered by 
women in uniform. This cannot continue.
    These reports, which require further investigation, point 
to unacceptable conditions for many women in uniform in all 
ranks and potentially in all duty locations. These reports 
raise many questions about how the Services currently respond 
to incidents involving allegations of rape and sexual assault, 
and, just as importantly, how the victims of such attacks are 
treated. Clearly, the adequacy of the policies, programs, and 
resources within the Department of Defense (DOD) and the 
Services to respond to this complex problem is at issue.
    We're aware that earlier this month, Secretary Rumsfeld 
directed a comprehensive DOD-wide review of the effectiveness 
of policies and programs, the manner in which sexual assaults 
are dealt with, and DOD's effectiveness in precluding such 
assaults in the first place. This is an appropriate step, and 
we look forward to the findings and recommendations from this 
internal review by DOD.
    I must note that this is not a new problem. DOD and the 
Services have policies and programs currently in place which 
are designed to address this problem. For example, the Navy 
initiated its Sexual Assault Victim Intervention (SAVI) program 
almost 10 years ago. The subcommittee looks to you today to 
discuss these current policies and programs to tell us what is 
working, what went wrong, and what changes are needed.
    Specifically, we want to know about the resources and 
training your Services currently provide through officer and 
enlisted leaders, who have the responsibility to respond to 
allegations of rape and sexual assault. We want to hear about 
your Services' plans to take steps aimed at preventing rape and 
establishing methods that will ensure that service women are 
not afraid to report or, worse, penalized for reporting sexual 
attacks. We want to know about the Department's plans to ensure 
that comprehensive treatment for victims is provided following 
their identification. We must all work together to ensure that 
service women are able to perform their duties in an 
environment free from fear for their personal safety.
    Before proceeding with your testimony, I want to take the 
opportunity to recognize my good friend, a close good friend, 
the subcommittee's ranking member, Senator Nelson. I'm pleased 
to be working with him on this subcommittee as we address 
issues of such importance to the success and well-being of our 
service members, retirees, military families, and our civil 
defense employees.
    Senator Nelson, any comments you want to make in the form 
of an opening statement will be recognized at this time.
    Thank you.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you very much, Mr. Chairman. I 
thank you for bringing this matter before our subcommittee and 
for the opportunity to delve into the issues that are now 
before us.
    I would like to welcome Secretary Chu, General Casey, 
Admiral Mullen, General Nyland, and General Moseley. Thank you 
very much for being here with us today.
    Unfortunately, this isn't one of our normal hearings where 
we look forward to discussing the current and future state of 
military issues with witnesses. Rather, this is a hearing that 
we're holding because circumstances require it. It is not 
because we want to, but the circumstances dictate that we do 
this.
    We're greatly alarmed at reports of sexual assaults on our 
service women and the apparent failure of the military systems 
to respond appropriately to the needs of the victims. Women who 
choose to serve their Nation in military service should not 
have to fear sexual attacks by their fellow service members. 
When they are victims of such an attack, they absolutely must 
have effective victim intervention services readily available 
to them, and they should not fear being punished for minor 
offenses when they report the attack, or being re-victimized 
through the investigative process.
    Last November, The Denver Post ran a series of articles 
titled ``Betrayal in the Ranks.'' In these articles, The Denver 
Post reported that, ``All the Armed Forces have mishandled 
sexual assault cases by discouraging victims from pursuing 
complaints, conducting flawed investigations, and depriving 
victims of support services.'' During The Denver Post's 
investigation, more than 50 sexual assault victims reported 
fear of retaliation, damage to their careers, and being 
portrayed as disloyal, as well. Many who reported their 
assaults were punished, intimidated, ostracized, or told they 
were crazy.
    In January, The Denver Post again reported that, ``At least 
37 female service members have sought sexual trauma counseling 
and other assistance from civilian rape crisis organizations 
after returning from deployment in and around Iraq.'' The 
Denver Post reported that many of the victims are women of high 
rank; several of them, officers. The Denver Post noted a 
disturbing trend, a disregard for the female service members' 
safety and lack of appropriate medical treatment after assault. 
Some victims were left in the same units as their attackers and 
were not provided sexual trauma counseling.
    In February, USA Today published a similar article, saying 
that some of the victims felt that they had been doubly 
victimized, first by the attackers in their own ranks, and then 
by the shoddy military treatment. They complained that the 
military failed to provide basic services available to 
civilians who have been raped, from medical attention to 
criminal investigations of their charges. The Pentagon has 
acknowledged that at least 88 cases of sexual misconduct have 
been reported by troops in Iraq, Kuwait, and Afghanistan.
    Later in February, The Denver Post reported a wave of 
sexual assaults at Sheppard Air Force Base, in Texas. Again, 
the Post reported that female victims were discouraged from 
reporting crimes, including being punished for breaking other 
rules involving curfews or alcohol.
    What has been the military response to these articles? We 
know that the Secretary of Defense has directed a 90-day review 
of the effectiveness of DOD policies and programs, the manner 
in which the DOD deals with sexual assault, and its 
effectiveness in precluding such assault in the first place. 
The Acting Secretary of the Army has appointed a task force to 
look into this issue, and the Air Force Commander of Air 
Education and Training Command has appointed a commander-
directed review of sexual assault allegations at Sheppard Air 
Force Base.
    These are all appropriate responses to get an accurate 
assessment of the scope of the problem, but I'm concerned, 
because at this point, I don't feel a sense of outrage by 
military leadership. I am outraged that any woman serving in 
our military is raped or sexually assaulted, and I am appalled 
by the reports of failure of military leadership to respond 
appropriately.
    These reports of sexual assault and the Service response 
are shockingly familiar. They reflect the same concerns 
expressed by the cadet victims of sexual assault at the Air 
Force Academy (AFA). Two official reports into the allegations 
at the AFA show that the concerns expressed by female cadets 
are real. Granted, many of the non-academy cases reported by 
The Denver Post are dated, some going back decades. However, 
the surprisingly similar comments by victims suggest that not 
much has changed over those years.
    The committee will not sit by and allow this situation to 
be handled matter-of-factly. These reports are serious, and 
they need to be dealt with seriously. That's why we've asked 
for the Under Secretary of Defense and the Vice Chiefs of each 
of the Services to appear today as witnesses. We fully expect 
you to carry back our concern for the safety and well-being of 
our female service members. We know that it's too early to have 
any meaningful results from the three ongoing inquiries into 
this matter, five inquires if we count the two ongoing 
Inspector General (IG) inquiries into the allegations at the 
AFA. It's not too early for all of us to demonstrate a sense of 
urgency about getting to the bottom of this and making 
appropriate corrections. If legislation is needed, we will 
deliver.
    Some have argued that the problem is the Uniform Code of 
Military Justice (UCMJ), and I'll certainly be interested in 
what the ongoing inquiries have to say about that.
    I believe there's much more that has to be examined. We 
need to have effective programs in place to prevent rape and 
sexual assaults in the first place. Young women who are 
sexually assaulted are scared, confused, intimidated, 
embarrassed, and they feel betrayed by their fellow service 
members. You cannot and should not expect them to know what 
kind of care they need and how to seek it simply on their own. 
The Services need effective victim intervention programs that 
are fully staffed and readily available to victims of sexual 
assault.
    Our second panel is composed of experts, as the chairman 
has said, who deal with military victims of sexual assault on a 
day-to-day basis, and they perform a tremendous service to our 
military personnel. I can't thank them enough for what they do. 
I'm most hopeful that they will be able to give us their 
insights into the shortcomings of the current service programs.
    I'm most grateful for Ms. Christine Hansen of the Miles 
Foundation, Dr. Terri Rau, and others who are here today. 
They'll be introduced at a later time.
    We appreciate very much the first panel. We hope that the 
first panel will have an opportunity to have a representative 
remain, if you're unable to remain for the second panel, and 
report back to you on what the second panel has to say.
    So, Mr. Chairman, thank you very much for holding this 
important hearing. We owe it all to service members to provide 
all of them a safe and healthy environment when they volunteer 
to serve in our Nation's military.
    Thank you so much.
    Senator Chambliss. Thank you, Senator Nelson.
    We have some subcommittee members and some full committee 
members who are with us today that have an opening statement.
    I'll turn to Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    Let me begin my remarks by commending you for holding this 
hearing. It's a tribute to your leadership and character that 
you have taken this issue so seriously and have focused the 
subcommittee's attention on it. I want to acknowledge and thank 
you for your leadership.
    The issue before the subcommittee today is tragic. It is 
not tragic because of the nature of war or because of the 
conditions under which our military operates. It is tragic 
because the conduct involved is illegal and completely 
unacceptable. No war comes without cost, but the costs should 
be borne out of conflict with the enemy, not because of 
egregious violations by some of our own troops. What does it 
say about us, as a people, as a Nation, as the foremost 
military in the world, when our women soldiers sometimes have 
more to fear from their fellow soldiers than from the enemy? 
Why is there less public outrage when service women suffer at 
the hands of their own fellow service men than from the enemy?
    Women have served honorably in the United States military 
for longer than we have had the right to vote. In Afghanistan 
and Iraq, women have served and risked their lives alongside 
their male counterparts, bravely defending freedom in distant 
lands. Some were captured, others were killed in action (KIA), 
not because they were women, but because they were soldiers 
fighting for their country.
    When Saddam Hussein invaded Kuwait, then-President Bush 
declared, ``This will not stand.'' Mr. Chairman, I think we 
should echo those words of determination. This cannot stand. We 
must support the women who wear this country's uniform. We must 
ensure that medical treatment and counseling are made available 
to victims of sexual assault. We must take these allegations 
seriously. Most of all, we must ensure that justice is swift 
and certain for the criminals who have perpetrated these 
crimes.
    Thank you, Mr. Chairman.
    Senator Chambliss. Thank you, Senator Collins.
    Senator Allard, we're glad to have you with us. I'll 
recognize you at this time.
    Senator Allard. Well, thank you, Mr. Chairman.
    First of all, I'd like to recognize your leadership. We've 
had some personal discussions about this issue as it involves 
the military, as well as the AFA. Also, I would like to 
recognize the chairman of the full committee, Senator Warner, 
who's with us, and who's also taken a personal interest. I had 
an opportunity to visit with both of you on this most important 
issue.
    First, let me say that understanding the problem of sexual 
assaults in the military and effectively developing policies, 
processes, and procedures for addressing it will not be an easy 
task. Mr. Chairman, you have embraced this challenge, and I 
commend you for it. Your leadership will make a significant 
difference as we go forward.
    I'm glad to see that so many members of the committee here 
are reading The Denver Post. Last November, The Denver Post 
wrote a series of reports on sexual assaults in the military, 
which I found very disturbing. These reports raise serious 
questions about whether the military was responding 
appropriately to sexual assaults. Were victims receiving the 
care and treatment they needed? Were victims being punished for 
reporting? Were perpetrators of these crimes being punished? 
Does the UCMJ need to be revamped? I've been asking these 
questions ever since.
    I later met with a number of victims who were sexually 
assaulted while serving in our military, including some that 
had just returned from Iraq. Many of the victims' stories were 
heart-wrenching and appalling. In some cases, I was utterly 
speechless and outraged. I believe we have a serious problem 
that will not go away with time.
    Let me also share with the subcommittee one lesson I took 
away last year from my experience in dealing with the sexual 
assault issues at the AFA. That lesson is that there is no such 
thing as a perfect sexual assault prevention and response 
program. For years, most sexual assault experts believed the 
AFA's Sexual Assault Prevention and Response Program was ideal. 
Confidentiality was protected, and victims could seek peer 
counseling. As we all now know, the reason why confidentiality 
was protected was because victims were discouraged from 
reporting. Even more alarming, most academy leaders did not 
know female cadets were being sexually assaulted in large 
numbers.
    Today I urge our witnesses to constantly review their 
sexual assault programs and always look for ways to improve 
them. Thinking that you have the perfect system will only lead 
to failure and result in innocent victims being mistreated or, 
worse, punished. We cannot afford to lose good men and women 
just because we haven't taken this issue seriously.
    I would also like to take a moment to note Secretary 
Rumsfeld's leadership on this issue. I strongly support his 
decision last month to form a task force to investigate the 
allegations of sexual assault in Iraq, and believe the task 
force leader Ms. Ellen Embrey, with whom I have met, will do an 
excellent job. With the mental and physical health of service 
members at stake, coupled with the fact that many are presently 
deployed in stressful combat environments, it is imperative 
that we get to the bottom of these allegations.
    Mr. Chairman, thank you for calling this important hearing 
and your continued leadership on this issue. I'd note that 
making this your first hearing of the year sends a good signal, 
and I'm pleased that you're taking that kind of interest in 
this issue. I look forward to the testimony of our witnesses.
    Senator Chambliss. Thank you, Senator Allard.
    Mr. Chairman, it's because of your direction, your 
interest, and your encouragement that this hearing came about 
today. We're pleased to have you join us, and I'll recognize 
you.
    Senator Warner. Thank you, Chairman Chambliss. I want to 
commend you, as others have, and our colleagues here this 
morning who have joined in this hearing.
    I say to you, most respectfully, I join Senator Allard's 
praise of Secretary Rumsfeld and his initiative. This committee 
is prepared to back the United States military to achieve zero 
tolerance.
    I first became really acquainted with the importance of 
this when I was Secretary of the Navy, and we had some problems 
then. I remember, for example, we got a firm hold on this back 
during that period of time. From time to time, we have to 
revisit it. I was always proud of the fact that I laid the 
foundation to integrate Annapolis and make it possible for 
women to pursue their careers in the Naval Academy. We're here 
to support you, and if you don't carry it out, we're going to 
take over.
    Thank you very much.
    Senator Chambliss. Thank you, Mr. Chairman.
    We now will move to our first panel.
    Dr. Chu, we're pleased to have you back with us, and look 
forward to your testimony. We'll start with you.
    I would ask each of you, if you would, to summarize your 
statements. We will certainly put your full statement in the 
record.
    Dr. Chu.

 STATEMENT OF HON. DAVID S.C. CHU, UNDER SECRETARY OF DEFENSE 
                  FOR PERSONNEL AND READINESS

    Dr. Chu. Thank you, Mr. Chairman, Senator Warner, Senators. 
I'm privileged to be joined today by my colleagues from the 
military services to answer your questions on this important 
issue of how we handle sexual assault in the military. I do 
have a longer statement, which I will submit for the record.
    As Senator Collins pointed out, the basic policy on this 
issue is clear. Sexual assault is a crime. It is clear in the 
law. It is clear in the regulations of DOD. It is clear in the 
statement of the Secretary of Defense. He has, as you've all 
noted, directed that we undertake a 90-day review of how well 
we're carrying out these policies and how well DOD programs 
actually sustain these policies when they're implemented in the 
field.
    Indeed, as I speak, Ms. Embrey, our task force leader, is 
in the Central Command (CENTCOM) area of operations, including 
Iraq, to look at this issue and to begin the factfinding and 
data collection that will be so essential to gauging what we 
should do next.
    A principle focus of that review is how we care for the 
victim. How do we take care of the individual who has been 
harmed? You've all touched upon that in your statements. As 
some of you have also noted and as Senator Warner has 
indicated, even more important in the long run is preventing 
assault from taking place in the first place.
    As we all appreciate, both in civil society and the 
military, this is a widely under-reported crime. It is a 
problem for the civil authorities and a problem for us, as 
well. For that reason, I think that Congress has wisely 
directed in the statute that DOD undertake a quadrennial survey 
of its population to determine the degree to which sexual 
harassment and other forms of inappropriate conduct of this 
sort occur. I have asked that we speed up the publication of 
the results from that latest survey, which was taken in 2002, 
so that it can be available for the committee. I think you have 
copies in front of you of the preliminary printing this 
morning.
    This is a survey that I believe is a bit unique. It has a 
blue cover on it, for those of you who are looking for it. It 
is unique in surveying a broad population. There are very few 
such surveys around. Really there are no comparable civil 
benchmarks, so we really can't tell the degree to which 
incidents in the military differ from that of the civil 
population.
    [The Armed Forces 2002 Sexual Harassment Survey follows:]

    [GRAPHIC] [TIFF OMITTED] T3578.001
    
    [GRAPHIC] [TIFF OMITTED] T3578.002
    
    [GRAPHIC] [TIFF OMITTED] T3578.003
    
    [GRAPHIC] [TIFF OMITTED] T3578.004
    
    [GRAPHIC] [TIFF OMITTED] T3578.005
    
    [GRAPHIC] [TIFF OMITTED] T3578.006
    
    [GRAPHIC] [TIFF OMITTED] T3578.007
    
    [GRAPHIC] [TIFF OMITTED] T3578.008
    
    [GRAPHIC] [TIFF OMITTED] T3578.009
    
    [GRAPHIC] [TIFF OMITTED] T3578.010
    
    [GRAPHIC] [TIFF OMITTED] T3578.011
    
    [GRAPHIC] [TIFF OMITTED] T3578.012
    
    [GRAPHIC] [TIFF OMITTED] T3578.013
    
    [GRAPHIC] [TIFF OMITTED] T3578.014
    
    [GRAPHIC] [TIFF OMITTED] T3578.015
    
    [GRAPHIC] [TIFF OMITTED] T3578.016
    
    [GRAPHIC] [TIFF OMITTED] T3578.017
    
    [GRAPHIC] [TIFF OMITTED] T3578.018
    
    [GRAPHIC] [TIFF OMITTED] T3578.019
    
    [GRAPHIC] [TIFF OMITTED] T3578.020
    
    [GRAPHIC] [TIFF OMITTED] T3578.021
    
    [GRAPHIC] [TIFF OMITTED] T3578.022
    
    [GRAPHIC] [TIFF OMITTED] T3578.023
    
    [GRAPHIC] [TIFF OMITTED] T3578.024
    
    [GRAPHIC] [TIFF OMITTED] T3578.025
    
    [GRAPHIC] [TIFF OMITTED] T3578.026
    
    [GRAPHIC] [TIFF OMITTED] T3578.027
    
    [GRAPHIC] [TIFF OMITTED] T3578.028
    
    [GRAPHIC] [TIFF OMITTED] T3578.029
    
    [GRAPHIC] [TIFF OMITTED] T3578.030
    
    [GRAPHIC] [TIFF OMITTED] T3578.031
    
    [GRAPHIC] [TIFF OMITTED] T3578.032
    
    [GRAPHIC] [TIFF OMITTED] T3578.033
    
    [GRAPHIC] [TIFF OMITTED] T3578.034
    
    [GRAPHIC] [TIFF OMITTED] T3578.035
    
    [GRAPHIC] [TIFF OMITTED] T3578.036
    
    [GRAPHIC] [TIFF OMITTED] T3578.037
    
    [GRAPHIC] [TIFF OMITTED] T3578.038
    
    [GRAPHIC] [TIFF OMITTED] T3578.039
    
    [GRAPHIC] [TIFF OMITTED] T3578.040
    
    [GRAPHIC] [TIFF OMITTED] T3578.041
    
    [GRAPHIC] [TIFF OMITTED] T3578.042
    
    [GRAPHIC] [TIFF OMITTED] T3578.043
    
    [GRAPHIC] [TIFF OMITTED] T3578.044
    
    [GRAPHIC] [TIFF OMITTED] T3578.045
    
    [GRAPHIC] [TIFF OMITTED] T3578.046
    
    [GRAPHIC] [TIFF OMITTED] T3578.047
    
    [GRAPHIC] [TIFF OMITTED] T3578.048
    
    [GRAPHIC] [TIFF OMITTED] T3578.049
    
    [GRAPHIC] [TIFF OMITTED] T3578.050
    
    [GRAPHIC] [TIFF OMITTED] T3578.051
    
    [GRAPHIC] [TIFF OMITTED] T3578.052
    
    [GRAPHIC] [TIFF OMITTED] T3578.053
    
    [GRAPHIC] [TIFF OMITTED] T3578.054
    
    [GRAPHIC] [TIFF OMITTED] T3578.055
    
    [GRAPHIC] [TIFF OMITTED] T3578.056
    
    [GRAPHIC] [TIFF OMITTED] T3578.057
    
    [GRAPHIC] [TIFF OMITTED] T3578.058
    
    [GRAPHIC] [TIFF OMITTED] T3578.059
    
    [GRAPHIC] [TIFF OMITTED] T3578.060
    
    [GRAPHIC] [TIFF OMITTED] T3578.061
    
    [GRAPHIC] [TIFF OMITTED] T3578.062
    
    [GRAPHIC] [TIFF OMITTED] T3578.063
    
    [GRAPHIC] [TIFF OMITTED] T3578.064
    
    [GRAPHIC] [TIFF OMITTED] T3578.065
    
    [GRAPHIC] [TIFF OMITTED] T3578.066
    
    [GRAPHIC] [TIFF OMITTED] T3578.067
    
    [GRAPHIC] [TIFF OMITTED] T3578.068
    
    [GRAPHIC] [TIFF OMITTED] T3578.069
    
    [GRAPHIC] [TIFF OMITTED] T3578.070
    
    [GRAPHIC] [TIFF OMITTED] T3578.071
    
    [GRAPHIC] [TIFF OMITTED] T3578.072
    
    [GRAPHIC] [TIFF OMITTED] T3578.073
    
    [GRAPHIC] [TIFF OMITTED] T3578.074
    
    [GRAPHIC] [TIFF OMITTED] T3578.075
    
    [GRAPHIC] [TIFF OMITTED] T3578.076
    
    [GRAPHIC] [TIFF OMITTED] T3578.077
    
    [GRAPHIC] [TIFF OMITTED] T3578.078
    
    [GRAPHIC] [TIFF OMITTED] T3578.079
    
    [GRAPHIC] [TIFF OMITTED] T3578.080
    
    [GRAPHIC] [TIFF OMITTED] T3578.081
    
    [GRAPHIC] [TIFF OMITTED] T3578.082
    
    [GRAPHIC] [TIFF OMITTED] T3578.083
    
    [GRAPHIC] [TIFF OMITTED] T3578.084
    
    [GRAPHIC] [TIFF OMITTED] T3578.085
    
    [GRAPHIC] [TIFF OMITTED] T3578.086
    
    [GRAPHIC] [TIFF OMITTED] T3578.087
    
    [GRAPHIC] [TIFF OMITTED] T3578.088
    
    [GRAPHIC] [TIFF OMITTED] T3578.089
    
    [GRAPHIC] [TIFF OMITTED] T3578.090
    
    [GRAPHIC] [TIFF OMITTED] T3578.091
    
    [GRAPHIC] [TIFF OMITTED] T3578.092
    
    [GRAPHIC] [TIFF OMITTED] T3578.093
    
    [GRAPHIC] [TIFF OMITTED] T3578.094
    
    [GRAPHIC] [TIFF OMITTED] T3578.095
    
    [GRAPHIC] [TIFF OMITTED] T3578.096
    
    [GRAPHIC] [TIFF OMITTED] T3578.097
    
    [GRAPHIC] [TIFF OMITTED] T3578.098
    
    [GRAPHIC] [TIFF OMITTED] T3578.099
    
    [GRAPHIC] [TIFF OMITTED] T3578.100
    
    [GRAPHIC] [TIFF OMITTED] T3578.101
    
    [GRAPHIC] [TIFF OMITTED] T3578.102
    
    [GRAPHIC] [TIFF OMITTED] T3578.103
    
    [GRAPHIC] [TIFF OMITTED] T3578.104
    
    [GRAPHIC] [TIFF OMITTED] T3578.105
    
    [GRAPHIC] [TIFF OMITTED] T3578.106
    
    [GRAPHIC] [TIFF OMITTED] T3578.107
    
    [GRAPHIC] [TIFF OMITTED] T3578.108
    
    [GRAPHIC] [TIFF OMITTED] T3578.109
    
    [GRAPHIC] [TIFF OMITTED] T3578.110
    
    [GRAPHIC] [TIFF OMITTED] T3578.111
    
    [GRAPHIC] [TIFF OMITTED] T3578.112
    
    [GRAPHIC] [TIFF OMITTED] T3578.113
    
    [GRAPHIC] [TIFF OMITTED] T3578.114
    
    [GRAPHIC] [TIFF OMITTED] T3578.115
    
    [GRAPHIC] [TIFF OMITTED] T3578.116
    
    [GRAPHIC] [TIFF OMITTED] T3578.117
    
    [GRAPHIC] [TIFF OMITTED] T3578.118
    
    [GRAPHIC] [TIFF OMITTED] T3578.119
    
    [GRAPHIC] [TIFF OMITTED] T3578.120
    
    [GRAPHIC] [TIFF OMITTED] T3578.121
    
    [GRAPHIC] [TIFF OMITTED] T3578.122
    
    [GRAPHIC] [TIFF OMITTED] T3578.123
    
    [GRAPHIC] [TIFF OMITTED] T3578.124
    
    [GRAPHIC] [TIFF OMITTED] T3578.125
    
    [GRAPHIC] [TIFF OMITTED] T3578.126
    
    [GRAPHIC] [TIFF OMITTED] T3578.127
    
    [GRAPHIC] [TIFF OMITTED] T3578.128
    
    [GRAPHIC] [TIFF OMITTED] T3578.129
    
    [GRAPHIC] [TIFF OMITTED] T3578.130
    
    [GRAPHIC] [TIFF OMITTED] T3578.131
    
    [GRAPHIC] [TIFF OMITTED] T3578.132
    
    [GRAPHIC] [TIFF OMITTED] T3578.133
    
    Dr. Chu. We recognize we're not immune from the ills of the 
civil population. I'll return to that point in just a second. 
We do, as Senator Warner indicated, set a higher standard in 
the military, and we aim to meet that standard. As Senator 
Allard indicates, that is a long-term challenge for our 
institution.
    The survey does provide us one benchmark, however, and that 
is, how we did in an earlier period of time. A similar survey 
with very similar questions that permit methodologically sound 
comparisons was taken in 1995. Let me briefly summarize the key 
results and invite you and your staff to peruse the detailed 
data at your convenience.
    First of all, the incidence of sexual assault in the 
military is down from 1995. It is approximately cut in half 
from the level that prevailed 7 years earlier. Second, our 
people believe that the training they have received in dealing 
with issues like sexual harassment and other inappropriate 
forms of sexual conduct is good, and at least the majority 
believe that they know what they should do, and how they can 
report such incidents if and when they occur. Third, the 
majority of our people believe that commanders are willing to 
take action on issues like sexual harassment and more serious 
forms of sexual misconduct.
    Indeed, as you look at the results in this survey, what you 
see is that the misconduct is concentrated in the most junior 
ranks, or the people who have most recently joined the 
military. This comes back to our challenge, which is recruiting 
from the larger civil population. The challenge that we must 
meet is how to enforce a higher code of behavior.
    We have improved over this period of time. Our performance 
is not perfect, as the specific incidents to which you've 
pointed attest; hence, the review the Secretary has ordered. We 
are committed to making the improvements that are necessary to 
get the next round of improvement to occur. Above all, we are 
committed to care for the victim properly, to have the sense of 
urgency that Senator Collins and others have identified, and to 
work to prevent such assaults from taking place in the first 
place.
    With your permission, Mr. Chairman, I would turn to my 
colleagues for their summaries of the individual Service 
efforts in this regard.
    [The prepared statement of Dr. Chu follows:]

                Prepared Statement by Dr. David S.C. Chu

              PREVENTING AND RESPONDING TO SEXUAL ASSAULTS

    Thank you, Mr. Chairman, for inviting me to appear before you today 
to discuss Department of Defense (DOD) policies and programs related to 
sexual assault. The Secretary of Defense has clearly stated that we 
will not tolerate sexual assaults in the Armed Forces of the United 
States. I shall address the policies and programs of the DOD, and the 
Vice Chiefs of Staff of the Services, who are prepared to testify with 
me, will address the policies and programs of their Services.
    Sexual assault is criminal conduct and will not be tolerated in the 
DOD. Commanders at every level have a duty to take appropriate steps to 
prevent sexual assaults, protect victims, and ensure the best possible 
medical and support services are available to them, and hold those who 
commit offenses accountable. All the elements of these policies are 
essential to morale, good order and discipline within our Armed Forces. 
Regardless of whether our service members are deployed in combat 
environments in foreign lands or are serving in peacetime garrisons 
within the United States or elsewhere, they have a right to believe, 
and to expect that these policies will be fully enforced throughout the 
chain of command.
    I will relate additional details of these policies throughout this 
statement, but let me reiterate at the outset that Secretary Rumsfeld 
has expressly stated to the Department his concern about recent reports 
of sexual assaults. Twenty days ago, Secretary Rumsfeld directed me to 
review how DOD handles treatment of and care for victims of sexual 
assault, with particular attention to any special issues that may arise 
from the circumstances of a combat theater. Secretary Rumsfeld's 
directive to me emphasized that we are responsible for ensuring that 
the victims of sexual assault are properly treated, their medical and 
psychological needs are properly met, our policies and programs are 
effective, and we are prompt in dealing with all issues. This review 
will address the reporting of sexual assaults, including the 
availability of private channels of reporting within combat theaters, 
and whether additional instruction may be needed for deploying and 
redeploying service members.
    I have appointed Ms. Ellen Embrey, Deputy Assistant Secretary of 
Defense for Force Health Protection and Readiness, to lead a DOD Task 
Force on Care for Victims of Sexual Assaults. This task force has 
already begun its work. As I testify before you today she is in Central 
Command's (CENTCOM) areas of operations to begin the inquiry of her 
task force. The task force consists of 10 members who have been 
selected from the Services and the Joint Staff. They will draw upon 
experts from the medical, personnel, social services, legal, and 
criminal investigative communities. They will also engage with numerous 
military and civilian experts, including victim advocates, to address 
objectively the treatment and care of sexual assault victims.
    Ms. Embrey's plan includes field review within the combat theater 
of operations. She has my full authority to engage, as necessary and 
appropriate, the military departments, the Joint Staff, the combatant 
commands, the Office of the Secretary of Defense (OSD), the Inspector 
General (IG) of the DOD, defense agencies, and DOD Field Activities to 
provide the information needed to complete the review. The findings and 
recommendations of this task force are due to me no later than April 
30, 2004. I will make my report to Secretary Rumsfeld in May. Once he 
has made his decision I will be glad to brief this committee.
    Let me assure you that we are not limiting our efforts to this 
individual task force. Last summer, a panel led by former Congresswoman 
Fowler, investigated allegations of sexual misconduct at the Air Force 
Academy (AFA). The panel made recommendations with a single priority in 
mind: the safety and well-being of the women at the AFA. The report 
contained 21 specific recommendations that the panel believed would put 
the AFA back on track, and would ensure the continued success of the 
institution as it trains future leaders of our Air Force. Senior 
leaders in the Air Force are implementing those recommendations now as 
Congress directed in the 2004 National Defense Authorization Act. As a 
separate and distinct effort, Secretary Rumsfeld is in the process of 
appointing the Defense Task Force on Sexual Harassment and Violence at 
the Military Service Academies. This task force will conduct an 
extensive review of policies and programs relating to these issues at 
the Service Academies. They will have full authority to make 
recommendations concerning policies and the laws governing the Armed 
Forces.
    Let me now turn to our fundamental policies. First, we must care 
properly for the victim.
    Today there is, in the United States, a heightened concern about 
the rights of victims of all criminal offenses, and that concern is 
acute when the victim has suffered through a sexual assault. The DOD 
program for the protection of victims' rights is based on Federal law, 
and is expressed in DOD Directive 1030.1. The rights of a crime victim 
under this directive are:

    1. The right to be treated with fairness and with respect for the 
victim's dignity and privacy.
    2. The right to be reasonably protected from the accused offender.
    3. The right to be notified of court proceedings.
    4. The right to be present at all public court proceedings related 
to the offense, unless the court determines that testimony by the 
victim would be materially affected if the victim heard other testimony 
at trial.
    5. The right to confer with (the) attorney for the Government in 
the case.
    6. The right to restitution.
    7. The right to information about the conviction, sentencing, 
imprisonment, and release of the offender.

    For these rights to be exercised the victim must normally bring the 
offense to the attention of the command structure or law enforcement 
personnel. We are keenly aware that confidentiality is a major concern 
to victims. Our challenge is to sustain these rights in a way that is 
sensitive to confidentiality concerns. As our task forces conduct their 
reviews, we shall address such concerns and attempt to determine 
whether victims' rights are being protected throughout the Armed 
Forces.
    Health care support of victims is also a key element of our program 
as it is implemented in the field. To this end, the Services each 
provide health care support to victims. Health care and support 
services are available to service members in the current deployment 
theaters as well as in the United States and at overseas duty stations. 
In-theater response to sexual assault is provided both through the 
health care systems and law enforcement. Combat support hospitals are 
equipped with DOD sexual assault forensic kits to ensure appropriate 
evidence collection, and victim support is provided by behavioral 
health and chaplain resources. At the unit level, combat stress 
detachments, combat stress companies, and division level health assets 
are available to victims of sexual assault. To ensure support for 
victims of sexual assault in the combat theater, the Embrey Task Force 
will address the efficacy of their existing programs and propose 
improvements.
    Even with resources, programs and policies, a key element in this 
process is that the victim must make the decision to seek medical 
assistance. At the medical facility, the victim may consent to a 
forensic examination for the purpose of obtaining potential evidence. 
This process is strictly voluntary. To protect the rights of the 
individuals, consent cannot be obtained through coercion or by a direct 
order. If performed, the forensic examination is conducted following 
standard chain of custody procedures.
    Follow-on care for behavioral health support is available and 
highly encouraged. If the service member requires more extensive 
physical and emotional support, she or he can be medically evacuated to 
a medical facility in Europe or the United States.
    Within the DOD, the most fundamental policy with respect to sexual 
assault has been clearly established by Congress. Congress, without 
specifically using the term ``sexual assault,'' has described a broad 
spectrum of conduct as criminal. Accordingly, ``sexual assault'' is a 
generic term that we all use to describe a spectrum of criminal 
conduct. Every form of sexual assault is a felony that carries a 
maximum punishment that includes a substantial period of confinement as 
well as a punitive discharge.
    The most serious form of sexual assault, the crime of rape, is a 
crime that is, in addition, potentially punishable by death under the 
Uniform Code of Military Justice (UCMJ).
    The UCMJ also proscribes as felonies attempted rape, and forcible 
assault with intent to commit rape. Similar to a lesser form of the 
civilian offense of sexual battery, the military offense of indecent 
assault comprises any unwanted touching done with intent to gratify 
lust or sexual desire.
    Because Congress did not specify indecent assault as a crime, it is 
prosecuted under article 134, the general article, but this fact does 
not change the felony character of the offense. As is the case with all 
general article offenses, including indecent acts, indecent exposure, 
indecent language, prostitution and pandering, the Government must 
establish that the conduct was prejudicial to good order and discipline 
or of a nature to bring discredit upon the Armed Forces. As you might 
expect, these are not difficult burdens to carry.
    The military offense of cruelty or maltreatment of a subordinate is 
particularly effective in cases of sexual harassment or misuse of 
authority to obtain sexual favors. This is a serious offense under the 
UCMJ and does not require violence or physical mistreatment of a 
subordinate. This charge would clearly be appropriate where a 
subordinate consented to sexual relations with a military superior who 
used his authority to obtain an advantage in the relationship.
    Conduct unbecoming an officer is also an offense under the UCMJ 
which may be used to deal with dishonorable or disgraceful conduct by 
the officer when the conduct involves a member of the opposite gender 
regardless of military or civilian status.
    Where the offense and the surrounding circumstances are serious, 
court-martial with all its attendant rights and requirements is the 
appropriate disposition. Courts-martial require the services of 
professional judge advocates and, proof beyond a reasonable doubt.
    Not all the offenses that arise, however, are appropriate for 
court-martial disposition. Where the offense is minor, and swift 
resolution is imperative, non-judicial punishment or administrative 
action may be appropriate. Article 15 of the UCMJ authorizes commanders 
to take summary actions for minor offense, including minor sexual 
offenses. Deciding the appropriate disposition of these offenses 
requires training, experience and professional judgment. The Department 
maintains a highly trained corps of professional judge advocates to 
advise and assist commanders with these decisions. Today, these are 
matters where the views of the victim, as well as the need for 
discipline, are appropriate for consideration prior to decision.
    While the UCMJ is the principal expression of DOD policy concerning 
sexual assault, policy concerning sexual harassment is expressed in DOD 
Directive 1350.2. This directive defines sexual harassment as:

    (1) A form of sexual discrimination that involves unwelcome sexual 
advances, requests for sexual favors, and other verbal or physical 
conduct of a sexual nature when:

        (a) Submission to or rejection of such conduct is made either 
        explicitly or implicitly a term or condition of a person's job, 
        pay or career, or;
        (b) Submission to or rejection of such conduct by a person is 
        used as a basis for career or employment decision affecting 
        that person, or;
        (c) Such conduct interferes with an individual's performance or 
        creates an intimidating, hostile or offensive environment.

    (2) Any person in a supervisory or command position using or 
condoning implicit or explicit sexual behavior to control, influence, 
or affect the career, pay, or job of a military or civilian employee. 
Similarly, any military member or civilian employee making deliberate 
or repeated unwelcome verbal comments, gestures, or physical contact of 
a sexual nature.

    Violations of this directive by military personnel may be treated 
as felonies and can be tried by court-martial. The maximum punishment 
could include a substantial period of confinement and a punitive 
discharge. Most often, the offense of sexual harassment is resolved 
administratively under the provisions of service regulations, but our 
policy is clear and it is also effective. Since 1991, the IGs of the 
military services and of the DOD have included sexual harassment 
prevention and education as special interest items in their inspections 
and base visits. We will continue this emphasis in order to ensure the 
Department's policies are being adequately implemented.
    In summary, the DOD has, through the laws enacted by Congress, 
strong and effective policies for dealing with offender accountability. 
If any of the task forces I described earlier in my statement proposes 
changes in these policies or practices, we will bring such proposals to 
your attention without delay.
    While these policies and resulting punishments can serve as 
valuable deterents to undesirable behavior, prevention is the pre-
eminent objective. We know that training and active leadership 
involvement can produce an environment that is intolerant of such 
behaviors, and we are confident that creating such an environment will 
reduce the incidence of assault To this end, our policies require 
training at every level from the leader to the led. A principal means 
by which we assess the effectiveness of these policies is through 
surveys conducted by the Defense Manpower Data Center. Recent survey 
results indicate that such preventative measures are being taken 
seriously and are having positive results.
    In 2002, the DOD conducted its third Joint-Service survey assessing 
gender issues in the military as required by law. We have just finished 
tabulating the results, and I am pleased to report on them today and 
provide you with the report, because despite its title, it covers all 
elements of inappropriate sexual behavior, including sexual assault.
    The survey was fielded between December 2001 and April 2002. 
Service members had the option to complete the survey using either a 
paper-and-pencil version of the survey or they could complete it on the 
Web. Using a stratified random sampling approach, over 60,000 service 
members were selected to participate in the survey and almost 20,000 
did for a response rate of 36 percent. Overall, the findings are 
encouraging. The 2002 survey results indicate that DOD officials and 
military leaders take the issue of sexual harassment seriously and 
significant improvements have occurred. The survey results indicate 
that in 2002 compared to 1995--the date of the previous survey, all 
forms of unprofessional gender-related behaviors are less likely to 
occur. When they do occur they are less likely to occur on an 
installation, at work, or during duty hours. Sexual assault is least 
likely to occur on an installation, at work, or during duty hours.
    Between 1995 and 2002, reports of sexual assault on women declined 
from 6 percent to 3 percent, and reports of perceived sex 
discrimination, measured for the first time, were low. Most important, 
the survey results indicate service members are being trained, they 
understand sexual harassment policies and the behaviors that constitute 
sexual harassment, and their ratings of their leaders for making honest 
and reasonable efforts to stop sexual harassment are significantly 
higher in than in 1995. Seventy-four percent of members in 2002 
(compared to 65 percent in 1995) indicated leaders at the service level 
were making honest efforts to stop sexual harassment. At the 
installation level, these figures were 75 percent in 2002 and 65 
percent in 1995; and similarly, at the local-level, these figures were 
75 percent in 2002 compared to 67 percent in 1995--an overall 
improvement of over 10 percent at all levels.
    While the military services, overall, have made real advances in 
combating sexual harassment, it is clear that there are some locations 
where it is still occurring. Finding those locations and taking 
corrective actions are logical follow-on actions to this survey effort.
    In closing, let me state that the leaders of the DOD, from 
Secretary Rumsfeld to the commanders in the field, share your 
commitment to preserving the integrity of our Armed Forces, and to 
ensuring that every service member is treated with the utmost dignity 
and respect. Sexual assault will not be tolerated. Our reviews of the 
issues before us today will be thorough and complete, and we will give 
you a comprehensive report.

    Senator Chambliss. Thank you, Dr. Chu.
    Senator Chambliss. General Casey, we are glad to have you 
here, and we look forward to your testimony.

  STATEMENT OF GEN. GEORGE W. CASEY, JR., USA, VICE CHIEF OF 
                   STAFF, UNITED STATES ARMY

    General Casey. Thank you, Mr. Chairman, Senator Nelson, 
members of the committee, and Chairman Warner, and I appreciate 
the opportunity to appear before you today to talk about and 
explain to you the Army's commitment for the care and support 
of the victims of sexual assault.
    As we sit here today, we have almost 300,000 soldiers 
deployed in 47 countries around the globe. I want to assure you 
that the Army is committed to the care and support of every one 
of those soldiers. Respecting and protecting the dignity of all 
of our soldiers is a cornerstone of our institution.
    Despite our commitment to that basic principle of 
leadership, recent allegations of sexual misconduct have caused 
us concern, and we do take them very seriously. They have 
prompted us to take a very focused and thorough review. Sexual 
assault is a criminal offense that has no business in the Army. 
Commanders and leaders at every level understand that they have 
a duty to take the appropriate steps to prevent sexual assault, 
and protect and support the victims, and to hold those who 
commit such offenses accountable. The Army is committed to 
dealing expeditiously with any complaint or allegation of 
sexual assault, to providing strong support to victims of all 
crimes, whether it's in a deployed environment or at home in 
their garrisons.
    Mr. Chairman, this is about leadership, unit cohesion, and 
discipline. These are things we work very hard at in the Army. 
We teach our leaders at every level to build a command climate 
that fosters dignity and respect for every soldier, and we 
teach them to create cohesive units grounded on the trust of 
soldiers in the chain of command and in each other. We teach 
our soldiers Army values and how to deal with sexual harassment 
and sexual misconduct in basic training, and we reinforce it 
twice a year. Our goal is to prevent sexual misconduct and to 
ensure that any soldier who's a victim of a sexual crime 
understands how to deal with it and feels free to report it to 
the chain of command.
    When sexual assaults are reported, the chain of command 
maintains a dual focus on support of the victim and ensuring 
proper and complete investigations. First of all, we have many 
programs to ensure that a victim's medical and psychological 
needs are properly met. Army hospitals, both in garrison and 
deployed, provide medical care, collect evidence, and provide 
counseling. The Army also operates a comprehensive victim 
witness liaison program at every installation and in support of 
deployed forces to prevent re-victimization. Today there are 
such representatives down to division level in Iraq and 
Afghanistan providing support for our soldiers. Victim support 
is also available through our brigade equal-opportunity 
advisors and our battalion-level chaplains. I will tell you 
frankly here that our preliminary review of this area, in 
victim assistance, leads me to believe that we have some more 
work to do in this area.
    Second, Army policy requires the prompt and thorough 
investigation of every reported incident of sexual harassment 
and sexual assault. Sexual assault is a crime, and our Criminal 
Investigation Command is the primary agent for investigating 
sexual assaults. Additionally, our Judge Advocate General (JAG) 
and our lawyers, through their offices at home and with 
deployed forces, provide legal advice to commanders for the 
prosecution of suspects when the evidence warrants.
    That said, we continuously monitor our programs and 
policies to ensure that we are doing everything possible for 
the soldiers who are victims of sexual assault. The recent 
reports of more than 80 incidents of sexual assault in the 
CENTCOM area of operations has caused us to look hard at our 
processes and procedures for the reporting of sexual assaults 
and for the support of its victims.
    In addition to participating in the effort that David Chu 
spoke of, the Acting Secretary of the Army has directed the 
establishment of a task force to conduct a detailed review of 
the effectiveness of the Army's policies on reporting and 
properly addressing the allegations of sexual assault. This 
effort is a total systems review of our policies, programs, 
procedures, and training in regard to how we both prevent and 
investigate sexual assault and how we provide the most 
effective support to its victims.
    This task force will report out at the end of May, but if 
it identifies any actions to be taken sooner, we'll implement 
them. I will tell you, along the lines of what Senator Allard 
suggested, we have already implemented a quarterly review of 
all sexual assault cases, that we will undertake here in 
Washington. We simply will not tolerate sexual assault within 
our ranks.
    Mr. Chairman, every American can be proud of the job that 
our young men and women are doing every day leading the defense 
of America. In closing, I'd just like to reinforce to you what 
General Schoomaker told you earlier this month when he appeared 
before you. First of all, we're addressing this issue very 
aggressively. It is a leadership issue, it is a command issue, 
and it is a discipline issue. Those are three areas that get to 
the heart of what the Army is all about. We have great 
confidence in our soldiers and leaders, and we will do what is 
right to ensure that every one of our soldiers is treated with 
dignity and respect.
    Thank you very much for having me here, and I look forward 
to taking your questions.
    [The prepared statement of General Casey follows:]

          Prepared Statement by Gen. George W. Casey, Jr., USA

    Mr. Chairman and members of the committee, on behalf of the men and 
women of the United States Army, I appreciate the opportunity to appear 
before you today to provide an overview of the Army's commitment and to 
the care and support for victims of sexual assault. As I testify before 
you today, we have more than 297,000 soldiers deployed in more than 47 
countries around the globe. Let me assure you the Army--and its 
leaders--are committed to taking care of every one of those soldiers. 
Sexual assault is a criminal offense that has no place in our Army. 
Such actions are incompatible with the values we demand of our soldiers 
and demand of our leaders. Additionally, these actions degrade mission 
readiness by undermining unit cohesion and our ability to work 
effectively as a team. Commanders and leaders at every level have a 
duty to take appropriate steps to prevent sexual assault, protect and 
support victims, and hold those who commit offenses accountable. The 
Army takes seriously every allegation of sexual misconduct and 
thoroughly investigates all such allegations.
    Respecting and protecting the dignity of every soldier are 
cornerstones of this great institution. Throughout its 229 years of 
service to the Nation, the Army has stressed to our soldiers and 
leaders that demonstrating respect for one another is an integral part 
of leadership and of soldiering--in fact, it is the foundation of our 
ability to work as a team. Recently, despite our commitment to that 
basic principle of soldier relationships and leadership, allegations of 
sexual misconduct in the ranks have caused us concern and prompted us 
to take a very focused and thorough review of this matter. We take 
those reports seriously and are currently undergoing an extensive 
review of the issues related to those reports.
    The discipline of our Army, especially our deployed Army, is the 
bedrock of today's superb fighting force. The Army has always been, and 
remains committed, to taking care of soldiers and dealing expeditiously 
with any complaint or allegation. It is incumbent on leaders at every 
level to ensure that a climate exists where a soldier who is a victim 
of a sexual assault or any other crime feels free to report that crime 
to their chain of command and that leaders understand their 
responsibilities to support the victims and investigate allegations. 
When a soldier reports a criminal act such as this, the Army is 
resolved to take immediate and proper action. We ensure that we focus 
on both support to the victim with medical attention, if appropriate, 
as well as verifying that there is chain of command knowledge of any 
alleged incident. This allows the leadership to maintain a dual focus 
on support to the victim and supervision of a proper and complete 
investigation of the possible criminal conduct.
    The U.S. Army Criminal Investigation Command is actively 
investigating or has completed investigations in 86 sexual assault 
crimes reported in the Central Command (CENTCOM) area of operations. 
The Army takes a tough and aggressive stance on investigating and, when 
the evidence warrants, prosecuting sexual assault cases. The Army is 
committed to providing strong support to victims of all crimes whether 
in a deployed environment or in garrison. As with all criminal 
allegations, there is a presumption of innocence until a case is fully 
investigated and, if appropriate, tried in a court of law. As you are 
well aware, the Uniform Code of Military Justice (UCMJ) provides 
commanders with the necessary process to ensure good order and 
discipline in our force. By protecting the rights of the accused and 
victims alike, the UCMJ provides the tools necessary to ensure the 
integrity of our investigatory and military justice system. The Army is 
committed to ensuring that the victims of sexual assault are properly 
cared for and treated and that their medical and psychological needs 
are properly met. Victim support is a chain of command responsibility, 
and we have many great programs that focus on victims of sexual 
assault. Law protects the rights of victims, and the Army operates a 
comprehensive victim/witness assistance and liaison program, consistent 
with Federal law and Department of Defense (DOD) instruction, at every 
installation and in support of deployed forces. DOD and Army 
regulations require victim/witness services available in theater, 
normally at the division level, providing support to victims of crimes, 
including sexual assault. The Combat Support Hospital in Iraq is 
equipped with an emergency room to provide medical support to victims. 
In addition to the general medical support, the Combat Support Hospital 
is equipped with rape protocol kits and standard operating procedures 
on the proper collection of evidence. Finally, the Combat Support 
Hospital has protocols in place for victim assistance aside from 
medical treatment. Kuwait also has extensive medical facilities, 
including psychiatric support. We are reviewing our programs and 
policies to ensure they effectively meet the needs of our soldiers who 
are victims of sexual assault.
    We are assessing the Army's policies and programs to determine 
whether they properly provide appropriate support services to victims 
both in garrison and in a deployed environment. To ensure that our 
current policies and programs are effective, the Acting Secretary of 
the Army has directed the establishment of a task force to conduct a 
detailed review of the effectiveness of the Army's policies on 
reporting and properly addressing allegations of sexual assault. The 
task force will further review the processes in place to ensure a 
climate exists where victims feel free to report allegations and 
leaders at every level understand their responsibilities to support 
those victims. This task force will render its report by the end of May 
2004. However, if the task force identifies problem areas sooner, the 
Army will implement new procedures as they are approved. The Acting 
Secretary of the Army communicated an Army-wide message on the work to 
be done by the task force and to ensure leaders at all levels are 
focused how we support victims of sexual assault. The specific charter 
of the task force is to:

        <bullet> Conduct a systems review of the Army's policy on 
        sexual assault and the processes currently in place.
        <bullet> Review the processes currently in place to ensure a 
        climate in which victims feel free to report allegations and 
        ensure commands understand their responsibilities to support 
        the victims and investigate the allegations.
        <bullet> Recommend changes or additions to current policies, 
        programs, and procedures to provide clear guidance for 
        reporting and addressing sexual assault allegations and 
        protocols for the support of victims.

    This effort is a total systems review of policy, programs, 
procedures, and training with regard to how the Army both works towards 
the prevention of and the resolution of sexual assault once it occurs. 
Good leadership is critical to the creation and maintenance of a 
positive human relations environment where soldiers are willing to 
report any act of sexual misconduct, without fear of retribution, 
reprisal, or impact on their careers. The Army will simply not tolerate 
sexual misconduct within our ranks, and the key to correcting this 
problem is effective leadership.
    I have unwavering confidence in the talent, integrity, and 
professionalism of the individuals who make up our Army. Every American 
can be proud of the job our soldiers do every day in leading the 
defense of America. In the past, the U.S. Army has faced and overcome 
daunting challenges in its human dimension. We have the people, the 
will, and the tradition to achieve and maintain an environment of 
mutual dignity and respect--for all our soldiers. The leadership of 
this great Army wants the very best for all of our soldiers. When the 
unthinkable happens to one of our soldiers, we are committed to provide 
them the very best in victim support and services.
    Once again, thank you for allowing me to speak before you today and 
I look forward to answering your questions.

    Senator Chambliss. Thank you, General.
    Admiral Mullen, thank you for being here.

 STATEMENT OF ADM. MICHAEL G. MULLEN, USN, VICE CHIEF OF NAVAL 
                 OPERATIONS, UNITED STATES NAVY

    Admiral Mullen. Good morning, sir.
    Senator Chambliss, Senator Nelson, distinguished members of 
the subcommittee, Chairman Warner, Senator Allard, and Senator 
Clinton, I greatly appreciate this opportunity to appear before 
you to discuss this critical issue of sexual assault.
    Let me state up front, sexual assault of any kind is 
intolerable and corrosive to the good order and discipline of 
our Navy. I want to be clear on this topic. This is not just in 
my Navy. It is a crime, and it is unacceptable.
    I do believe the Navy has a strong, comprehensive program, 
and our current statistics are trending in the right direction. 
However, we're not at zero. Words like ``sense of urgency,'' 
``outrage'' and ``zero'' are appropriate.
    The Navy is committed to providing a coordinated 
multifaceted program to prevent and respond to sexual assault. 
Our guiding principles in formulating our policies and programs 
in this area are prevention, active victim intervention and 
support, leadership responsibility and accountability, full and 
complete investigation, timely and accountable prosecution, 
sound training and education, rapid reporting, with active, 
accurate data collection, and continuous improvement.
    When considering an effective approach, we've looked at the 
problem through the lens of readiness to do the country's 
bidding while adhering to these principles. As a result, 
prevention leads the list.
    Command responsibility and accountability are the 
centerpiece of program implementation. In cases where an 
assault occurs, protecting the victim becomes the top priority 
as we thoroughly investigate each case to hold the accused 
accountable. We do this through the Navy's SAVI program. Our 
head of Policy and Prevention in our Counseling and Advocacy 
and Prevention Branch in the Navy is Dr. Terri Rau, and she 
will be with you in the second panel today. She is a true 
expert in the field, and has contributed significantly over the 
past decade. Much of our success of successful programs has 
been born from her diligent efforts.
    The SAVI program was established as an outgrowth of the 
1990 Navy Women's Studies Group to ensure that victims of 
sexual assault are treated with fairness and respect. The 
program's stated mission is ``to provide a comprehensive, 
standardized Navy-wide advocacy system to prevent and respond 
to sexual assault.''
    SAVI's aim is to prevent and to respond to sexual assault 
throughout the Navy, with reporting and data collection as 
required elements. It is important to note that the Navy was 
striving to get its personnel policy programs right at the 
time, particularly with respect to gender issues as a result of 
both integrating women at sea, which started in 1978, and 
Tailhook. Consequently, this effort was very deliberate and 
received considerable review.
    The SAVI program has served the Navy, its service members 
and their families well. A number of different reviews show 
evidence of steady declines in the frequency of sexual assaults 
over time. The draft 2002 Armed Forces Sexual Harassment 
Survey, to which Dr. Chu referred, has us trending in the right 
direction, with a 50 percent reduction between 1995 and 2002.
    Our criminal investigative service has done a detailed 
case-by-case review of sexual assaults from 2000 to 2002, and 
that also indicates a decreasing trend of about 10 percent a 
year for 2001, 2002, and 2003.
    The program is strengthened by Navy leadership and is 
engaged in preventing and responding to sexual assault. We have 
SAVI training integrated into our leadership continuum of 
schools, with time dedicated to the training of carefully 
screened unit leaders, commanding officers, executive officers, 
command master chiefs, selected senior enlisted petty officers, 
and designated SAVI representatives.
    I rely heavily on our commanding officers, who typically 
have about 17 to 18 years of experience in our Navy. He or she 
is, in turn, directly assisted by an executive officer with 
about 13 years of experience, and a senior command master chief 
with between 15 to 20 years experience. My point here is that 
this leadership core is both experienced and fully devoted to 
creating a positive command climate. More importantly, training 
of these unit leaders is not a one-time affair. It is provided 
multiple times throughout a career. This includes training in 
handling the issue of prevention and action associated with 
sexual assault. Sexual assault training is also required for 
all hands annually.
    In those unfortunate cases where prevention fails and a 
sexual assault is reported within the Navy family, we follow 
established procedures that include immediate support for the 
victim, including a dedicated representative to prevent re-
victimization, immediate protection, medical treatment, 
counseling support and guidance, initiation of a full 
investigation, prosecution where appropriate, detailed formal 
incident reporting, notification of law enforcement 
authorities, command representatives, and commanding officers.
    The SAVI program has, I believe, met the needs of our 
service members, whose perspective, I think, is important. A 
survey of SAVI program users 2 years ago reflected that 100 
percent of those receiving advocacy services said that the 
Services helped them cope with the sexual assault. Ninety-six 
percent indicated that the program showed concern for sailors 
and families.
    That said, I recognize there is a need to do more. We are 
doing more. In particular, the SAVI program has been recently 
bolstered by incorporating information from national survey 
findings in both our educational material and, due to the 
incidence of alcohol influence in the majority of these type of 
crimes, into all of our Navy drug and alcohol program 
initiatives. This is clearly an area where we need to stay 
focused. About one-half of the reported incidents of sexual 
assault involved the use or abuse of alcohol.
    Last year, we also developed and recently distributed a 
sexual assault public-awareness campaign to our fleet and 
family service support centers highlighting the Navy SAVI 
program. We are also formulating a new general military 
training program and improving our Web access.
    There's still plenty of room to move ahead and make more 
progress. Specifically, I want to get a better handle on our 
many systems of reporting and tracking statistics and resolving 
them. I'd also like to increase their frequency and expand the 
sampling populations of formal surveys. Where our data shows an 
increase in education and training will continue to improve 
awareness and improve trends through prevention, I will add 
more resources, tying the findings of sexual assaults into a 
frequent root catalyst of the crime.
    Mr. Chairman and members of the subcommittee, we're 
committed to fostering a culture that protects victims of 
sexual assault and holds those who commit sexual assault 
accountable for their actions. We're investing more than ever 
in our individual sailors and our officer corps to support a 
strong Navy that is ready to respond, as it has in the last 
several years, to events throughout the world. Sexual assault 
has no place in it. Zero tolerance is the only acceptable 
standard.
    This hearing has provided another valuable opportunity to 
reevaluate where we are and to take additional steps to ensure 
our programs are the very best in the world to support the best 
Navy in the world.
    Thank you for your continued support of our Navy and my 
other joint partners who are here with me today. We are making 
progress. The trend is in the right direction, but we still 
have work to do. I look forward to your questions.
    [The prepared statement of Admiral Mullen follows:]

           Prepared Statement by Adm. Michael G. Mullen, USN

    Mr. Chairman and subcommittee members, I greatly appreciate the 
opportunity to discuss the important issue of sexual assault in the 
Navy. The Department of the Navy policy is very clear on this matter: 
there is no place for sexual assault in the Navy, period. In those 
cases where a sexual assault allegation does occur, the victim is 
immediately treated with fairness and respect, and every effort is made 
to hold the accused accountable. Our program has elements of both 
prevention and response; and in the response phase, it is victim-
oriented to minimize revictimization and to provide the best support 
possible to a service member, a shipmate if you will, in need.
    The Navy is committed to providing a coordinated, multi-faceted 
effort to prevent and respond to sexual assault. The Navy's efforts are 
based on several principles which guide us in formulating our policies 
and programs: prevention; active victim intervention and support; 
leadership responsibility and accountability; full and complete 
investigation; timely and accountable prosecution; sound training and 
education; and rapid reporting with active data collection. When 
considering an effective approach, we've looked at the problem through 
the lens of readiness while adhering to the principles articulated 
above. Prevention leads the list. Command responsibility and 
accountability are the hallmarks of our profession and thus, become the 
centerpiece of program implementation. The commander of each unit must 
create the right climate, sustain an awareness of the issues, conduct 
training for all hands, and properly report incidents when they occur. 
In cases where an assault occurs, protecting the victim becomes the top 
priority. To accomplish this, we thoroughly investigate each case and 
strive to ensure accurate data is retained, while constantly seeking to 
improve in every area where an ounce of prevention could avert an 
incident.
    Our broad array of response services encompasses not only service 
members but their dependents as well, even in cases occurring off Navy 
installations. To be clear, regardless of the circumstances, we are 
committed to provide immediate assistance, with specially trained 
command representatives and victim advocates, regardless of whether an 
assault occurs onboard a ship, on a military installation, on liberty 
in a foreign port, or in an apartment out in town.
    I thank you for your leadership on this issue. There are a number 
of ideas the Navy has incorporated into our program because of your 
past recommendations and the insights of members and staff. This is a 
very important time and opportunity for all of us to learn, take 
additional steps forward, and continuously improve.

                               BACKGROUND

    In 1990, the Chief of Naval Operations (CNO) formed the Navy 
Women's Study Group. They issued a comprehensive report on the progress 
of women in the Navy that highlighted problems with sexual assault. 
Their recommendations included establishment of a Navy-wide sexual 
assault victim assistance program, all-hands training in sexual assault 
awareness and prevention, and development of a database to maintain 
records and attend to any developing trends. Navy leadership, at both 
the Secretary and CNO level, supported the recommendations and, as a 
result, the Sexual Assault Victims Intervention (SAVI) program was 
established. The program's stated mission is: ``to provide a 
comprehensive, standardized Navy-wide advocacy system to prevent and 
respond to sexual assault.'' The effort involved in creating this and 
other personnel policy programs was quite considerable as the Navy 
strove to get these programs right the first time. The program was 
expanded to include the entire fleet and, in 1994, to provide for SAVI 
points of contact at all commands Navy-wide. The goal of the SAVI 
program is to provide a comprehensive, standardized, gender-neutral, 
victim-sensitive system to first, prevent, and second, respond, to 
sexual assault throughout the Navy.
    Current SAVI requirements place heavy emphasis on creating 
awareness and providing prevention education. The program also ensures 
victim advocacy and intervention while providing for long-term data 
collection. Compliance with SAVI requirements is integrated with 
command responsibility at the commanding officer level, the accountable 
officer for properly executing all facets of this program instruction, 
with program execution and compliance assured through our 67 Fleet and 
Family Support Centers (FFSCs) worldwide. These centers provide 
training and support of command SAVI points of contact and assist with 
periodic assessment of SAVI requirements by the Navy Inspector General 
(IG), component commanders, unit senior commanders, and commanding 
officers.

                          PROGRAM AND PROCESS

    There is a steady-strain focus within the Navy on sexual assault 
awareness and prevention education. Leadership is engaged. Training on 
SAVI and general sexual assault awareness specifically occurs at every 
initial accession point for both officers and enlisted personnel, and 
through our leadership continuum of schools that are required for each 
increase in responsibility. Of note, dedicated time is spent on 
training carefully screened unit leaders: commanding officers, 
executive officers, command master chiefs, select senior enlisted, 
petty officers, and designated SAVI representatives. I rely heavily on 
our commanding officers, who typically have about 17-18 years of 
experience. He or she is, in turn, directly assisted by an executive 
officer with about 13 years of experience and a command master chief 
with 15 to 20 years of experience. My point is that this leadership 
core is experienced and fully devoted to creating a positive command 
climate. More importantly, training of these unit leaders is not a one-
time affair; it is provided multiple times throughout a career. Sexual 
assault training is also required for all hands annually and is taught 
during General Military Training (GMT). Materials are provided to all 
commands Navy-wide, as they have been since 1996.
    SAVI, in partnership with Naval Education and Training Command, has 
developed and distributed thousands of copies of three sexual assault 
prevention and education videos for additional all-hands awareness and 
training. At every Navy command, SAVI command coordinators/points of 
contact are designated by the commanding officer to serve as the 
command SAVI expert. They are responsible for implementing command 
training requirements and providing victim resource information. Over 
1,250 SAVI command points of contact were trained on sexual assault and 
SAVI requirements during this past fiscal year alone. Further, this 
entire effort has been integrated with the Navy's Right Spirit alcohol 
deglamorization program due to the high correlation of sexual assaults 
and alcohol use/abuse. This is certainly one area where increased 
emphasis could result in improvement. Our efforts to prevent sexual 
assault continue as we attack the issue through multiple, complementary 
avenues with SAVI as the primary conduit, and I hold our commanders and 
commanding officers responsible and accountable for its execution.
    When a sexual assault involving Navy personnel is reported--and 
there are multiple avenues for reporting an incident--the Navy follows 
a mandatory process designed to provide immediate support to the 
victim:

        <bullet> offer immediate advocacy services, including 
        protection, counseling, rights and medical treatment as 
        warranted,
        <bullet> notify law enforcement officials, command 
        representatives, and commanding officers,
        <bullet> collect and preserve evidence,
        <bullet> provide victim safety,
        <bullet> inform victims of their rights,
        <bullet> submit an immediate situation report (SITREP) that 
        informs the chain of command including Navy headquarters,
        <bullet> follow through on legal investigation and prosecution, 
        and
        <bullet> provide victims continuing support and access to 
        services even after official resolution.

    A real strength of the SAVI program is in providing multiple 
avenues for victims to report, seek appropriate criminal investigation, 
and receive support, advocacy, and intervention services. This, coupled 
with the assignment of a dedicated representative, encourages victims 
to participate in investigations while truly minimizing the potential 
for revictimization.
    While SAVI facilitates education, law enforcement, and legal 
response, we consider victim support as the most important element of 
the program. Commanders are required to, and do, designate command 
representatives who serve as the liaison with an individual victim. The 
representative prevents revictimization by limiting the number of 
command officials with whom the victim is required to interact and 
provides a direct line of communication to the commanding officer. It 
greatly increases the opportunity for the victim to voice safety 
concerns, express preferences and receive information on the command's 
response to the assault. I believe that the victim's perspective on how 
Navy commands are doing is vitally important; we get our most important 
report card from them. In a 2002 survey of SAVI program users, 100 
percent of those receiving advocacy services indicated that the 
services helped them cope with the sexual assault and 96 percent 
indicated that the program showed concern for sailors and families. 
These are positive indicators.
    All Navy commands, ashore and afloat, provide 24/7 advocacy for 
sexual assault victims, either through use of trained military 
volunteers or community sexual assault advocates. While the SAVI 
representative provides that single line of communication within a 
command, the advocate provides guidance throughout the whole process, 
links to services, as well as emotional support. Almost 1,700 
additional military volunteers were trained and certified as sexual 
assault victim advocates in fiscal year 2003 alone. This year, over 300 
deploying/afloat commands had trained SAVI victim advocates assigned 
aboard their ships and squadrons to respond without delay if sexual 
assault occurred in a foreign port or while underway. We take our SAVI 
services with us. Judicious handling of sexual assaults at sea are 
critical to preserving unit cohesion, good order and discipline, and 
mission accomplishment. Navy units, as vessels of diplomacy, emphasize 
good behavior ashore and, while the Navy does not have a perfect track 
record, fleet commanders and commanding officers are fully engaged. 
This aids in minimizing improper conduct of all kinds while deployed, 
including sexual assault. When appropriate, professional intervention 
services for victims are available within FFSCs, Navy Medical Treatment 
Facilities, major units afloat or through referral to available 
civilian resources. The provision of clinical counseling services 
within the FFSCs is unique to the Department of the Navy.
    Individual commands play a key role in the success of the SAVI 
program. In addition to annual mandatory training for all-hands, every 
command is required to publicize a means by which individuals can 
report situations or circumstances where they perceive they may be at 
risk of sexual assault. Commands are required to report any alleged 
sexual assault involving Navy personnel to the Naval Criminal 
Investigative Service (NCIS) and forward a unit SITREP for all alleged 
sexual assaults involving active duty or family members, or occurring 
on Navy property. Command data collection coordinators are responsible 
for collecting required information from involved third parties, 
minimizing revictimization, and forwarding information in initial and 
monthly continuation reports until a final disposition of the incident 
is reported. Data is then extracted from SITREPs and entered into the 
SAVI Rape and Sexual Assault System (RASAS) database at Navy Personnel 
Command headquarters.

Analysis and Initiatives
    The recent call by the Secretary of Defense and the Fowler Report 
highlight the seriousness of sexual assault in the military. The Navy 
is committed to improving our efforts in preventing this crime. In 
doing so, we rely on inputs from subject matter experts like Dr. Terri 
Rau, who is our SAVI expert and who you will hear from in the next 
panel, from commanders and commanding officers, from fleet units, shore 
commands, and a review of data on sexual assaults to improve our 
program. The data is not as robust as we would like; the most reliable 
data we have is often historical in nature. We know from surveys inside 
and outside the Navy that a significant number of sexual assaults are 
not reported. Knowing that, we can still move forward by drawing trends 
from the data we do have.
    With respect to the frequency of actual incidence, the draft 2002 
Armed Forces Sexual Harassment Survey results, conducted by Defense 
Manpower Data Center (DMDC) for the Department of Defense, indicated 
that the number of Navy females reporting they had experienced sexual 
assault in the prior year declined 50 percent when compared to 1995 
data. This is corroborated by our NCIS data indicating a steady decline 
of about 10 percent each year from 2001 to 2003 based on a recently 
completed, case-by-case review.
    As these surveys and case reviews indicate, we are trending in the 
right direction based on caseload. But we are not out of the woods nor 
will this issue ever disappear, especially as we bring in thousands of 
new personnel every year, many of them in our most vulnerable age 
group. While sexual assault is not confined to the junior ranks, in 
comparing Navy and civilian data, both suggest that there is increased 
risk for sexual assault among younger members, between acquaintances, 
and in association with substance abuse, particularly alcohol. Alcohol 
is a contributing factor in at least 50 percent of sexual assault 
incidents. Also troubling, about 75 percent of sexual assaults are what 
we call ``Blue on Blue'', that is, assault by Navy against Navy 
personnel. These issues are of great concern. Sexual assault prevention 
information has been included in all of our Navy Drug and Alcohol 
Program initiatives. In light of our demographics and the seriousness 
of sexual assault, constant vigilance is required. That is one reason 
for our proactive measures to ensure elements of SAVI are embedded in 
other programs.
    To add to our understanding and awareness at Navy headquarters in 
the near term, we have also instituted an internal monthly review of 
sexual assault data to identify trends and address corrective action 
early. The Chief of Naval Personnel will conduct this review and any 
significant trends will be directly reported to the CNO and me. For 
instance, we know that there were 12 Navy cases of alleged sexual 
assault in Central Command (CENTCOM) in fiscal year 2003-fiscal year 
2004, with 5 currently still active. We recognize that improved data 
collection and tracking case disposition will come as a result of Navy 
implementation of the Consolidated Law Enforcement Operations Center 
(CLEOC). CLEOC is a coordinated effort by the Navy and Marine Corps to 
provide the means to capture and report data to the Defense Incident 
Base Reporting System (DIBRS). Navy security forces and NCIS began 
reporting to CLEOC in January 2004. From this database, we hope to draw 
additional insights which are statistically significant and credible in 
order to better focus our preventive efforts in the future.
    The recently published Fowler Report, following the incidents of 
sexual assault at the United States Air Force Academy, was mostly 
complimentary with regards to programs and policies they found at the 
United States Naval Academy. There are, however, areas that require 
improvement at the Naval Academy. The Navy is putting in place an 
Executive Steering Group composed of myself, senior Marine Corps 
officers and Department of the Navy civilians for broad oversight of 
issues at the Naval Academy, including sexual assault. This Executive 
Steering Group will advise the CNO and the Secretary of the Navy.
    Continuing our efforts in prevention education, a new public 
awareness campaign and updated general military training were developed 
in 2003. The prevention of sexual assault public awareness initiative 
forwarded to FFSCs this month highlights the Navy SAVI Program. The 
campaign, ``Take a Stand! Speak Up! Stop Sexual Assault!,'' includes a 
public service announcement, example press release, posters, and 
informational brochures on SAVI, victim assistance and avoiding risk. 
Installations may further adapt the materials by providing locally 
specific contact numbers and information. GMT materials, already under 
development, consider recent trends and refocus on specific areas of 
concern. Specifically, the new annual materials will address:

        <bullet> effective sexual assault responses,
        <bullet> roles of leadership at all levels,
        <bullet> what constitutes consent versus sexual assault,
        <bullet> decreasing high-risk behavior, and
        <bullet> basic self-protective strategies.

    We are also working to improve Web access to SAVI information and 
expect to have a SAVI program Web site in place by the end of this 
fiscal year. The Web site will provide information and resources to 
those executing the SAVI program as well as victims reaching out for 
information. Considering the nature of this crime, we expect that the 
anonymity of the Internet will help encourage victims to educate 
themselves on our program and then, hopefully, to report the crime. In 
the future, it may also serve as a vehicle for anonymous surveys and 
other initiatives requiring survey-type data.
    There is still plenty of room to move ahead and make more progress. 
Specifically, I want to get a better handle on our many systems of 
reporting and tracking statistics, including case close-out, to enhance 
my systemic indicators at the highest level. I'd also like to increase 
the frequency and expand the sampling populations of surveys, institute 
periodic data reviews with follow-up action, improve the quality of 
preventive training and tie-ins with casual factors like alcohol, and 
continue victim surveys. Where our data shows an increase in education 
and training will continue to improve awareness and improve trends 
through prevention, I want more resources applied. We must always 
ensure we stay focused strongly on prevention, on the victims' needs 
and holding responsible parties accountable.

                         SUMMARY AND CONCLUSION

    Thank you for holding this hearing and for your continued support 
as we pursue the important challenge of responding effectively to 
complex personnel issues like sexual assault. We are committed to 
improvement. Our first goal is prevention, and our most important goal 
is to provide the best possible support to victims. Your Navy is 
committed to fostering the culture that protects victims of sexual 
assault, holds those who commit sexual assault accountable for their 
actions, and engenders trust in the chain of command. We are investing 
more than ever in our individual sailors and officers to support a 
strong Navy that is ready to respond to events throughout the world. 
Sexual assault has no place in the Navy. This hearing offers a valuable 
opportunity to evaluate where we are and to take additional steps to 
ensure our programs are the very best in the world to support the Navy 
operating around the world, around the clock.

    Senator Chambliss. Thank you, Admiral.
    Welcome, General Nyland. We look forward to hearing from 
you.

     STATEMENT OF GEN. WILLIAM L. NYLAND, USMC, ASSISTANT 
             COMMANDANT, UNITED STATES MARINE CORPS

    General Nyland. Chairman Chambliss, Senator Nelson, 
distinguished members of the subcommittee, Senator Warner, 
Senator Allard, and Senator Clinton, thank you, also, for the 
opportunity to address the very important issue of preventing 
and responding to sexual assault.
    Sexual assault, quite simply, has no place in the Marine 
Corps, and it will not be tolerated. The very act of sexual 
assault is counter to our ethos in that it robs the individual 
marine of one's respect, dignity, and values, and that is 
unacceptable.
    To more definitively address this issue, the Marine Corps 
has recently undertaken its own internal review and is now 
implementing and developing new programs and capabilities while 
reinforcing those that we have already in place. Specifically, 
in addition to sexual harassment training already in place, all 
our future leaders will now receive training on sexual assault 
awareness and prevention at both Officer Candidate School and 
The Basic School. Beginning March 1 of this year, the marines 
will receive similar instruction at both at our recruit 
training depots. That training will also have a mandatory 
annual requirement for reinforcement. We have also taken steps 
to more closely integrate this training with the training 
provided to our prevention specialists and victim advocates. 
Our Mentors in Violence Prevention (MVP) program is currently 
taught at our staff non-commissioned officer (NCO) academy, our 
first-sergeant course, and in our career courses for our staff 
NCOs and NCOs. That will continue. When our IG visits commands, 
a significant portion of his in-brief now focuses on prevention 
of sexual assault and sexual harassment.
    All these training programs are designed to better educate 
all of our leadership, both officer and enlisted, so that they 
can enhance and improve the climate that they will set at each 
installation and within each unit.
    To give us visibility of incidents, from initiation to 
resolution, the Marine Corps has been developing the 
Consolidated Law Enforcement Operations Center for the past 18 
months, and we anticipate having it fully online in June of 
next year. This system is, today, partially operational, and is 
both Navy Incident Based Reporting System (NIBRS) and Defense 
Incident Based Reporting System (DIBRS) compliant, and will 
remain so when fully fielded. We will continue to reinforce 
existing programs and develop new programs to address this 
critical issue.
    As we work to rid our Corps of these vile acts, every 
victim is a wounded comrade, one who will be treated with 
respect and dignity, and one who will not be left behind.
    I would simply state again that sexual assault and sexual 
harassment are completely inconsistent with our Corps values 
and ethos, and, therefore, unacceptable.
    I look forward to your questions. Thank you.
    [The prepared statement of General Nyland follows:]

           Prepared Statement by Gen. William L. Nyland, USMC

    Chairman Chambliss, Senator Nelson, and members of the 
subcommittee: Thank you for the opportunity to appear before you today 
to discuss the important issue of sexual assault prevention on our 
installations and in combat theaters worldwide. I want to make it very 
clear from the outset that the Marine Corps is in complete agreement 
with the Office of the Secretary of Defense (OSD) and its decision to 
charter a Department of Defense (DOD) review of this issue. Rape and 
other sexual assaults are violent crimes that violate human dignity and 
the deeply held values of the Corps and the military as a whole. Sexual 
assault is unacceptable and will not be tolerated. You may be assured 
that the Marine Corps is fully engaged in the DOD's 90-day review of 
this situation.
    The remainder of my statement will focus on our training and 
prevention programs, the process for reporting a sexual assault, the 
support provided to victims, and the guidance and tools provided to our 
commanders.

                  LEADERSHIP IS THE KEY TO PREVENTION

    As recently as December 16, 2003, the Commandant of the Marine 
Corps, General Michael W. Hagee, issued guidance to all commanders 
reminding them that allegations of physical abuse of any kind require 
the commanders' immediate personal attention and action. The command 
role in prevention is to establish clear standards for personal 
behavior and to hold offenders accountable. In so doing, leaders at all 
levels continue to confront the ignorance and misguided beliefs that 
cause sexual assault.
    We continue to improve the climate on our installations and 
throughout the Marine Corps, through prevention and training programs. 
All Marine officer candidates now receive training on sexual assault 
awareness and prevention at Officer Candidate School and The Basic 
School. Starting March 1, 2004, all enlisted marines will receive 
similar instruction at recruit training. The goal is to ensure that 
every marine knows the appropriate personal protection measures for 
themselves and for those in their charge. This initial training is to 
be meaningfully reinforced on an annual basis by commands.
    Prevention specialists and victim advocates also provide training 
to commands to enhance awareness of issues surrounding rape and sexual 
assault. They teach marines, civilian marines, and their families about 
available support services and the steps to properly report an offense. 
Our Mentors in Violence Prevention (MVP) program is taught at the 
senior noncommissioned officers (NCOs) academies, the 1st sergeants' 
courses, the career courses (NCOs), and the advanced courses (staff 
NCOs), equipping leaders at all levels to conduct training in the 
units. The MVP program was adopted from a successful college model and 
is designed to encourage the participation of all male Marines in 
proactive efforts to prevent rape, battery, and sexual harassment. The 
MVP program is a ``Marines helping their fellow Marines'' program, 
which encourages marines to intervene when they see abusive situations. 
Since 1996, when the MVP program was implemented, over 400 marines have 
been schooled as trainers and taken the program back to their units.
    Our Inspector General (IG) also focuses on the prevention of sexual 
assault at every installation inspection. Sexual harassment is 
completely unacceptable conduct that creates an environment in which 
sexual assaults can occur. The Marine Corps EO Inspection Checklist, 
which includes questions on sexual harassment, is a required area of 
inspection for all subordinate command inspection programs. During the 
``Commandant's Special Interest Brief,'' presented at every inspection, 
14 percent of the brief covers the topic of sexual harassment, the 
consequences for committing sexual assault, and reporting procedures, 
including the confidential IG hotline. Finally, during an inspection, 
the IG team affords every marine and civilian marine on that specific 
installation the opportunity to report any improper conduct or an 
environment conducive to such misconduct.
    The Marine Corps believes these prevention and training programs 
help improve the climate on an installation by making institutional 
expectations and the consequences of violation very clear. We are 
making progress; the most recent Armed Forces 2002 Sexual Harassment 
Survey, which looked at the 1995-2002 time period, showed that sexual 
harassment and sexual assault on female marines in fact has decreased. 
That said, aspects of the 2002 survey and recent media reports of 
incidents from Iraq and Kuwait deeply concern our chain of command. 
Secretary Rumsfeld's demand for a 90-day study on the care for victims 
of sexual assaults indicates that the DOD is taking this problem very 
seriously. I want to assure you the Marine Corps shares this concern.

Victim Advocacy
    Despite our efforts, the best prevention and training courses may 
not always be able to prevent a sexual assault. Marines who are victims 
of sexual assault can report the incident to their command or to a 
local military police representative. In the event of a report, the 
Marine Corps leadership demands that every person be treated with 
dignity and respect. Our priorities are to support and assist the 
victim, investigate the incident fully and fairly, report and track the 
results of the incident, and continually evaluate and improve our 
processes. We have procedures in place to provide specialized 
assistance to victims, conduct full and fair investigations, and hold 
offenders accountable. Through our Victim and Witness Assistance 
Program, we ensure that marines and their family members who are 
victims of crimes, and in particular violent and sexual assault crimes, 
are fully informed of their rights from initial report through the 
completion of judicial and post-trial processes. Under the Victim and 
Witness Assistance Program, victims have the ability to interact with 
service providers, criminal investigators, commanders, prosecutors, and 
correctional facility personnel. Additionally, the Marine Corps is 
implementing the Consolidated Law Enforcement Operations Center, which, 
when fully operational, will serve as a Department of the Navy system 
capable of tracking reported Uniform Code of Military Justice (UCMJ) 
violations from the time they occur, through resolution. The system 
will also be the consolidated reporting tool into the Defense Incident 
Based Reporting System (DIBRS).
    Once an incident is reported, a number of actions take place, but 
the first concern is the safety of the victim. Steps in the reporting 
process include:

        <bullet> The Family Advocacy Program manager is notified and a 
        Victim Advocate is made available to assist the victim as long 
        as desired or necessary;
        <bullet> The victim's command coordinates with the 
        investigating officer and the Family Advocacy Program manager 
        to assure the protection and welfare of the victim;
        <bullet> The Marine Corps allows Provost Marshals, Victim 
        Advocates, Commanders, and Family Advocacy Program managers to 
        begin the process of addressing the alleged sexual misconduct 
        and provide reports to Headquarters Marine Corps as 
        appropriate, based on the severity of the case; and
        <bullet> The command and the Victim Advocate work together 
        until final resolution of the incident, and beyond if 
        additional counseling is required.

    As you can see from these steps, our Victim Advocates are an 
important resource for victims of sexual assault. The advocates are 
available 24 hours a day, 365 days a year to provide information, 
guidance, and support to marines and their family members who are 
victims of domestic violence and sexual assault. The Marine Corps has 
27 federally employed or contracted victim advocates, and 125 trained 
volunteers available at our installations worldwide.
    A Victim Advocate's responsibilities include:

        <bullet> Intervening in response to reported incidents of 
        domestic violence and sexual assault by providing crisis 
        intervention and referrals to military and civilian resources;
        <bullet> Assisting with safety planning and referral to 
        military and civilian shelters, as well as providing 
        information on available benefits including transitional 
        compensation when the sponsor is separated for a dependent-
        abuse offense;
        <bullet> Providing assistance in applying for civilian 
        protection orders and command notification upon issuance;
        <bullet> Accompaning the victim during medical exam and/or to 
        court; and
        <bullet> Developing working relationships with legal and 
        medical personnel, commanders and local area domestic violence 
        and sexual assault centers.

                            DEPLOYED SUPPORT

    Similar to when they are on an installation in the United States; 
deployed commanders have investigative (e.g., Naval Criminal 
Investigative Service), medical, mental health, religious, and legal 
resources available to them in combat theaters. The standard operating 
procedures are the same as those used at local medical treatment 
facilities to address alleged sexual assault cases. For Operation Iraqi 
Freedom 2 (OIF 2), the Camp Pendleton Victim Advocate Training Program 
will be provided to deploying medical and chaplain personnel and 
selected individuals serving with surgical companies, to enable them to 
act as Victim Advocates. These Victim Advocates will be assigned as a 
victim arrives at the in theater medical facility, just as they are 
assigned in a local medical treatment facility when a victim comes to 
the emergency room. Mental health professionals and chaplains will also 
be available at the surgical companies for victim assistance. Chaplains 
are available at the individual units as well.
    In addition to the above assets available in theater, the 
Operational Stress Control and Readiness (OSCAR) program is deploying 
with the 1st Marine Division for OIF 2. OSCAR provides psychiatrists, 
psychologists, chaplains, and specially-trained staff NCOs within a 
deployed division who can provide immediate, on-site counseling. One 
goal of OSCAR is to reduce resistance to seeking help, through trust 
and familiarity with fellow division members. An example of the 
positive effect OSCAR can have was Task Force Tarawa, which had no 
psychiatric medical evacuations during OIF 1. This remarkable record 
was attributable, at least in part, to the availability of front-line 
mental health assets. OSCAR is a 2-year pilot program, and we plan to 
evaluate the feasibility of expanding to other units within the force.
Operation Enduring Freedom (OEF)/OIF 1 Incidents
    The Marine Corps deployed a total of 3,439 female marines in 
support of OEF/OIF 1 and we are aware of 6 allegations of sexual 
assault occurring in theater. Of these, two marines have been found 
guilty and received punishment, and the remaining four are awaiting the 
conclusion of investigations. We will continue to aggressively 
investigate all sexual assault allegations, ensure that victims are 
receiving the care and attention they deserve, and hold all offenders 
accountable for their actions.

                               CONCLUSION

    The Marine Corps has made significant progress in our approach to 
the prevention of sexual harassment and sexual assault. However we will 
continue to improve. We stand ready to take all necessary steps to 
ensure that our progress continues. Sexual harassment and sexual 
assault are inconsistent with our core values: honor, courage, and 
commitment. A victim of sexual assault is a wounded comrade and one who 
will be treated with respect and dignity. Marines never leave a wounded 
comrade behind.
    Subject to your questions, Mr. Chairman, this concludes my 
statement.

    Senator Chambliss. Thank you, General.
    General Moseley, I think this is your first time before 
this subcommittee in your new position, and we publicly 
congratulate you. We're glad to have you here.
    General Moseley. Thank you, Senator Chambliss.
    Senator Chambliss. We look forward to your testimony.

   STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, VICE CHIEF OF 
                 STAFF, UNITED STATES AIR FORCE

    General Moseley. Chairman Chambliss, Senator Nelson, 
distinguished members of the subcommittee, Chairman Warner, and 
Senator Clinton, thank you for the opportunity to come before 
you this morning to discuss such an important matter that 
affects the safety, well-being, and combat effectiveness of 
almost 700,000 Air Force airmen. That issue is sexual assault. 
Let me say, right up front, that for all of us sitting here 
today sexual assault is a threat to our troops. It is 
incompatible with the core values of the Air Force. It is a 
crime, and it will not be tolerated.
    As all of you would agree, the outstanding men and women of 
the active duty, the Air National Guard, and the Reserve 
components, as well as civilians that make up the United States 
Air Force, have performed brilliantly over the past 3 years. 
They have adapted to a new steady state of accelerated 
operations and personnel tempo, they have faced new enemies 
across the globe and here at home, and have met every challenge 
that this great Nation has put before them.
    Working with Congress, we have all worked diligently to 
supply our airmen with the necessary tools to accomplish these 
essential missions. We attempt to give them the most modern 
weapons and the most technologically advanced joint training in 
an effort to ensure that these airmen are ready to accomplish 
their role in the security of our republic.
    Providing for the security of these airmen can be no 
different. In Iraq and Afghanistan, we adopt aggressive force-
protection measures to ensure the safety of our airmen from 
enemy attacks. Similarly, at home and abroad we continue to 
stress measures that create an environment safe from sexual 
assault, an environment just like that on the battlefield that 
enables commanders and individuals throughout the chain of 
command to rapidly identify and decisively act on threats to 
any of our airmen. For us, sexual assault is a threat to the 
airmen. It is incompatible with the core values of the Air 
Force, it is a crime, and, again, it will not be tolerated.
    Having served as a commander at all levels, I can attest 
the Air Force policies and training on this issue are very 
clear. All commanders understand that rape and sexual assault 
are crimes and that, as Dr. Chu stated in his February 6 
article in USA Today, violate the very ethos of the military, 
and threaten readiness.
    Our commanders understand that each attack, each unreported 
incident, and each rumor begins to break down unit cohesion, 
individual dignity, and affects the overall accomplishments of 
their group on the battlefield and in the workplace. They 
understand that when airmen decide not to re-enlist because of 
their workplace environment, we are losing a well-educated, 
very valuable, highly trained asset. They understand that these 
crimes take valuable resources away from the accomplishment of 
the mission.
    Prevention, victim reporting, and, most of all, victim care 
are all elements that challenge American society as a whole, 
and the Air Force is no different. For us, our commitment to a 
higher standard reinforces the importance of this issue and 
drives our desire to take care of America's best kids. Our core 
values of integrity first, service before self, and excellence 
in all we do aim to set these higher personal standards in the 
conduct of our activities. These are standards that our members 
aim to uphold, and standards to which our commanders are held 
accountable.
    Distinguished members of the subcommittee, I cannot make it 
any more clear when I say that we have been devoting the 
resources, expertise, and energy to meet this challenge. In 
addition to all of our preventive programs and policies 
wherever we have discovered allegations in our periodic 
reviews, or we have been informed of allegations, we have 
aggressively determined the problem, rapidly used our experts 
to create a comprehensive solution, and decisively implemented 
a plan.
    The Secretary and the Chief of Staff testified on assault 
and harassment at the AFA last fall. Secretary Roche and 
General Jumper learned of the allegations at the AFA, 
aggressively addressed the issue, and adopted many measures 
that addressed specific cadet concerns and Air Force concerns. 
Additionally, they directed multiple investigations, worked 
with the committee and Congress, and have taken many steps to 
make the AFA more transparent to oversight.
    Some of that oversight comes in the form of a renewed and 
reinvigorated Board of Visitors, in which some of you are also 
involved. In their most recent meeting earlier this month, 
chairman of the Board of Visitors and former Governor James 
Gilmore applauded the comprehensive efforts of Secretary Roche 
and General Jumper. It is also clear that at the top of these 
agendas lies command authority and command responsibilities.
    In the Chief and the Secretary's testimony, they detailed 
their landmark agenda for change, which helps address this 
command responsibility and leadership challenge. This overhaul 
at the AFA was not mere rule-changing designed to preempt 
attacks. Instead, it is a template for cultural change.
    Since the implementation of the Agenda for Change in March 
2003, I'm pleased to report that there has been tremendous 
progress across multiple fronts at the AFA. The new senior 
leadership has aggressively focused on the areas of basic cadet 
training, officer development, and a restructure of the cadet 
discipline system.
    In the area of prevention, the Secretary and Chief and the 
new leadership, under Lieutenant General J.R. Rosa, sought many 
outside experts to review training and assist in the training 
of faculty, staff, and cadet leadership. They have incorporated 
the Fowler recommendations to enhance training and implemented 
tough school policies. Most importantly, they have created an 
integrated support team for victims of sexual assault, called 
the Academy Response Team (ART). This team includes victim 
advocates, security forces, Office of Special Investigations, 
the Vice Commandant, legal representatives, the chaplain, 
Surgeon General, and, equally important, Family Support Center 
representatives.
    At the AFA, as we learned of these allegations, we have 
continued to refine our approach. For instance, based on the 
Fowler panel's recommendations on victim confidentiality, we 
have attempted to strike a balance between the needs of the 
victim and the necessity of being able to fully investigate 
felony allegations.
    We are currently working with the DOD IG to field our 
proposed enhancements in the area of confidentiality. On this 
matter, we sincerely believe it is in America's best interest 
that we reduce the chance for offenders to commit future 
crimes, and, therefore, America's Air Force will not commission 
felons.
    Whether we look at the record numbers or increasing quality 
of female applicants for the academic year 2004 and 2005, our 
initial indications are very positive. As of today, the AFA 
admissions office has received 3,026 applications for women, 
which is an increase over last year of 35 percent and the 
largest number of female applicants in the history of the AFA. 
The increases in the average grade-point averages across all 
four classes, both male and female, seem to show that we're 
also instilling an improved climate for learning for all 
cadets.
    A set of allegations in The Denver Post articles claim a 
wave of assaults at one of our premier training bases, Sheppard 
Air Force Base, in Wichita Falls, Texas. Just as we rapidly 
engaged at the AFA, the highest levels of attention have been 
focused on this challenge at the Air Education and Training 
Command. When these allegations surfaced, our Education and 
Training Command commander, General Don Cook, immediately 
directed a factfinding review to assess the climate and examine 
the effectiveness of all existing plans, programs, policies, 
and procedures in place to prevent assaults, as well as to 
ensure that adequate victim reporting and victim care resources 
are available. He immediately sent a team to survey and 
interview the majority of the population at Sheppard and to get 
ground truth from the folks that were quoted in the various 
interviews. As part of this process, this team also met with 
the professionals, leadership and the legal teams in the 
community, to get a clearer picture of the situation. 
Additionally, as part of this overall effort, we fully reviewed 
previous reported assaults to determine if appropriate actions 
had been taken. I'll be happy to discuss, in later questions, 
the interim findings that we have from that review.
    Please let me stop here to emphasize one point, though. In 
his new role as commander of Air Education and Training 
Command, General Cook began a major review based on policies 
and programs much before The Denver Post article. Within days 
of his assumption of command, he directed a review based on the 
Fowler Commission, and took these observations point by point 
to implement this across Air Education and Training Command, as 
did every Air Force major commander. They set and enforced 
policies and allocated resources because this issue is too 
important to us, in the profession of arms, to have this being 
conducted without specific details or the ability to correct 
problems as we find them.
    When an assault occurs in our combat zones within one of 
our units, it impacts morale, good order, discipline, and, 
ultimately, readiness. It is especially egregious when such 
problems surface during actual combat deployments at a time 
when all of our folks should be focused on the mission and our 
fight in the global war on terrorism.
    Over the past 3 years, the Air Force has deployed close to 
200,000 airmen throughout the Middle East, and CENTCOM area of 
responsibility (AOR). Women have made up over 12 percent of 
that total deployed force. As the combined Air Force component 
commander during Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF), I had, at any one time, about 55,000 
airmen deployed. Unfortunately, since September 11, 2001, we 
have had six cases of alleged assaults on Air Force women.
    Senator Chambliss. General, I hate to interrupt you in the 
middle of your opening statement, but we have about 10 minutes 
left on a vote. Let us go make that vote. I hope this is as 
good a time as any to stop you. We'll pick up there when we get 
back.
    General Moseley. Mr. Chairman, it is a good time to stop. 
[Recess.]
    Senator Chambliss. All right. General Moseley, we 
interrupted you, and we want to get back to you and allow you 
to finish your statement.
    General Moseley. Chairman Chambliss, thank you.
    As the combined Air Force Air Component Commander during 
OIF and OEF, this time last year I had 55,000 airmen overseas 
with me that made up a part of that close to 200,000 total 
airmen that we've deployed. Unfortunately, since the September 
11, 2001, we have had eight cases of alleged assaults involving 
Air Force women. In two of those cases, the host nation 
retained jurisdiction. In the six cases involving Air Force 
victims, the commanders have tried one by court-martial, three 
were handled through administrative action, one was dismissed, 
and the allegation in the remaining case was determined to be 
unfounded, after a full investigation and an article 32 
investigation.
    Even though one is too many, and zero tolerance is our 
objective, 6 out of the 100 in close to 200,000 deployed are 
relatively few. Even though those numbers are small, Secretary 
Roche and the Chief established an integrated planning team 
(IPT) made up of experts throughout the Air Force, who are 
fully and aggressively assisting the DOD task force on care for 
victims of sexual assaults. We look forward to their findings 
and recommendations, and certainly plan to decisively implement 
that, both in the continental United States (CONUS) and in the 
AOR.
    Just like at Sheppard Air Force Base and the AFA during the 
entire period, the Air Force has been rapidly assessing this 
issue and successfully using existing victim support, law 
enforcement, UCMJ, and medical channels to address these 
critical issues. Our goal is to ensure that our airmen operate 
in a climate focused on external threats to U.S. security, and 
I believe they are.
    It should be clear that the Air Force takes this matter 
very seriously. Whether at home station, deployed, at the AFA, 
at Officer Training School, in our Reserve Officer Training 
Corps (ROTC), or ROTC detachments, it is also clear that one 
assault is too many.
    While we have been encouraged by a recent gender and 
workplace survey completed by the Defense Manpower Data Center 
(DMDC) that shows decreases in all types of sexually harassing 
behavior, we must remain focused on this issue. In order to do 
that, the Air Force has set very clear goals. We are using them 
now to guide an assessment of existing policies and programs in 
all of our major commands. These goals include striving to 
eliminate sexual assault and any climate that would tolerate 
it, ensuring an environment where victims have confidence to 
report, conducting appropriate investigations and taking all 
appropriate action, including prosecution, and effectively 
addressing victims' health and well-being, and ensuring 
commanders in higher headquarters oversee the program 
effectiveness.
    To accomplish the goals we have set, our commanders have 
multiple tools available. The tools can be characterized into 
education, training, prevention programs, and response 
programs.
    The first, education, is provided at all levels of 
training. Some are more specific while some are provided as 
part of the larger subject of sexual harassment. Trainees in 
basic military training school receive instruction on assault 
prevention and awareness, and are instructed to report 
harassment or assault immediately. Within the first 24 hours of 
arriving on their first military base, trainees hear about 
sexual crime prevention, their commander's rules of engagement, 
and human relations. These messages are reiterated time and 
again throughout their first weeks.
    At the AFA, once a basic cadet completes in-processing, she 
or he experiences 4 days of orientation, briefings, and 
discussions. Basic cadets are separated by gender during this 
period. On day two of the orientation, cadets receive their 
first briefings on sexual assault. Basic cadets receive 
additional sexual assault training during the final days of 
basic cadet training, just prior to integration with the 
remainder of the cadet wing. These small gender-separated group 
sessions include topics on assault, gender roles, reporting, 
confidentiality, and the things critical for us to ensure that 
our kids are safe.
    This matter is also handled with cadets at ROTC detachments 
and with officer trainees at Officer Training School. During 
their first week of training, these valuable commissioning 
sources cover equal opportunity, sexual harassment awareness, 
diversity, and the formal Air Force complaint system. These 
lessons are constantly reinforced at commanders school and 
through effective leadership training.
    Similar to these service-entry programs, every level of 
professional military education (PME), from officer training to 
wing commander courses, from the Airman Leadership School to 
NCO and senior NCO courses, and each stress the importance of 
this issue, detail the challenges, and elaborate on the 
resources and tools at their disposal. Whether assault or the 
broader context of harassment, commanders understand their 
responsibility to the troops and to the victims and the 
individuals understand the accountability of their commanders.
    Moving to our resource tools, we must primarily address 
victim care. As one of our stated goals, restoring the victim's 
health and well-being is certainly a top priority. Mr. 
Chairman, in this case, we have a ways to go and we have room 
for improvement in this area. This is a focus of Secretary 
Roche, the Chief, myself, and commanders at all levels. There 
are a number of Air Force organizations fully dedicated to 
this, but we can do better.
    First and foremost in victim care are the services provided 
at our medical treatment facilities. We have a number of those. 
We also need to do better in being able to transfer victim care 
as a person changes bases, or assignments, and to ensure that 
we can follow up on this care.
    We have our Life Skills Centers at bases, which provide 
psychological support and intervention. There are many military 
counseling options, primary care managers, social workers, 
chaplains, family support centers, and base legal offices. 
Civilian counseling options are also available in the form of 
hotlines, support groups, local assault crisis centers, and 
churches. This care is not unique to home stations, but is also 
available when deployed.
    Senator Chambliss. General, if this is the written 
statement that we have prepared by you, we're going to insert 
that in the record.
    General Moseley. Please do, sir.
    Senator Chambliss. If you could quickly summarize, or if 
you would like to make any final points, we'd be appreciative.
    General Moseley. Sir, I'm fine.
    Senator Chambliss. We are happy to hear them, but we need 
to move into questions.
    General Moseley. I welcome your questions.
    Senator Chambliss. Thank you.
    [The prepared statement of General Moseley follows:]

          Prepared Statement by Gen. T. Michael Moseley, USAF

    Mr. Chairman, Senator Nelson, and distinguished members of this 
subcommittee, thank you for the opportunity to come before you to 
discuss such an important matter that affects the safety, well being, 
and combat effectiveness of almost 700,000 Air Force airmen--that of 
sexual assault. The outstanding men and women of the active duty, 
Guard, and Reserve components, as well as the civilians that make up of 
the United States Air Force, have performed brilliantly over the past 3 
years. They have adapted to a new steady state of accelerated 
operations and personnel tempo, faced new enemies across the globe and 
here at home, and met every challenge that this great Nation has put 
before them. Working with Congress, we all have worked diligently to 
supply our airmen with the necessary tools to accomplish these 
essential missions. We attempt to give them the most modern weapons and 
the most technologically advanced joint training in an effort to ensure 
that these airmen are ready to accomplish their role in the security of 
this Nation. Providing for the security of these airmen can be no 
different. In Iraq and Afghanistan, we adopt aggressive force 
protection measures to ensure the safety of our airmen from enemy 
attacks. Similarly, at home and abroad, we continue to stress measures 
that create an environment safe from sexual assault--an environment 
that, just like on the battlefield, enables commanders and individuals 
throughout the chain of command to rapidly identify and decisively act 
on threats to any of our airmen. For us, sexual assault is a threat to 
airmen--it is incompatible with the core values of the Air Force--it is 
a crime--and it will not be tolerated!
    Having served as a commander at many levels, I can attest that Air 
Force policies and training on this issue are clear. All commanders 
understand that rape and sexual assault are crimes that, as Dr. Chu 
stated in a February 6 article in USA Today, ``violate the ethos of the 
military and threaten readiness.'' They understand that each attack, 
each unreported incident, each rumor, begins to break down unit 
cohesion, individual dignity, and affects the overall accomplishments 
of their group on the battlefield and in the workplace. They understand 
that when airmen decide not to re-enlist because of their workplace 
environment that we are losing a well-educated, highly-trained asset. 
They understand that these crimes take valuable resources away from the 
accomplishment of their mission.
    This is but one side of the equation--the commander and mission 
accomplishment side of the story. We are continually looking at the 
victim side of this issue. Commanders at all levels understand that 
victim reporting and victim care are just as important as dealing with 
the perpetrator and establishing policies that attempt to prevent these 
types of attacks.
    Commanders also understand the complexity of issues usually 
intertwined with sexual assault. According to the 2002 National Crime 
Victimization Survey done by the Department of Justice (DOJ), 53 
percent of rape and assault victims sustained injuries while only 31 
percent of those sought medical attention. It goes on to state, while 
there are over 135,000 sexual assaults in this country annually, only 
26 percent are reported to the police. These facts illustrate the 
challenges in fully dealing with this issue that commanders deal with 
everyday. But it is the entire equation of pre-emptive policies--from 
victim reporting and care to perpetrator prosecution--that is, and has 
been, the focus of Air Force leadership at every level.

                        AIR FORCE ACADEMY (AFA)

    The Secretary and the Chief of Staff of the Air Force testified on 
assault and harassment issues last fall. Secretary Roche and General 
Jumper learned of allegations at the AFA, aggressively attacked the 
issue, and adopted many measures that addressed cadet concerns and Air 
Force concerns. Additionally, they opened the Academy to multiple 
investigations and have taken many steps to make the AFA more 
transparent to oversight. Some of that oversight comes in the form of a 
renewed and reinvigorated Board of Visitors (BOV), with which some of 
you are involved. In their most recent meeting earlier this month, 
Chairman of the BOV, and former Governor, James Gilmore applauded the 
comprehensive efforts of Secretary Roche and General Jumper. These 
comments follow the praise of the Fowler Panel who were ``impressed 
with the leadership of Secretary Roche and General Jumper'' and 
commended the new leadership in Colorado Springs as being ``quick to 
take action.''
    It is clear to everyone that this issue is, and has been at the top 
of their agendas as our Air Force senior leadership. In their 
testimonies last year, they detailed their landmark Agenda for Change. 
This overhaul was not mere rule changes designed to pre-empt attacks or 
focused on the punishment of the perpetrators. The Agenda for Change is 
a template for cultural change.
    Since the implementation of the Agenda for Change in March 2003, 
and the Fowler Panel Report, I am pleased to report that there has been 
tremendous progress across multiple fronts. The AFA senior leadership 
is aggressively focused on the areas of basic cadet training, officer 
development, and a restructure of the cadet discipline system. In the 
area of prevention, the Secretary, the Chief of Staff, and the new 
leadership under Lieutenant General J.R. Rosa sought outside experts to 
review training and assist in training faculty, staff, and leadership. 
They have incorporated Fowler recommendations to enhance training, 
implemented tough new alcohol policy, and most importantly, have 
created an integrated support team for victims of sexual assault--the 
Academy Response Team (ART). This team includes victim advocates, 
security forces, office of special investigations, the vice commandant, 
legal, chaplain, surgeon general, and the family support center.
    At the AFA, we heard allegations--rapidly assessed the situation--
created an overarching and enduring solution--and decisively 
implemented it. Even after initial implementation of our plan, we have 
continued to refine our approach. For instance, based on the Fowler 
Panel's recommendations on victim confidentiality, we have attempted to 
strike a balance between the needs of the victim and the necessity of 
investigating felony allegations. This is proving to be a very 
difficult concept to implement. On this matter we sincerely believe it 
is in America's best interest that we eliminate any chance for 
offenders to commit future crimes.
    Whether we look at the record numbers or increasing quality of 
female applicants for the academic year 2004-2005, our initial 
indications are very positive. As of today, the AFA Admissions Office 
has received over 3,026 applications from women--an increase of over 35 
percent--and the largest number of female applicants in the history of 
the Academy. The increases in the average grade point averages (GPAs) 
across all four classes of cadets, both male and female, seem to show 
that we are instilling an improved climate for learning for all cadets.
    Last year, Secretary Roche and General Jumper pushed extremely hard 
to install their changes before the class of 2007 entered AFA. Their 
efforts seemed to have had a major impact. At the end of the fall 
semester, fourth class cadets (freshmen) had their highest GPA in the 
past 20 years with a record 48 percent with GPAs above 3.0. Comments 
like those from a current cadet, 19-year old Ashley Culp, reiterate 
that we are on the right track. In an article published in her hometown 
Des Moines, Iowa newspaper, she stated ``If anything, I think they're 
focusing on it a little too much. . . We've had a countless number of 
briefings on sexual harassment, they talk about it in basic (training) 
and in all our classes. . . We've all pretty much become experts on 
what is sexual harassment, how to handle it and who to contact.'' Even 
Ashley's mother, who was worried at first when the sexual assault 
issues surfaced, gave her ultimate seal of approval when she said there 
couldn't be ``a safer environment at any university in the country.'' 
We could not agree more with her words or the words the Honorable 
Tillie Fowler so eloquently stated in her testimony, that ``it is and 
should always be an honor to call oneself a cadet at the United States 
Air Force Academy.''

                        SHEPPARD AIR FORCE BASE

    In another set of allegations, Denver Post articles claim ``a 
wave'' of assaults at one of our premier training bases--Sheppard Air 
Force Base. Just as we rapidly engaged at the AFA, the highest level of 
attention has been focused on this issue at an Air Education and 
Training Command (AETC) base. When these allegations surfaced in the 
media, AETC Commander, General Donald Cook, immediately directed a 
factfinding review to assess the climate and examine the effectiveness 
of all existing plans, programs, policies and procedures in place to 
prevent assaults as well as ensure that adequate victim reporting and 
victim care resources are available. As part of this overall effort, 
they are also fully reviewing previously reported assaults to determine 
if proper actions have been taken. General Cook's initial findings 
should be delivered shortly. The Chief of Staff, the Secretary of the 
Air Force, and I are fully engaged in this issue and will ensure the 
right solutions are in place to provide a safe environment for our 
airmen.

                              COMBAT ZONES

    When an assault occurs within one of our units, it impacts morale, 
good order and discipline and, ultimately, readiness. It is especially 
egregious when such problems surface during actual combat deployments--
at a time when all of our folks should be focused on the mission, our 
fight against the war on terrorism. Today, almost 2,500 of our 20,000 
deployed forces are women. Over the past 3 years the Air Force has 
deployed 176,689 airmen to numerous locations throughout the Middle 
East in support of the global war on terror. Women deployed to many of 
those locations, and they comprised 12 percent of the total deployed 
airmen. As the Combined Force Air Component Commander during Operation 
Iraqi Freedom (OIF), I had over 55,000 airmen overseas with me at this 
time last year. Unfortunately, since September 11, 2001, the Air Force 
has had eight cases of alleged assaults reported involving Air Force 
women within the area of operations. Two of the cases involved assault 
by non-U.S. civilians. In those cases the host nation retained 
jurisdiction. Of the other six cases, the disposition is as follows: 
commanders tried one by courts-martial, two cases were handled through 
administrative action; one was dismissed after the commander conducted 
an article 32 investigation, one investigation was just completed and 
is awaiting command action, and in the remaining case, after a full 
investigation the allegation was determined to be unfounded.
    These few cases coupled with the fact that we have had no reports 
of sexual assaults on our airmen in Iraq or Afghanistan suggest that we 
may have this matter fully in hand, even under the most difficult 
circumstances. Nevertheless, Secretary Roche established an Integrated 
Planning Team (IPT) made up of experts from throughout the Air Force 
who are fully and aggressively assisting the DOD Task Force on Care for 
Victims of Sexual Assaults. We look forward to their findings and 
recommendations and plan to decisively implement the task force's 
improvements.
    Just as with AFA and at Sheppard Air Force Base, after being made 
aware of the allegations in the combat zone the Air Force rapidly 
addressed the problem--used existing victim support, law enforcement, 
Uniform Code of Military Justice (UCMJ), and medical channels to 
address the issue--and has attempted to re-establish and reinforce a 
climate where our airmen can focus on external threats to U.S. 
security.

                                 GOALS

    It should be clear, that the Air Force takes this matter seriously. 
Whether at home station, deployed, at the AFA, at Officer Training 
School (OTS), and at our Reserve Officer Training Corps (ROTC) 
detachments, it is also clear that one assault is one too many. While 
we have been encouraged by a recent gender and workplace survey 
completed by the DMDC that shows decreases in all types of sexually 
harassing behavior, we will remain focused on this issue.
    In order to do that the Air Force has set clear goals. We are using 
them to guide an assessment of existing policies and programs in all of 
major commands. Our goals include:

        <bullet> Striving to eliminate sexual assault and any climate 
        that might foster it;
        <bullet> Ensuring an environment where victims have confidence 
        to report;
        <bullet> Conducting appropriate investigation and prosecution;
        <bullet> Effectively addressing victims health and well-being; 
        and
        <bullet> Ensuring commanders and higher headquarters oversee 
        program effectiveness.

    Mr. Chairman, as I have attempted to make clear, the Secretary, 
Chief of Staff, and Commanders at every level are serious about the 
safety and well being of our force, regardless of gender. We have 
effective programs in place and will continue to enhance them to ensure 
we have a consistent overarching policy best serving the needs of our 
Air Force airmen and our Nation's wartime requirements.

                               WAY AHEAD

    To accomplish the goals we have set, our commanders use multiple 
tools available to them. These tools can be characterized into 
education, training, and prevention programs and response programs. The 
first, education, is provided at all levels of training; some more 
specific, some as part of the larger subject of sexual harassment.
    Trainees in Basic Military Training School receive instruction on 
assault prevention and awareness, and are instructed to report 
harassment or assault immediately. Within the first 24 hours of 
arriving on their first military base, trainees hear about sexual crime 
prevention, their commander's rules of engagement, and human relations. 
These messages are reiterated time and again throughout their first 
weeks.
    At the AFA, once a basic cadet completes in-processing, he or she 
experiences 4 days of orientation briefings and discussions (basic 
cadets are separated by gender during this period). On day two of the 
orientation, cadets receive their first briefings on sexual assault. 
Basic cadets receive additional sexual assault training (to include 
facilitated small group discussions) during the final days of Basic 
Cadet Training (prior to integration with the remainder of the Cadet 
Wing). These small group (gender separated) sessions include topics on 
sexual assault and gender roles.
    This matter is also handled with cadets at Air Force ROTC 
detachments, and officer trainees at OTS. During their first week of 
training, these valuable commissioning sources cover equal opportunity, 
sexual harassment and awareness, diversity, and the formal Air Force 
Complaint System. These lessons are constantly reinforced at 
commander's calls and through effective leadership training.
    Similar to these service entry programs, every level of 
professional military education (PME) from officer training to wing 
commander's courses; from the airman leadership course to our senior 
noncommissioned officer courses; each stress the importance of this 
issue, detail the challenges, and elaborate on the resources and tools 
at their disposal. Whether, assault or the broader context of sexual 
harassment, commanders understand their responsibilities to the troops, 
and individuals understand the accountability of their commanders.
    An initial review of the Armed Forces 2002 Sexual Harassment Survey 
indicates that the investment of time and resources in this training is 
paying dividends. For the individual, when asked if they had received 
training on topics related to sexual harassment and if that training 
was effective, a full 90 percent agreed their training provided them a 
``good understanding'' and roughly 84 percent said they had received 
``useful tools'' for dealing with the issue. For the commanders, data 
reveals even more successes. The number of Air Force airmen that 
perceive their leadership, from supervisor to Air Force service 
leadership are making ``honest and reasonable efforts to stop sexual 
harassment'' have significantly increased between 1995 and 2002. These 
facts support our continued emphasis on education, training, and 
prevention programs.
    Our response tools deal primarily with victim care. As one of our 
stated goals, restoring the victims' health and well-being, is 
certainly a top priority. There are a number of Air Force organizations 
fully dedicated and prepared for that task. First and foremost in 
victim care are the services provided at our Medical Treatment 
Facilities (MTFs). Air Force MTFs develop local protocols for the care 
of assault victims that are tailored to local capabilities and follow 
civilian community standards. Medical staffs ascertain immediate needs 
of the victim in terms of medical and psychological support. MTFs also 
have locally developed victim advocate programs that collaborate with 
civilian agencies. Frequently civilian expertise is used to provide 
both medical and victim support (sexual assault centers).
    Another important tool, the Air Force Life Skills Center, provides 
psychological support and intervention to assault victims. There are 
military counseling options such as primary care managers (physicians), 
social workers, chaplains, family support centers and base legal 
offices. Civilian counseling options are also available in the form of 
hotlines, support groups, local assault crisis centers and churches. 
This care is not unique to home installations, but is also available at 
deployed locations.
    As mentioned earlier, sexual assault and harassment in a combat 
zone is particularly egregious. It is our Air Force policy that 
consistent levels of care are available regardless of the setting. Care 
for victims in the area of responsibility (AOR) mirrors that of home 
station. Our deployed medical units provide diagnostic evaluations (to 
include the collection of forensic evidence) and medical/psychological 
treatment to assault victims. Mental health teams are included at 
Expeditionary Medical Support System (EMEDS) with bedded facilities. 
Assault victims at deployed locations have several healthcare support 
options. Typically, victims can be quickly evacuated to Level III 
facilities in theater where the facility is staffed and equipped to 
provide resuscitation, initial wound surgery, and post-operative 
treatment. Deployed mental health providers can be sent forward to 
assist a victim at almost any location. Long-term, intensive support is 
available at Level IV facilities. There, the Air Force provides the 
same surgical capabilities found in Level III care, as well as 
rehabilitative and recovery therapy for those who can return to duty 
within the theater evacuation policy. Post-deployment clinical practice 
guidelines query all members regarding medical/psychological issues. 
Because of its importance--I repeat--restoring the victims' health and 
well-being is our top priority.
    Another source of counseling to the victim is the Air Force 
Chaplain. Recently, the Chaplain Service has focused on providing 
training for chaplains who would be in a position to receive counselees 
who are victims of assault. They have trained AFA chaplains with the 
assistance of civilian experts in the area of assessment and treatment 
of sexual victims and offenders. The Chaplain Service Resource Board is 
currently working to develop a training program that will be used first 
at our AETC bases in 2004.
    A second form of response is reporting and investigation. The Air 
Force Office of Special Investigation (AF/OSI) investigates and reports 
sexual assault crimes. AF/OSI agents are specially trained to deal with 
victims of such crimes. Security forces are also often the first 
responders. Victims are highly encouraged to participate in the Victim 
and Witness Assistance Program and to cooperate with investigators so 
that their case can be resolved. The AFA now has ART, a 
multidisciplinary team designed to support command in their response to 
sexual assault allegations and ensure that victims receive all 
appropriate avenues of assistance. This may well become a model 
throughout the Air Force.
    Senior leadership involvement remains critical. Beyond the 
attention and many hours devoted to this important issue by the 
Secretary and the Chief of Staff, every level of leadership is equally 
engaged. Commanders are given tools that provide them a vehicle to be 
proactive and tailor programs and resources to their specific units and 
community needs. For example, each Air Force base, major command and 
the Air Staff sponsor a working group that deals specifically with 
community issues, with a focus on prevention and service delivery. 
These working groups, called Integrated Delivery Services (IDS) teams, 
are comprised of representatives from Family Advocacy, Health and 
Wellness clinic, Life Skills clinic, the Chaplain's office, the Family 
Support Center, and the Services office. The IDS team serves as the 
working group for the Community Action Information Board (CAIB), with 
responsibility for monitoring the health and well-being of their 
populations, and targeting prevention and intervention services. 
Through CAIB and IDS processes, issues such as sexual assault and 
others like alcohol abuse, tobacco use, family violence and suicide 
prevention are viewed as community issues requiring a coordinated 
multi-agency approach.
    In closing, I want to again state that we are devoting the 
resources--the expertise--and the energy to addressing this challenge. 
Our leadership does not take this matter lightly.
    From the Air Force Inspector General giving the review of sexual 
assault as a special interest item, to the re-deployment briefing and 
follow-up surveys; to the recent task that I gave to every major 
command to perform a comprehensive assessment of our assault response 
system to include, but not limited to, education, training and 
prevention, reporting procedures, response programs, and program 
oversight. From the Secretary-established headquarters team that leads 
the Air Force-wide assessment and reports to the Secretary, Chief, and 
major command commanders to our top-level interest in the study that is 
being released here today. I can assure you that this issue is on the 
front burner of our senior leadership.
    Last year, it was my privilege to lead our airmen--the next of 
America's greatest generations--into combat in Iraq and, the year 
before--into combat in Afghanistan. Today, as the Vice Chief of Staff, 
I see their talents, their energy, and their dedication every day and 
could not be prouder of the way they perform. It is my commitment to 
them to see that their service is free from the threat of assault and 
completed with honor and dignity.
    Thank you Mr Chairman for the opportunity to discuss this critical 
issue with you and the subcommittee.

    Senator Chambliss. General Moseley, I intend to visit with 
you and Secretary Roche and General Jumper. Senator Nelson and 
I agree when it comes to the AFA. We've already had a hearing 
on the AFA. We know there's been a change in command, and some 
believe it's not fair to get them back up here until they've 
had an opportunity to implement new procedures, some of which 
you have already referred to. We're going to be doing a 
followup hearing sometime afterwards, maybe before the new 
class comes in. Anyhow, there will be a point in time in which 
we take on that issue, but it will be entirely separate from 
what we're here to talk about today.
    General Moseley. Sure.
    Senator Chambliss. We've been joined by Senator Pryor and 
also Senator Cornyn. Senator Clinton I know is coming back.
    Senator Cornyn, if you want to make any quick remarks, 
we're happy to hear from you.
    Senator Cornyn. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman. I want to commend you for holding 
this hearing today. I think it's clear to all of us that we 
have to do everything we can within our power to make sure our 
armed services are free from sexual harassment and sexual 
assault, and I believe that zero tolerance should be our 
guiding principle. In those cases when an unfortunate act does 
occur, we have to provide the very best resources and care for 
victims, and we must hold those responsible accountable.
    I commend Secretary Rumsfeld for creating a task force to 
examine the issue which will report back to him in 90 days. 
However, I have to wonder how many studies and how many task 
forces we need before we're going to solve this unacceptable 
problem. I'm concerned that we have not yet successfully 
implemented all the lessons learned from previous incidents of 
sexual assault. I think the DOD must do better in working with 
the Services to provide a uniform and standardized manner for 
the care and treatment of victims of sexual assault.
    Of course, the best solution is to prevent sexual assault 
from occurring in the first place. This takes leadership at all 
levels, and constant training.
    General Moseley, in your testimony, you mentioned the 
investigation at Sheppard Air Force Base. When it is my turn to 
ask questions, I'd like to ask for you to give us an interim 
report of that investigation. When I saw you recently, I told 
you I had talked to General Cooke, and I'll be meeting with him 
tomorrow afternoon. I look forward to getting the final results 
of the investigation, at Sheppard Air Force Base.
    Obviously wherever it happens, whether it's in Texas on an 
Air Force base or on a Navy ship, this is serious business, 
and, as I said, I believe zero tolerance must be our guiding 
principle.
    Thank you, Mr. Chairman.
    Senator Chambliss. Thank you, Senator Cornyn.
    Dr. Chu, you mentioned, in your statement, that incidents 
are down, but I didn't get the date. Was that in this report?
    Dr. Chu. Yes, sir, it is. The prior survey, demanded by 
Congress, was accomplished in 1995. The incidents of sexual 
assault in that year was 6 percent for women. This is a 1-year 
incidence rate. In the just completed 2002 survey, which we are 
reporting from here, the incidence rate was 3 percent. We have 
succeeded in cutting the incidence rate in half. It is still 
too high and has a long way to go, but it is down substantially 
from where we were several years ago.
    Senator Chambliss. I think we can take some gratification 
in that. However, as we all know, the number of incidents that 
are reported is about 16 percent nationwide, of the incidents 
that occur. While that number may be going down, the actual 
number of incidents probably is still high.
    Dr. Chu. Senator, if I may, I believe that's the importance 
of this survey. You are absolutely correct, the criminal 
statistics tend to badly under-report the incidence of these 
kinds of crimes. As Congress directed, we have gone to a wide 
population survey. Sixty thousand people were surveyed for this 
purpose. We have a response rate of about 36 percent of our 
entire Active Force which is about 20,000 responses. This way 
they can anonymously tell us if they were the victim of sexual 
assault. It's those kinds of surveys that allow people to try 
to estimate what the underlying incidence is. It's our best 
shot at gauging where we truly are.
    Senator Chambliss. As we move into the next round of base 
closure, we're talking a lot about cross-Service arrangements 
etc. between our Services. As I've listened to each of these 
gentlemen speak about their particular program within their 
branch of the Service, it occurs to me that, if ever there was 
an area where some collaboration or continuity between the 
Services ought to exist, there should be some standard that all 
Services go by. I'm wondering if any thought has been given, 
within the Pentagon, to a standard sexual assault policy for 
each and every branch of the Service, so that anybody who joins 
any branch of the Service knows exactly where to go in the 
event something like this happens to them.
    Dr. Chu. We already have the basic structure for that 
standardization, sir. As far as the criminal offense is 
concerned, of course, we do have the UCMJ. If assault occurs, 
the UCMJ is our instrument for prosecuting and dealing with the 
perpetrators. We also have a standardized approach to how we 
deal with the healthcare aspects. We do it through our hospital 
system, which is essentially a uniform approach. We attempt to 
model the best practices in civil society.
    Third, we have emphasized to the Services that training is 
crucial, as I think each one of these gentlemen has testified. 
That has been done a little differently in each Service, and I 
think one of the interesting issues you raise is whether or not 
we bring that into greater conformance. However the training 
systems of each Service are a little bit different, and the 
career paths are a little bit different.
    I don't want to predict the task force's findings too much 
since it's just completed its work, but I think what is going 
to come out will show that a greater attention to how we treat 
the victims once an incident has occurred is needed. Second, we 
need to redouble our prevention efforts, which you've all 
correctly identified as the long-term solution, precluding 
these assaults from happening in the first place.
    Senator Chambliss. I certainly would agree with you that 
prevention is number one. I have to say, however, from the 
stories that we've heard and the victims that we've talked to, 
there appears to be some systemic problems in dealing with 
these individuals once it has occurred. I would hope that some 
standardized method of treatment is developed so that whether 
it happens at an Army base, Navy base, or wherever it may be, 
that there is some standardized way to give these people the 
type of professional help they need.
    General Casey, how many incidences have been reported 
recently, since the conflict in Iraq began in theater?
    General Casey. Senator, over the last 14 months, since the 
soldiers started going into that theater of operations in large 
numbers, we have over 80 cases reported.
    Senator Chambliss. Eighty?
    General Casey. We have about 86, as I walked out of the 
office this morning.
    Senator Chambliss. Okay.
    General Casey. Senator Nelson said 88.
    Eighty-six is the number that we're tracking.
    Senator Chambliss. Can you tell me how many arrests have 
been made out of those 86?
    General Casey. Of those 86, 14 have been through the court-
martial process already. The rest of those are still being 
processed. Those 86 are allegations, so they are being 
investigated by the criminal investigation division. They have 
finished investigations in about half of those cases, and 
they're still investigating the other half.
    Senator Chambliss. Does the Army have a standard operating 
procedure (SOP) relative to an alleged victim who comes forward 
and gives evidence, or reports that one of her superiors, 
whether it be enlisted or an officer sexually assaulted her? 
Does the Army have a SOP regarding how or whether or not that 
individual is removed from the command of that individual? Is 
there any kind of set policy for dealing with that issue?
    General Casey. Are you asking me if there is a policy in 
place that deals with victims who come forward and report to 
have been sexually assaulted by a senior officer?
    Senator Chambliss. Let me use an example to explain 
further. I had a young lady who told me that she came forward 
with a charge of sexual assault against an officer in the 
company that she was serving in. She said that after she 
received medical treatment, she was put back in that same 
company with that same officer still in place, and they were 
ultimately transferred to another location. It just doesn't 
make a whole lot of sense to me that that ought to happen, and 
I'm just wondering if there's any kind of SOP for dealing with 
this type of situation or was this an exception to the rule?
    General Casey. No, sir. In fact, I would tell you that we 
have no specific policy that dictates either the victim or the 
accused should be removed from that command. We don't dictate 
that. We leave that up to the commander on the scene to make an 
evaluation.
    Senator Chambliss. Well, I would have to say that that 
bothers me because of the nature of some of these incidences 
that have occurred. To put that person back under the command 
of somebody, whether it's direct command or not, that they have 
accused of committing a sexual attack is troubling. I really 
think you all ought to look at this. Dr. Chu, this may be 
something that the task force ought to look into.
    Dr. Chu. It is, and I have charged them with that. Our 
policy in DOD has been to leave the decision to the senior 
commander on the scene. We may need to overrule that with a 
more directive set of guidelines as to what to do. There are 
tensions here. As General Casey indicated, these are 
allegations. Some fraction typically prove unfounded. There is 
tension between protecting the victim, who is usually a woman, 
ensuring that she is comfortable and feels safe and the rights 
of the accused. You have to be careful not to prejudge the 
outcome.
    All that said, I think one of the most difficult issues we 
face, this question of separating the individual from her, or 
occasionally, his unit, should the person be someplace else? 
How should we deal with that? That's one of the things I have 
charged the task force with how should we proceed in a way that 
is consistent with all the objectives that we have for the 
Armed Forces?
    General Casey. We are also asking our task force to look at 
this. On the flip side of that, mandating that the victim must 
leave the unit, really puts the onus on the victim. Therefore, 
we are leaning more toward mandating no contact and possibly 
mandating removal of the accused, rather than the victim. As I 
said, the task force is still working that, and it's a tough 
issue, as David said.
    Senator Chambliss. Of the 74 remaining cases under 
investigation, in the Iraq theater, is there some kind of 
average time for the investigation to take place? Let me tell 
you what my concern is. I have one particular case in which the 
young lady alleges a sexual assault took place last November. 
Even though she went through a horrible situation relative to 
the incident itself, as well as the treatment she allegedly got 
after that, the fact of the matter is, the alleged attacker has 
moved on, her unit has moved on, and people are coming and 
going. From a treatment standpoint, the individual that was 
treating her has been rotated back. The individual she talked 
to, relative to potential prosecution, has now rotated back. 
Everybody that comes in has to start over again. Meanwhile, 
this young lady is caught in a trap. She alleges she's been 
raped, she is suffering from mental distress, as well as 
physical distress, and she's caught there.
    Is there any time limit on an investigation in one of these 
places, particularly in theater?
    General Casey. Senator, that's a great point, and it's one 
of the points that we've asked the task force to look into 
specifically. Everything is harder in-theater, and everything 
takes longer in theater than it does here. I must admit, as we 
look through these cases, the timeliness of some of the 
investigations is a concern to us. One of the things we've 
asked the task force to do is to determine a standard, or at 
least a goal, that these investigators can focus on to try to 
bring the investigations to closure as rapidly as possible. As 
you've indicated, stretching it out for that long is not 
appropriate and not something that we can accept.
    Senator Chambliss. I don't know how you deal with it, and 
that's certainly not something this committee or this 
subcommittee ought to dictate to any branch, but we're going to 
continue to follow up with this. This is not the last hearing 
we're going to have or the last time we're going to ask you all 
to come up and talk about this. We expect you to go back and 
review your policies, and implement new ones where they need to 
be. I've already had several particular situations that have 
been called to my attention, and every Member has heard the 
same thing. We have to deal with this somehow.
    General Casey. You're absolutely right.
    Senator Chambliss. One individual suffering that kind of 
distress is one too many, just like one victim is one too many.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Thank you for 
the presentations that we've had this morning.
    I'm encouraged by what I think is a uniform belief that 
zero tolerance has to be the standard, by the statistics we've 
been shown that there has been some improvement, by a reduction 
of incidents and by the common theme that prevention and 
prevention programs are going to continue. We're going to 
continue to look at how we might expand and improve them over a 
period of time.
    Even so, some of the press reports suggest that an outdated 
military justice system might leave too much discretion to 
commanders, and that that might be partly to blame. Dr. Chu, 
maybe you can help us. Will the 90-day review that is being 
conducted at Secretary Rumsfeld's direction evaluate the 
adequacy of the UCMJ and, at the same time, the appropriateness 
of the commanders' discretion to deal with allegations of 
sexual assault?
    Dr. Chu. All our policies in the DOD on this issue are up 
for review as part of the task force's charter. Consistent with 
the comments you've made, and those of your colleagues, the 
emphasis is on improving our care to the victim. I think that's 
where we believe we have the greatest distance to go. The kinds 
of incidents that Senator Chambliss and others have cited 
underscore that. That's where I would like to see the most 
rapid progress achieved, so that the victims feel secure, so 
that the kind of under-reporting that plagues us, just as it 
plagues civil society, can be substantially reduced. As you can 
appreciate, we can't prosecute an incident the victim is 
reluctant to come forward and acknowledge occurred. That's the 
heart of the long-term deterrence dilemma for us, as it is for 
civil authorities.
    All policies and issues are on the table, but we are trying 
to give special attention to properly caring for the victim.
    Senator Ben Nelson. I certainly concur with the chairman's 
recommendation about some standardization coming from the best 
practices of the branches to be able to get a standard that 
takes into account the experience of each of the Services. At 
the end of the day, we will have top-down, as well as 
grassroots, improvement in how the system works, not only for 
prevention, but also for dealing with those incidents that do 
occur.
    You mentioned the decline from 6 percent to 3 percent as a 
result of that survey. Does that survey help us understand the 
frequency of sexual assaults in a deployed status, as opposed 
to a combination of deployed and non-deployed statistics?
    Dr. Chu. It does, within sharp limits. Fortunately, the 
incidence is relatively low. We have approximately 20,000 
responses, which is only a small set of actual incidents to 
look at. If I recollect correctly, about a quarter of those 
incidents were in a deployed status. We have a very modest 
understanding of that issue. One of the things we'll be looking 
at is whether or not, we need to review the deployed situation 
in greater depth, and whether there are aberrant behaviors that 
differ from the garrison situation that we should be focusing 
on especially when the task force renders its report that's one 
of the things, we'll come to a conclusion on.
    Senator Ben Nelson. I think that answers my questions at 
the present time. Thank you very much. Thank you all.
    Senator Chambliss. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Chu, I do not doubt, in any way, your personal 
commitment to addressing this problem. I know that you view it 
as deeply disturbing as I do.
    Dr. Chu. Thank you, ma'am.
    Senator Collins. There's a ``however'' coming. [Laughter.]
    I am, however, concerned about the implications of some 
statements in an op-ed piece that you wrote earlier this month 
for USA Today. In it, you said, ``Regrettably, sexual violence 
is a problem that challenges American society at large. We, in 
Defense, are not immune to the ills of the larger society.''
    I understand that statement, but I fundamentally disagree 
with the comparison between civilian society and a military 
environment. What we have learned is that the military 
environment can create additional obstacles for victims of 
sexual assaults, obstacles that they would not encounter in 
civilian society, and that's one of the reasons why I'm so 
concerned.
    For example, we've heard from victims that there is a 
problem with the availability of immediate medical treatment, 
which is not a problem in civilian society. We've learned from 
victims that there is a fear of retribution by superior 
officers if such assaults are reported. We learned that in the 
AFA cases, as well. That is unlikely to occur in civilian 
society. The Miles Foundation has a whole list of factors, 
ranging from the availability of rape kits to the ability to 
bring criminal proceedings quickly. General Casey has testified 
this morning that everything takes longer and is more difficult 
in theater than it would be in the United States. Women may 
also serve at remote outposts, where treatment, counseling, and 
criminal investigation are simply not immediately available.
    I'm concerned about looking at this problem as if it were 
simply a subset of the problems in society at large. I think 
one reason this is such a difficult problem for the military to 
deal with is, it isn't like reporting a civilian rape in 
society at large. Could you address my concern about the 
additional barriers that a victim may face in a military 
environment?
    Dr. Chu. I'd be delighted to, ma'am. I'd like to start by 
putting my original editorial remarks back into context. In 
saying we're not immune, I think we have to be honest in terms 
of formulating programs that work, especially in regard to 
prevention, in acknowledging we take in a segment of American 
society. We're a reflection of that larger society, and any 
behavioral issues that occur there, we're going to see 
reflected in our ranks.
    That all said, actually, I would turn your concerns the 
other way around. I think we have an opportunity in the 
military to do better, and that is our goal. In their careers, 
these gentlemen have demonstrated that with drug usage, 
specifically. It does, however, take time, investment, and 
perseverance. We have to change the attitudes that people bring 
when they arrive, and that's reflected, I would argue, in the 
data, in terms of the higher incidence rate in the junior 
ranks, who are the most recent arrivals to our Service and 
whose outlook and behaviors we have to work hardest to improve.
    Yes, there are different circumstances in the military. I 
don't think it necessarily makes it harder. I think, in many 
respects, it makes it more straightforward for us to proceed. 
We can mandate procedures. We can mandate training. We have 
mandated training. I would challenge others to find a civil 
institution that does as much to educate its leaders on this 
issue.
    We are committed to ensuring that the military does better 
than the society at large, but we have to be realistic about 
where we start from, because we are a reflection of that larger 
society. That was my point in the editorial. We are committed 
to overcoming any obstacles that may be specific to the 
military situation. We will find solutions to those problems, 
if we have not already done so, in the steps we'll take in the 
days, months, and years ahead.
    Senator Collins. My point is that the evidence strongly 
suggests that a victim of a sexual assault in the military 
faces far more obstacles in getting the help that she or he 
needs. That wouldn't be the case in a civilian situation, 
particularly if that person is serving in a war zone or is 
serving in CENTCOM, for example. That's my concern.
    I don't know the accuracy of the study, but I read 
testimony from the Miles Foundation which suggests a far higher 
rate of sexual assault in the military compared to the civilian 
population. Would you like to comment? Have you seen that 
study?
    Dr. Chu. I'm not sure to what Miles is referring. In fact, 
we have done an extensive search of all the literature as to 
what it says about the incidence, because that's one of the 
first benchmark questions you ask: How do you compare with 
other institutions in the larger civil society?
    Let me summarize what the experts have taught me on this 
subject. Others will have, obviously, their own views of this 
literature. First, the National Crime Victims Survey under-
reports--I think that's the standard scholarly conclusion. It 
is distressing to me that out there in civil society there is 
not a survey that is parallel to the one Congress has directed 
the DOD to conduct now for the third time. There isn't an easy 
reference point that we'd like to have. I have already begun to 
take steps to discuss with the Department of Justice (DOJ), 
whether we want to partner with them to get a better 
understanding of the larger issues that you have raised in your 
question.
    Third, I think the closest point of comparison we can find 
in the literature is the DOJ survey of college women, which was 
undertaken in the mid to late 1990s. It's done a little 
differently. The reporting period is a little different from 
what we did here. The way I would read the conclusions is that 
we're not out of line with what they report for that 
population. However, it's a different population with different 
circumstances.
    Your underlying concern is, is it harder in the military? 
There may certainly be things that make it harder, but there 
are other things, I would argue, that do and can make it more 
straightforward. I think the jury is still out on that issue.
    Ultimately, the real question for us is not whether it's 
harder or easier. The real question is, do our people feel that 
they can have recourse to help when they need it?
    I acknowledge, we're not where we need to be in that 
regard, and that is our most important immediate task.
    Senator Collins. The real issue is prevention in the first 
place.
    Dr. Chu. Yes.
    Senator Collins. If I could just quickly ask one more 
question. Thank you, Mr. Chairman.
    Admiral Mullen, the Pentagon reported that between October 
2002 and November 2003, there were 88 reported cases of sexual 
misconduct in the CENTCOM theater. I thought it was very 
interesting, in looking at the statistics, that 80 were in the 
Army, seven were in the Air Force, one was in the Marine Corps, 
and none were in the Navy. I understand, from a numbers 
standpoint, that there may have been many more Army and Air 
Force personnel in theater, but there's still a disparity when 
you adjust for the number of personnel. I'm giving you a great 
opportunity here to tell me what the Navy's doing right and 
whether you think it is a result of the Sexual Assault Victims 
Initiative (SAVI) program, the SAVI program that you discussed 
with me in my office.
    Thank you.
    Admiral Mullen. Thank you, Senator Collins. I'll try to 
take the opportunity, but not all of it, because the numbers 
that I have are not exactly the same. Let me go to the SAVI 
program.
    As I have both listened to the questions and been involved 
in particularly intense preparation for this hearing, the SAVI 
program really becomes the heart and soul for our ability to 
properly respond. While it is not perfect and we have work to 
do, it does start to answer questions, like continuity, Mr. 
Chairman, in terms of care, because it focuses on advocacy, and 
it focuses on an individual advocate that essentially takes 
care of handling all issues for the victim. It becomes the 
conduit through which the information flows in and out of the 
chain of command, to and from the medical center. It is this 
program, which was developed over time, which has given us, I 
think, great strength in this area. Again, it's not perfect, 
but it is something that we have trained an awful lot of people 
on who have become advocates. We trained over 1,250 people last 
year. We have, this year, 300 commands, around the world, who 
have not just representatives, but advocates aboard.
    The Navy has been a deployed and rotational force forever, 
so this is something we've had to address over a great period 
of time. In most cases, the timing is very responsive. We have 
this kind of support on major units, major medical support, in 
addition to those in installations around the world. From the 
standpoint of giving credit, or depending on a successful 
program, SAVI has been at the heart of that.
    Let me get back to the statistics. I was actually unable to 
verify where they got those numbers for the DOD report. In 
fact, we're not home free on this. We've had, in fiscal year 
2003 and for the first couple of months of this year, 12 
incidents in CENTCOM. Most of these took place in Bahrain. We 
have an awful lot of our Navy personnel stationed there. Seven 
of those are closed. Those are all in fiscal year 2003. Six of 
those seven were either terminated because the evidence didn't 
support it or the victim made a decision to not continue. We 
have five cases which are open, one of which we have a general 
court-martial scheduled, and the four others are currently 
ongoing. That's my understanding of where we are right now.
    That said, I have a great deal of confidence in the program 
that we have.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Chambliss. Senator Allard.
    General Casey. Excuse me, Mr. Chairman, before we leave 
Senator Collins, may I say one more thing?
    Senator Chambliss. Sure.
    General Casey. I'm new at this, but I'd like to make a 
comment on something that the Senator said in her opening 
statement, and I'm not sure when the right time to do that is.
    Senator Chambliss. Feel free to, General Casey.
    General Casey. Senator, you mentioned, in your opening 
statement, the fact that our female soldiers may have more to 
fear from their fellow soldiers than they do from the enemy, 
and I think I'd be remiss if I didn't assure you and the 
committee that I absolutely and fundamentally don't believe 
that to be a true statement. I think it doesn't give the weight 
to the high regard in which we hold our female soldiers and to 
the great contribution they're making to operations around the 
world.
    I'm not trying to be confrontational, I just felt I would 
be remiss if I didn't say that.
    Senator Collins. General, I have enormous respect for our 
troops, both male and female. The vast majority of them are 
absolutely professional, patriotic Americans, and I was careful 
in my statement to qualify with the word ``some.'' However, 
obviously, in some cases, that is, in fact, what has happened.
    Senator Chambliss. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I have briefly looked over your Armed Forces and Sexual 
Harassment Survey you just handed out here, Dr. Chu.
    Dr. Chu. Yes, thank you, sir.
    Senator Allard. You made it available to the subcommittee, 
and I thank you for doing it. This is a 2002 survey. In just 
briefly looking over the survey, I see where you have put a lot 
of things in percentages. When I worked with the AFA on sexual 
harassment, one of the things we struggled with and really 
worked hard on is to get some meaningful data that you can 
present to those in charge, and also to this subcommittee, that 
would give us some idea of what really is happening.
    Being a scientist, I have a suspicion of percentages. I 
think I would feel much more comfortable in the report if we 
could be looking at actual figures, but I don't see actual 
figures in here. It looks like the whole report is going 
through on percentages. It looks to me like it would be a good 
idea if we could determine how many individuals were surveyed 
and how your sample was collected. The DOD is a large 
organization, and I think it would be helpful to the committee 
if we could also see it broken down by Service--I don't see it 
broken down by Service. Seeing it broken down would also be 
helpful for us to know how the progress is moving forward in 
each one of those branches of government--or branches of the 
Service.
    I hope that somehow or the other, you can go into a little 
more detail about the methodology and about who's been 
sampling. Perhaps you could provide us with that data on 
numbers and tell us how many were surveyed and how they're 
responding when you break them down. I don't know if we need to 
go into all the real little details. I think you've done a good 
job in trying to break them down, and I understand your 
challenges there, but if we could be dealing with some actual 
numbers, I think it would give this committee a little better 
feel of what's happening, other than percentage.
    I notice in one chart you had 1 percent. It had to do with 
the junior officers, as opposed to senior women. If we had 
specific numbers, I think it would help us analyze that a 
little bit. Do you think you can do that?
    Dr. Chu. Absolutely, sir. I do recognize you've only had a 
few moments to look at this. I think if you turn to chapter 2, 
you'll find the methodology spelled out in great detail. One of 
the reasons we report percentages is because it's a sample of 
60,000 with approximately 20,000 responses. We have to weight 
the answers back up to the population, as a whole, because, as 
you can appreciate, you get differential response rates from 
different subsets of the population. That's why the standard 
approach is to do percentage. They can be translated, however, 
into estimates or absolute numbers. I'll do that to the extent 
that the report does not already do so.
    Senator Allard. If you can give us some absolute numbers in 
some of those key areas, I think that would be helpful. There 
are so many ways that you can manipulate a percentage, and when 
you have the actual number in front of you then you can look at 
just what can be done with that. I think it would help the 
report.
    Also, in the report, the survey stated that 1 percent of 
junior enlisted say that they have been sexually assaulted. Do 
you happen to have an actual figure on that?
    Dr. Chu. Actually, I believe the junior enlisted figure is 
somewhat higher than that, Senator, because that is where the 
core of our problem lies, as we see it. Again, you can 
translate that into an absolute case number, using the 
population basis.
    Senator Allard. Yes.
    Dr. Chu. I should also emphasize the report does, in its 
individual chapters, go into comparisons across services.
    Senator Allard. Yes.
    Dr. Chu. One of the important findings, in my judgement, is 
that the improvement that we've seen between 1995 and 2002 is 
consistent across the Services.
    Senator Allard. That's all very helpful, but I think, 
again, if we can get some raw figures, it would be more 
helpful.
    There is a statement in there that says it's more common 
for junior enlisted women to be sexually assaulted, as opposed 
to the more senior.
    Dr. Chu. That's correct.
    Senator Allard. Can you explain why it is more common?
    Dr. Chu. As to why it's more common, I think that's where 
one gets into hypotheses, and we will be looking carefully at 
this survey to see if we can understand why that happens. I 
think one issue, as I have said in my testimony, that we have 
to deal with is that these people have been with us the 
shortest time, so we've had the least opportunity to conduct 
the training that these four gentlemen have described. I think 
that training is generally effective. That's what our people, 
in the substantial majority, report. Admiral Mullen emphasized, 
you don't just give the training once, you give it repeatedly. 
Just as General Nyland in the Marine Corps does, and intends to 
strengthen, we want to be sure that this training is revisited 
on a appropriate periodic basis.
    Senator Allard. It looks to me like you have also surveyed 
enlisted individuals, and you've included civilian employees 
and contractors, as well. Is that correct?
    Dr. Chu. No. The survey went to military personnel.
    Senator Allard. Military only. So we're only talking about 
enlisted.
    Dr. Chu. Both enlisted and officers.
    Senator Allard. What about the Coast Guard?
    Is that part of the Coast Guard part of that?
    Dr. Chu. I don't recall. We did Coast Guard, too, yes.
    Senator Allard. The Coast Guard is in there. What about the 
reservists?
    Dr. Chu. No, we will do a separate survey of reservists.
    Senator Allard. So the National Guard and reservists would 
be separate. Is that right?
    Dr. Chu. That's to be done this year, yes, sir.
    Senator Allard. So the figures that you're presenting us is 
basically on the enlisted individuals. I think that's where 
this subcommittee would be the most interested.
    Dr. Chu. Right. The figures are for the active service 
enlisted and officers. The incidence for officers is much lower 
than that for enlisted officers.
    Senator Allard. I was looking at this one survey, and they 
talked about all of these, so I was getting a little confused 
about the extent of that inquiry.
    Again, I would emphasize that, as with the academies, we 
need to figure out a way to measure results. I understand this 
would be much more challenging with the Services. This way, 
when you come to us with a program where you think there is a 
sexual assault problem we can look at some kind of scientific 
anonymous survey and see exactly how many assaults there were 
on each given year. Then policy can be implemented. We would be 
able to look at it 2 or 3 years later, and see where it's 
gradually getting better. That's my ultimate goal, and I would 
encourage you to figure out a way in which you can do that. 
We've figured it out in the AFA, and I think it is making a 
difference. Granted, it's a little different environment, and 
yours is much more complicated, but I think that at least needs 
to be our goal. That would be most helpful to this subcommittee 
and any of the supervisors that would be looking at the data.
    Dr. Chu. We agree, sir. Indeed, we think this survey is the 
first step in that direction and does, indeed, as my colleagues 
have testified, identify a very positive trend. We are not 
where we need to be but we have improved.
    Senator Allard. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Chambliss. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I think we've had 
a very good hearing, thus far, Mr. Chairman, and I commend you, 
again.
    Dr. Chu, I know you well enough just to kind of hit you 
hard on this thing.
    Dr. Chu. Yes, sir.
    Senator Warner. Why in the world does it take 2 years to do 
a survey?
    Dr. Chu. It's a good question, sir.
    Senator Warner. There's not a person at this table that 
doesn't do surveys in the political business. We turn them 
around overnight. Somewhere between overnight and 2 years is a 
happy medium. This is a major problem, and it should have been 
addressed long before the 2 years. Do you have any thoughts on 
it?
    Dr. Chu. I don't disagree with you, sir. I will report that 
DOD, before we came to office, had not been doing the surveys 
that Congress indicated we should. We undertook to do so.
    Senator Warner. Good.
    Dr. Chu. This is more complex, generally, than yes/no 
questions, so it does take a while.
    Senator Warner. I fully appreciate the depth of it and the 
breadth of it, but 2 years is too long.
    Dr. Chu. I have no difference with you, sir, that we'd like 
to be speedier. Really, this was the last of the surveys we did 
where we used paper-and-pencil results, as well as Web-based.
    Senator Warner. Right.
    Dr. Chu. This was transitional. That's one of the reasons 
we're going to Web-based surveys, because we want to be able to 
tabulate and report much more rapidly.
    Senator Warner. Good. We leave this hearing with the 
understanding that 2 years is unacceptable.
    Dr. Chu. Absolutely.
    Senator Warner. Given the necessity to move swiftly on this 
issue henceforth, I'm sure you'll find some outfit to get us 
this information much more quickly. We can recommend a few. 
They get the information to us overnight. I don't say that 
facetiously. These are good polling companies that go out and 
take an issue for us now and then in a contested campaign and 
tell us where the mainstream of thought is.
    Many of the problems emanate from postings and deployments 
aboard ships, and in obvious confinement, posts overseas such 
as Iraq. You've mentioned Bahrain. I've been there many, many 
times. It ebbs and flows, but it's hard to get off post 
sometime in a safe environment. These pressures will sometimes 
build up and erupt in these most unsatisfactory and 
unacceptable ways in AORs in assignments where there is 
considerable restriction and limitation of the ability of the 
people to be off-base and co-mingle with the civilian society 
and other walks of life.
    With that, I'll close out, but I want to ask one more 
question, though. Drawing on my own very modest experience in 
the military, sometimes you never see a commanding officer or a 
high-ranking officer, and lots of times you don't want to see 
them. I remember a gentleman who was up here, who was the new 
Chief of Staff for the Air Force, preceding John Jumper. His 
father was Chief of Staff of the Air Force when I was the 
Secretary of the Navy, and I asked him one time, in a pompous 
way, ``Well, did you get to see much of your father when you 
were second lieutenant?'' He said, ``No, I tried to stay on the 
other side of the world from my father at all times.'' 
[Laughter.]
    I think every now and then the visibility of a very senior 
officer moving into an area where there's a problem and showing 
that visibility from the very top on down might help reinforce 
the depth of sincerity that we have to attach to this problem. 
If you don't have a policy or a system in place, I would put 
that out. A CNO has a very wonderful way of putting out a 
message to his commanders. I know that, and I'm sure the other 
Services have a similar command.
    Thank you very much, gentlemen.
    Senator Chambliss. Thank you, Mr. Chairman.
    Dr. Chu, among the other things you take back to the 
Pentagon, be sure they understand that the chairman of the full 
committee, and the chairman and the ranking member of this 
subcommittee, expect this internal report to be done in due 
course. We're not looking at 2 years. We're looking at a short-
term turnaround with respect to that internal report.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    On February 11, 2004, The Denver Post reported what they 
called ``a wave of sexual assaults'' that they claimed had gone 
unnoticed at Sheppard Air Force Base, in Wichita Falls, Texas. 
The second sentence in that lead says, `` `Base women are too 
scared to go public,' victim's advocates say.''
    Later, local newspapers said that The Denver Post story may 
be overblown. An ex-counselor was reported to have taken issue 
with The Denver Post story and said that her remarks were taken 
out of context. Then there's another story in the Wichita Falls 
Times Record that said rape statistics actually are lower in 
Wichita Falls.
    What I wanted to ask you about, General Moseley, deals with 
a Denver Post article. Then I would like to ask you for a 
summary interim report on what's happening there. On February 
22, The Denver Post writes, ``The optimists believe that 
Congress is prepared to pound out serious reform to improve how 
the military handles violence against women. The pessimists 
believe a silent handshake bonds Congress and the military, 
preventing any meaningful change.''
    I understand we have a free press in this country, and 
people can write whatever they want, within very wide 
boundaries. I know that all of you at the table understand 
this, and certainly everyone up here understands it, but I just 
want to tell the cynics, the author of that statement, and 
anybody else who might cynically believe that we do not take 
this matter as a profoundly serious issue, that they're wrong.
    With that, General Moseley, can you tell us what you've 
been able to find out to date? I know General Cook, the 
commander of the Air Education Training Command, has ordered a 
investigation. Could you bring us up to date on that, please?
    General Moseley. Senator Cornyn, thank you.
    In fact, I had some time yesterday to spend with General 
Cook, and also Brigadier General-Select K.C. McClain, who 
conducted this survey. She used to work for me, and she's just 
recently turned over command at Goodfellow at San Angelo. She 
is the perfect officer with the right background to conduct 
this.
    Let me tell you the bottom line up front. These are our 
people, these are our airmen, these are our kids, and we take 
this seriously. One is too many. An impression that there are 
handshakes or agreements out there is not only not true, but a 
bit insulting, because these are our kids. We take them as a 
national treasure, and we attempt to hold them early, even from 
day one, at a higher standard, and we mold them, and we create 
in them professional military men and women who hold their job 
very seriously which is the defense of the republic.
    The summary, up front, is that after this the students feel 
safe, they know how to report occurrences of sexual assault, 
they trust the base leadership in Sheppard and at all levels of 
command and supervision. The members are actively engaged in 
providing a safe and secure environment conducive to that 
training.
    Brigadier General-Select McClain took 22 people to 
Sheppard, at the behest of General Cook. They surveyed 5,035 of 
the students. There are about 5,000 students there at any point 
in time, so they rounded up some of the transitional students 
and 5,035 were surveyed. They interviewed a thousand face-to-
face. The survey population was determined by a random cut of 
social security numbers, 50 percent male, and 50 percent 
female. There was no way to pick a subpopulation or a career 
field going through the tech school. There were just a thousand 
randomly selected people.
    Eighty-five percent of the surveyed and interviewed believe 
that reporting is encouraged and reinforced. Ninety percent are 
absolutely confident in the process. Ninety-five percent of the 
females feel safe. Ninety-two percent of the females are 
confident in the leadership and their commanders' efforts in 
this area. Also as an observation, Air Education Training 
Command and the Wing at Sheppard have an ongoing memorandum of 
agreement with First Step, the civilian agency off-base. In 
fact, the Sheppard Family Advocacy representative is on the 
board of directors at First Step. We value that relationship 
with that off-base interview, because they are so professional 
and they provide a service to our kids.
    Five hotlines were added during the conduct of this survey, 
at Sheppard and also at Randolph, which is headquarters of Air 
Education and Training Command. The numbers were toll-free and 
publicized on TV and in the base publications. As of yesterday, 
we have had five calls. One was a report from a female that 
said her case was handled properly and she is satisfied with 
the conduct. The second call was a report of potential assault 
at another base, which we're following up on. The third call 
was an ask-for-help with a potential harassment case, which we 
are following up on. The fourth call was a report of a 1966 
assault, with no names and no requests for followup. We also 
had a call on a 1974 assault case, but again with no names or 
followup action. We had one reporter call to see if someone 
would answer the phone. We had one Senator's staffer call, also 
to see if someone would answer the call.
    We also asked to go back 10 years to look at background at 
Sheppard in these cases. There have been 45 cases since 1993. 
Nineteen went to court-martial, 15 were found guilty, and the 
remaining 26 were non-judicial punishment Article 15s.
    Senator Cornyn, that's the initial report, but more details 
will follow with all of that with raw data, I believe General 
Cook will be here this week to talk to both you and Senator 
Hutchison.
    Senator Cornyn. I look forward to talking to General Cook 
about that in more detail tomorrow.
    Let me just ask each of you a final question about this. 
Admiral Mullen, I'm very interested to learn about the SAVI 
program that the Navy has conducted, and I commend you for 
that. In the civilian world, most law enforcement authorities 
have a crime victims coordinator who is there to make sure that 
a victim of a crime, whether it's a sexual assault or 
otherwise, is not re-victimized by trying to navigate an alien 
process like our criminal investigation and law enforcement 
agencies. Even though they're there to serve, someone who's 
been victimized by crime and needs some help, I commend the 
Navy for creating that.
    I would like to ask each of you to comment on whether your 
services have similar crime victims advocates or something 
similar to the SAVI program.
    General Casey.
    General Casey. Thank you, Senator.
    We have a Victim Witness Liaison Program. Frankly, I 
believe it's at too high a level. I mentioned in my opening 
statement that our initial review of our procedures, 
particularly in this area, have led us to believe that we have 
some things that we need to do there. I mentioned there are six 
victim witness liaisons in theater now. They're at division 
level. You can imagine the difficulty of getting down to a 
victim in some isolated outpost. We can do better than that, 
and we will.
    I'd like to close by saying, we are looking very hard at 
the Navy's program. It makes a lot of sense to us.
    Senator Cornyn. General Nyland.
    General Nyland. Yes, sir. We also have victim advocates. At 
our 17 major installations, we have 27 that are funded, and we 
have them augmented with 125 volunteers, and they are there 24 
hours a day, 7 days a week. They have the access that can take 
them from family advocacy to the law enforcement piece and to 
counseling. So we are also great believers in the victim 
advocacy program, and we do have that in place.
    Senator Cornyn. General Moseley.
    General Moseley. Senator Cornyn, we have a Victim/Witness 
Assistance Program in place. What we have found after all of 
our series of major command reviews, is that at each change of 
command we have a climate assessment that's required by the new 
commander, and then every 2 years at that unit. As we can see 
from looking at this, and as we have found out from an offshoot 
of the Fowler Commission as we've gone down to other units, and 
also with this Sheppard assessment, we are not where we need to 
be. Brigadier General Select K.C. McClain also believes that 
there is a better way to do this. This is what we have, and it 
has served us, but I'm not sure it's as good as we want it to 
be.
    For instance, the care of and handover of the victim or 
witness across assignments and across post-separation from the 
Air Force needs to be done better. We're in the process of 
manifesting all of those observations from all of those 
studies, and operationalizing the notion that we need to get at 
this better. This includes taking a look at what Admiral 
Mullen's program does for us, and looking at rolling that up 
inside our command structure to ensure commanders, not staff 
officers, are involved. We need to ensure that commanders are 
held accountable, not only for the activities, but the 
followup. That's where we are today.
    Senator Cornyn. Dr. Chu, should there be a standard 
approach for a victim's advocate across the branches as a 
matter of DOD policy?
    Dr. Chu. That's one of the issues we're going to look at 
very quickly, as Senator Chambliss urged. I do think there is 
an advantage to having an organized advocate program, as the 
Navy does, and, to a lesser extent, as the other Services do. 
This is a low incidence at any particular installation, 
fortunately and, indeed, you see that in the fact that we often 
partner with a civil hospital for the actual forensic tests, 
because they have more cases that come to their attention, and 
are more practice in doing the various procedures. Just as 
General Moseley said, ``One advantage of having an advocate 
program is that you make sure that best practices, and the best 
way of handling the situation, are, indeed, applied in each 
instance.'' We'll be looking very hard at what we can do to 
ensure that outcome. Whether a standardized program is the 
right way to get that result is another issue.
    Senator Cornyn. Mr. Chairman, I very much appreciate you 
conducting this hearing. I know that all of us feel very 
strongly that this is important. There is no silent handshake 
or any other complicity on the part of anyone in Congress or 
the military. This is not going to be simply brushed under the 
rug or ignored.
    I do believe that a similar role to that of the crime 
victims advocate that's used in the civilian world and the law 
enforcement agencies of our local and State governments is a 
model that we ought to look at very closely.
    Thank you.
    Senator Chambliss. Thank you, Senator.
    I'm glad you raised the issue of what was in that press 
report, because everybody on this subcommittee and on the full 
committee has a very professional relationship with each and 
every one of these men. Because of that, we know they're 
professionals, and we know that they want to see this job 
carried out to the fullest extent with regard to each and every 
issue that we have to deal with. This is one of many issues 
that we all deal with, with each of these men, as well as other 
folks in every branch of the Service. They know and you well 
know, and I see you all shaking your head, that we're going to 
follow up with you, from an oversight perspective. We respect 
you, and you respect us, and that's part of our job, and we 
know it's a very vital part of your job. Thank you for bringing 
that out, Senator Cornyn.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Thank you for your 
leadership on this issue.
    I know that each of you, in your own ways, have had some 
experience with the UCMJ. One of the things I keep picking up 
on is whether the UCMJ is in need of updating or whether we 
should revisit the UCMJ, especially with regard to crimes of 
sexual nature such as sexual assault, etc. If I could, I'd like 
to go down the list and ask you about the UCMJ, whether we 
should update it, and also whether you feel commanders have too 
much discretion with regard to these type cases under the UCMJ. 
General Moseley, not to pick on you, but I'll start with you, 
if thats okay.
    General Moseley. Senator, let me answer your second 
question first. I do not believe commanders have too much 
discretion, because we hold commanders accountable for the 
conduct of combat, for the engagement of combat and for the 
well-being of their troops. A commander is a commander, and is 
ultimately responsible, whether he is the commander of an 
aviation unit or a ship or a surface unit, for the activities 
of his unit and the prosecution of his mission.
    Relative to the UCMJ, I would welcome any review that would 
make the situation or the addressing of these issues better, 
quicker, and with more finality. I would welcome any review 
that allows us the ability to protect our kids or the victim, 
that would allow us to accelerate a process, and would allow us 
to prosecute the perpetrator in a much more robust manner.
    Senator, having said that, we have the legitimacy now, with 
the UCMJ, to do that very thing. With the articles, as they are 
defined in title 10 of the UCMJ, we are able to do that.
    Let me close by saying we would welcome any review, 
dialogue, or participation in any process that would make this 
better.
    Senator Pryor. Thank you.
    General Nyland.
    General Nyland. Yes, sir, Senator. I believe that part of 
the ongoing task force will, in fact, review the UCMJ. We 
review it annually as well.
    That said, I would say that the discretion afforded a 
commander is not too lenient. It is a vehicle by which he is 
able to preserve good order and discipline in his unit. I also 
believe that the UCMJ gives him the authority and the way to 
both protect the victim and punish the perpetrator.
    Senator Pryor. Okay.
    Admiral Mullen.
    Admiral Mullen. Senator Pryor, we're all individuals of our 
own experience, and I've had the blessing of being able to 
command five times. In the Navy, and I feel this way for the 
other Services, I think it is clear that command 
responsibility, authority, and accountability are at the heart 
and soul of who we are and what we do. Therein, we invest in 
that and in those people that we very carefully screen to take 
those positions. I think that's where it should remain.
    I have also been extremely well served over three and a 
half decades by the UCMJ. Echoing what my colleagues have said, 
I would welcome a review that made this better. The UCMJ has 
stood very well in the most difficult times in a both fair and 
balanced way to come out with the right result.
    Senator Pryor. Thank you.
    General Casey.
    General Casey. Senator, there's not much left to say on 
this. I would say that I do not believe that the UCMJ currently 
gives the commanders too much discretion. It is one of the 
issues we've asked our task force to look at. We asked the task 
force to determine if there is anything with the UCMJ that 
makes their job harder with respect to prosecuting sexual 
assaults.
    The last thing I'd say is something that General Moseley 
said a little bit ago. All our commanders, and I know all the 
commanders for all the Services, feel very strongly that these 
are our soldiers, and we want them to have the best protection 
and justice available to them.
    Senator Pryor. Thank you.
    Dr. Chu.
    Dr. Chu. As I indicated earlier, all policies are on the 
table in this review. That includes whether or not the UCMJ 
needs strengthening. I do want to join my colleagues in saying 
that I think one of the strengths of the military system, 
specifically in dealing effectively and promptly with 
disciplinary issues, is the discretion that we give the 
commander. There is a variety of ways you can use the UCMJ and 
article 15 to reach the result we need, which is to ensure that 
perpetrators are promptly and appropriately punished so that 
it's a deterrent to future wrongdoing. Our emphasis in this 
review, as we have all stressed, is on what can we do in the 
immediate future to improve our care of the victims, and what 
we can we do over the longer term to preclude sexual assault in 
the first place.
    Senator Pryor. Thank you. I know that all of you all are 
familiar with The Denver Post's ongoing investigative 
reporting, mostly centered around the AFA. You all know they've 
done a months-long investigation of various aspects of sexual 
assault within the military. Not to drag you all through all 
that again, but there's an interesting editorial today in The 
Denver Post that I wanted to ask some questions on. Just by way 
of background, they talk about how their investigation found 
that military husbands often get a free pass for domestic 
violence that would land civilians in jail, that rapes 
committed by military personnel often are sloppily investigated 
and rarely punished, that victims said they get poor medical 
attention and little or no counseling, and that many American 
service women said that they were raped in Iraq by their fellow 
U.S. soldiers, but the military bungled the investigations, and 
higher-ups punished victims for reporting the assaults.
    Dr. Chu, not to pick on you, but I'll let you be the 
spokesman for the group. If you want to defer to some of them 
in answering these questions, that'd be great.
    As part of this Denver Post editorial today, they 
encouraged the Senate to ask four questions of the panel, and 
so I'll ask them to you, if you don't mind, Dr. Chu. First, why 
did the military bury earlier internal reports about the scope 
of sexual assaults and related crimes? I'll just let you 
comment on that and answer that however you feel free.
    Dr. Chu. First, I haven't read The Denver Post editorial, 
so I'll be careful in commenting on something I have not 
actually perused. To the question you raised, I don't believe 
we have buried such reports.
    Senator Pryor. Those are their words, not mine.
    Dr. Chu. I understand. They have alleged we buried them. If 
past editorials are prologue, I suspect the allegation is there 
and the specifics are not provided, so I would invite those who 
think we've buried reports to point to what we have buried. 
That's not our policy. We don't bury reports. We don't hide 
things.
    Senator Pryor. The second question is, why have suspected 
assailants gone free?
    Dr. Chu. I don't know what they're speaking of. My 
hypothesis is, they're referring to cases whose outcomes they 
would like to have seen come out differently. I think Admiral 
Mullen and my colleagues have pointed out the variety of 
outcomes that occur when an allegation is made. Some 
allegations are found to be unfounded, at least in terms of a 
judicial issue. In some cases, the victim decides not to 
proceed, which leaves the Service in a different position. In 
other cases, we do, indeed, proceed to general court-martial 
and we jail people for these offenses.
    Senator Pryor. The third question is, why do commanders 
drum rape victims out of the Service?
    Dr. Chu. Again, I don't mean to be impudent in saying, that 
the question has a when-did-you-last-stop-beating-your-wife 
flavor to it.
    Senator Pryor. I understand.
    Again, I'm just quoting the article verbatim.
    Dr. Chu. The article starts with an assumption that I would 
quarrel with, and I think we need to come back to a fact-based 
discussion of these issues. Without a fact-based discussion, we 
will never get to the policy improvements and the program 
strengthening that we need in order to ensure better results.
    Senator Pryor. Fourth, why are counseling and other 
services to rape and domestic violence victims decades behind 
those available in the civilian sector?
    Dr. Chu. Again, sir, I think I would quarrel with the 
presumption of the question that we're necessarily behind the 
civil sector. In some ways, I would argue we are at least equal 
to the civil sector. I would point to the Navy SAVI program as 
a possible case where we're better than the civil sector.
    Senator Pryor. Right.
    Dr. Chu. At least some civil sectors.
    Senator Pryor. Now, you other four have heard those 
questions. Would you all like to offer any comment on those? 
Again, I just thought it would be fair to hear your response to 
any of those. Would anybody like to take some of that on?
    Yes, sir?
    General Casey. I think we've all said it. One incidence in 
any of those categories is too much, and that's what this is 
about. I think we all have talked about our commitment to 
support for the victims of sexual assault, and what we're doing 
to get better at it. We talked earlier about 3 percent. That's 
one 97 that I'm not proud of.
    Senator Pryor. Right.
    General Casey. It's the 3 percent that's most important.
    Senator Pryor. Right. Anybody else?
    General Moseley. Senator Pryor, let me echo, again, these 
are our people. These are our soldiers, sailors, marines, 
airmen, and coast guardsmen. The notion that people get a free 
pass or that things are winked at or swept under the rug is 
outrageous. Is there room for improvement? Always. Will we 
always find ways to do this better and faster? Yes. Are we 
looking for ways to do it better and faster? Yes. The 
assumption that somehow we do not take this seriously, or that 
somehow we have other things to do, I take issue with. These 
are our kids, these are our people, and they're a national 
treasure, both male and female. We're dedicated to making this 
better, and we're dedicated to taking care of them.
    Senator Pryor. Okay.
    Mr. Chairman, that's all I have.
    Senator Chambliss. Thank you.
    Senator Nelson.
    Senator Ben Nelson. I thank you, Mr. Chairman.
    Obviously, The Denver Post has taken a very significant 
interest in the allegations in this particular situation. I 
should alert everyone that I may have a conflict of interest. 
As a young boy, I delivered The Denver Post as a paperboy.
    I have a question. I note that the Navy requires all 
commands to report any alleged sexual assault involving Navy 
personnel to the Naval Criminal Investigative Service, and to 
forward a unit situation report for all alleged sexual assaults 
involving active-duty or family members or occurring on Navy 
property. The Navy has also instituted an internal monthly 
review of this sexual assault data to identify trends and to 
address corrective action at the earliest possible point. I'd 
like to ask the other chiefs to respond, if you will, to what 
the Navy has done, as to whether or not you have adopted such 
practices or whether you think it might be worthy of 
consideration. I know we have an overall study going, but I'd 
like to get your particular thoughts on what appears to be a 
best practice.
    We'll just go ahead and start with General Casey. You had 
to start last time, General Moseley.
    General Casey. Senator, our reporting requirements policy 
is the same as the Navy's. Any incidence of sexual assault is 
reported to our Criminal Investigation Command, and they take 
up the investigation.
    Senator Ben Nelson. Then do you know if you do a monthly 
review of the data?
    General Casey. As I mentioned in my statement, we have 
instituted a quarterly review of the sexual assault data.
    Senator Ben Nelson. Quarterly.
    General Casey. Again, back to what Senator Allard said, we 
know what we know, and what we really have to get after is what 
we don't know. That's what we hope these periodic reviews will 
help us do.
    Senator Ben Nelson. Okay.
    General Nyland.
    General Nyland. Yes, sir. Similarly, all of our orders 
require commanders to immediately report any sexual assault or 
rape cases. They will go through law enforcement, as well as 
through the family advocacy program. Those reach my desk at all 
hours of the day and night, should they occur, via serious-
incident reports.
    We are, as part of our development of the Consolidated Law 
Enforcement Operations Center (CLEOC) program, looking for ways 
to better be able to mine data on this and learn more from it 
than we do at present.
    Senator Ben Nelson. Okay.
    General Moseley.
    General Moseley. Senator Nelson, we're in the same boat. 
Sir, we only know what we know. Going beyond your question, the 
real issue is, how do we go about setting a climate in which 
people are more free to report when perhaps they had felt 
reluctant to do so in the past? That's the challenge for us. 
Each commander gets the same information. As the commander in 
the Gulf, I knew within a few hours if we had a case like this, 
and I knew exactly who was taking care of the victim, the 
status of the victim and the perpetrator, where we are on 
prosecution, and where we are on transferring the people and 
separating them out if they were in the same unit, et cetera. 
You only know what you know. So the real challenge is to set 
the climate and to set the conditions so people are more free 
to report. That's our focus right now.
    Senator Ben Nelson. Very good.
    Thank you, Mr. Chairman.
    Senator Chambliss. Thank you, Senator.
    In this job, you never know when you have to revert to your 
prior means of incomes, so who knows where you may be next? 
[Laughter.]
    Let me just close by saying that Senator Collins alluded to 
something a minute ago that I feel very strongly about, and 
that is we know that this problem is not unique to the 
military. We obviously know that it happens in the civilian 
world every day. Hopefully it doesn't happen every day, but, 
unfortunately, it probably does, like in the military. We need 
to look to the military for a much higher standard than we do 
the civilian world.
    General Moseley, you've heard me time and time again talk 
about the pride I get going onto Robbins Air Force Base or 
Moody Air Force Base because of the quality of those young men 
and women that we have recruited and trained and have serving. 
It's the same way with every other base that I go on, 
irrespective of what the Service is. All of you have that same 
pride in these young men and women. Because of that, we know 
that we have a different caliber of individual than what is out 
there in the civilian world, and we need to expect more from 
them. We train and discipline our young men and women in every 
branch of the Service to be the type of responsible individual 
that we all want them to be. I think Senator Collins is 
absolutely right that the standard that we look to is much 
higher than what we look to in the civilian world.
    Along that same line, General Moseley, one thing that 
bothers me about this situation at Sheppard is the level of the 
violence that's alleged to have occurred out there. I don't 
know how we deal with that, and I guess it'll work its way 
through the report. We look forward to getting that report, as 
well as to getting the DOD report, Dr. Chu.
    The other thing that I want to make sure that you leave 
here with is that we expect a higher standard. We expect 
policies in every branch of the military to be written 
policies, to be strong policies, to be policies that are not 
unreasonable, or difficult to adhere to. The main thing is, we 
expect enforcement. There obviously have been situations where 
the policies of every branch of the Service have not been 
enforced, and we have to do a better job of that. When I say 
``we,'' that means members of this committee, from an oversight 
standpoint, and each and every one of you in the position that 
you're in, to make sure that the individuals underneath you are 
enforcing the rules and the laws that we have on the books 
relative to sexual assaults.
    Gentlemen, we thank you very much for being here. I don't 
know whether we're going to follow up with you in 30 days, 60 
days, or 6 months, but we are going to continue on with this 
issue until this subcommittee and the full committee feel 
comfortable that this issue is being addressed at the level 
that it should be, and that progress is being made towards 
ensuring that that level of incidence is at a point to where we 
are making progress with respect to the reduction of it.
    Gentlemen, thank you very much for being here.
    Dr. Chu. Thank you, Mr. Chairman.
    Senator Chambliss. We'll ask that our second panel come 
forward. (Pause.)
    Ladies, thank you very much for your patience and for being 
here today. I would like to introduce our next panel.
    With us today is Ms. Christine Hansen, the Executive 
Director of the Miles Foundation, located in Newton, 
Connecticut. The Miles Foundation is a private, nonprofit 
organization dedicated to providing victims services to the 
military community. Ms. Hansen has worked with victims of 
violence since 1978. Among many other accomplishments, she 
supervised the drafting and publication of a series of guides 
for victims of sexual and domestic violence.
    Ms. Hansen, welcome.
    Next, we welcome Dr. Terri Rau of the Navy Personnel 
Command. Dr. Rau is a clinical psychologist and educator. As 
the head of the Navy's Counseling, Advocacy, and Prevention 
Branch, she has been a principal architect of the Navy's SAVI 
program.
    Dr. Rau, welcome.
    Ms. Deborah Tucker is the Executive Director of the 
National Center on Domestic and Sexual Violence, located in 
Austin, Texas. She recently completed a 3-year term as co-chair 
of the DOD Task Force on Domestic Violence, whose report is a 
tremendous resource for the Department. Ms. Tucker has been 
nationally recognized for her leadership in establishing 
programs aimed at ending domestic violence.
    Ms. Tucker, welcome.
    Lastly, we welcome Dr. Susan Mather. Dr. Mather is the 
Chief Officer of Public Health and Environmental Hazards in the 
Veterans Health Administration (VHA). Within the VHA, the Women 
Veterans Health Program provides priority counseling for sexual 
trauma victims. Throughout her career with the VHA, Dr. Mather 
has been a leader in assessing the needs of women veterans and 
ensuring that services are available.
    I thank you for your written statements. We are pleased to 
have you here. If you could summarize those written statements, 
we'll move right into questions.
    Ms. Hansen, we'll start with you. Again, thank you for 
being here.

 STATEMENT OF CHRISTINE HANSEN, EXECUTIVE DIRECTOR, THE MILES 
                           FOUNDATION

    Ms. Hansen. Thank you, Senator.
    Good afternoon, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me here to provide 
information, analysis, and recommendations relative to the 
challenges of interpersonal violence for victims, survivors, 
and the advocates who serve in the military community.
    Again, my name is Christine Hansen. I'm the Executive 
Director of The Miles Foundation. The foundation is a private, 
nonprofit organization providing services to victims and 
survivors of interpersonal violence associated particularly 
with the U.S. Armed Forces; coordinating and navigating 
civilian and military service providers and professionals; 
conducting and supporting research; furnishing training and 
technical assistance to military personnel and civilian 
community-based programs; initiating public-education 
campaigns; and serving to ensure that public policy is well-
informed and constructive.
    To date, the foundation has provided services to over 
11,000 survivors in intimate-partner violence; and over 6,000 
survivors of sexual violence associated with the military since 
1996.
    I would like to summarize my statement and request that it 
be submitted for the record.
    Sexual violence within the United States Armed Forces is a 
force-protection issue impacting deployments, readiness, and 
cohesion. I'd also like to take this opportunity to focus upon 
some important statistics relative to prevalence, survey data 
and reports, and the current state of affairs, as well as 
recommendations for change.
    According to DOD, one-sixth of 1 percent of deployed female 
service members are victims of a sexual assault. A survey 
conducted by researchers within the Veterans Administration 
(VA) concluded that one-third of female service members 
deployed during Operations Desert Storm and Desert Shield were 
challenged by physical sexual harassment, with 13 of the 
respondents reporting a sexual assault. The comparative 
analysis of this data completed by the researchers indicated 
that the rate was a tenfold increase above the civilian rape 
rate during the same period of time.
    The disparity among these statistical findings relates to 
the methodological differences of surveys conducted within the 
DOD and those within the VA. The DOD has acknowledged 88 
reported cases of sexual misconduct in the current theater of 
operations, particularly Iraq, Kuwait, and Afghanistan. The 
Miles Foundation has received reports of 68 cases of sexual 
assault, predominantly in Iraq, Kuwait, and Bahrain. Eleven 
survivors have reported the incidents to military authorities, 
including command, chaplains, military criminal investigators, 
and security forces.
    The common threads or challenges for the survivors, if you 
will, include accessibility to medical care and services, 
including the testing for sexually transmitted diseases, HIV, 
and pregnancy; the availability of emergency contraception and 
medication; availability of mental health counselors or rape 
trauma specialists; the availability of chaplains; the 
availability of victim advocates; victim witness liaisons and 
attorneys; the availability of information as to the rights of 
a victim; accessibility and availability of rape kits; and 
trained personnel to perform the examinations and to collect 
the evidence. They have also noted the lack of, or incomplete, 
criminal investigations; administrative hearings being 
conducted by commanders; characterization of an attempted or 
completed rape as fraternization or adultery; presence of 
pornography; safety issues, citing the ongoing presence of an 
alleged assailant, or weapons; fear of adverse career impact; a 
fear of adverse impact on security clearances; and retaliation 
or retribution by peers and command.
    In addition, the survivors have also shared information and 
insight relative to a lack of privacy to perform daily 
routines; lighting in and around the tent cities; isolation; 
the existence of a sexually charged atmosphere; safety concerns 
relative to staging areas, particularly, for convoys; the 
collection and processing of DNA samples; jurisdictional issues 
as to on-post or off-post incidents reporting requirements; 
and, finally, information relative to the battle-buddy system 
for enlisted female personnel, with its limited application to 
female officers.
    The other point to be made here is that there is an overlap 
between sexual and domestic violence among the ranks. Several 
studies have cited the overlap, noting that one-third of female 
veterans reporting physical assault by an intimate partner also 
report being sexually assaulted.
    To address these force-protection issues, I propose the 
following, not to reinvent the wheel, but rather to build upon 
an existing program within the military departments, that being 
the Victim Advocate-Victim Service Specialist program 
authorized by Congress in 1994 and supported by recent 
appropriations, as well as a victim advocate protocol. This 
program would be enhanced by the development of an Office of 
the Victim Advocate in order to restore access to services. The 
Office of the Victim Advocate would serve as headquarters 
program manager, as well as mirror offices within local and 
State governments; and institute best professional practices, 
such as the employment and training of sexual assault nurse 
examiners. The Office of the Victim Advocate will contract 
victim advocate-victim service specialists within the military 
departments; serve as headquarters program manager; adapt best 
professional practices within the civilian community to the 
military, including, again, but not limited to, the sexual 
assault nurse practitioners, sexual assault response teams and 
domestic violence response teams; establish protective 
provisions and protocols, including a privacy privilege or non-
disclosure policy; coordinate and navigate services among the 
military departments and civilian community; advise and consult 
with command relative to services, safety and accountability; 
and report to the Secretary of Defense and Congress on the 
current state of affairs, as well as propose initiatives to 
enhance the response of the military departments to 
interpersonal violence.
    On behalf of victims, survivors, and the advocates who 
serve this special population, thank you for the opportunity to 
present this testimony. Again, the establishment of an Office 
of the Victim Advocate, staffing and funding for victim 
advocates-victim service specialists, and the adoption of best 
professional practices will go far towards restoring access to 
services, safeguarding military personnel, families, and 
partners, encouraging victims to seek help and treatment, and 
fostering the prosecution of assailants.
    Thank you.
    [The prepared statement of Ms. Hansen follows:]

 Prepared Statement by Christine Hansen, Executive Director, The Miles 
                               Foundation

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, I am Christine 
Hansen, Executive Director of The Miles Foundation.
    The Miles Foundation is a private, nonprofit organization dedicated 
to providing comprehensive services to victims and survivors of 
interpersonal violence associated with the U.S. Armed Forces; 
coordinating assistance, support, advocacy and networks for criminal 
justice professionals and human service providers; furnishing 
professional education and training to military personnel and civilian 
community-based professionals and service providers; conducting 
research and analysis; serving as a resource center for policymakers, 
advocates, journalists, students, researchers, and scholars; initiating 
community education campaigns; and serving to ensure that public policy 
is well-informed and constructive.
    The foundation has provided services to over 11,000 survivors of 
intimate partner violence and over 6,000 survivors of sexual violence 
since 1996.
    I am pleased to testify today on behalf of victims, survivors, and 
the advocates serving this special population, the military community.
    I am going to summarize my statement and ask that it be accepted 
into the record. Before I begin, I want to thank Chairman Chambliss, 
members of the subcommittee, and staff for providing a public forum in 
which the challenges for military personnel, families, and partners are 
presented. I am grateful for the opportunity to outline recommendations 
to enhance the response of the military departments to interpersonal 
violence among the ranks.
    I would also like to acknowledge the work and support of numerous 
colleagues including advocates and organizations dedicated to 
addressing sexual and domestic violence within special populations, 
such as the National Coalition Against Domestic Violence, National 
Network to End Domestic Violence, National Alliance of Sexual Assault 
Coalitions, National Organization for Women, and Amnesty International.
    Sexual violence associated with the U.S. Armed Forces periodically 
gains public attention due to sexual misconduct scandals, including 
Tailhook, Aberdeen, Fort Leonard Wood, Okinawa, Air Force Academy, and 
most recently, the current theater of operations (Hansen and Rosen, 
2003; Hansen, 2004).
    The daughters and granddaughters of pioneers who packed parachute 
bags for the boys in World War II are among the 15 percent of women 
serving in Operation Iraqi Freedom (OIF), the war on terrorism, and 
rebuilding Iraq.
    In honor of women veterans, active duty women, women who serve on 
the homefront, and women who dream of military service, an examination 
of the prevalence, investigations, policies, laws, services, and 
treatment for victims and offenders of interpersonal violence within 
the military community will be presented. The information will 
hopefully assist with the development of legislative and administrative 
protocols to enhance services and provide justice to those victimized 
within this special population.

            STATISTICS: RESEARCH DATA, REPORTS AND SCREENING

    The DOD has assessed the prevalence of sexual assault between 5 to 
6 percent of female active duty service members (Bastian et al., 1995). 
The experiences of female active duty members in the past year found 
that 9 percent of women in the Marine Corps, 8 percent of women in the 
Army, 6 percent of women in the Navy, and 4 percent of women in the Air 
Force experienced an attempted or completed rape (Bastian et al., 
1995). Fifty-two percent of female respondents reported sexual 
harassment in the same survey (Bastian et al., 1995).
    A recent survey conducted within the VA concluded that 30 percent 
of female veterans have experienced an attempted or completed rape 
during active duty (Sadler et al., 2003).
    The disparity between prevalence rates within the military 
departments and the VA relates to methodological differences, 
specifically the anonymity for respondents and protocols for the 
protection of human subjects (Bostock and Daley, 2001 and 2004). Survey 
responses are available to command in the active duty services. 
Anonymous surveys are preferred for determing the prevalence of 
intimate partner violence, sexual harassment and assault among active 
duty military women (Campbell et al., 2003). Prevalence and evaluation 
studies should be conducted under the principles guaranteeing 
confidentiality to victims as specified by statute.
    In addition, the preliminary findings resulting from the screening 
of veterans under the Veterans' Millennium Health Care Act (Veterans' 
Millennium Health Care Act, 1999) indicates that 22,456 male and 19,463 
female service members have experienced sexual trauma during active 
duty. The screening encompasses 1,300 medical centers serving 1.67 
million veterans (Snel, 2003).
    Data collected by the DOD Inspector General (IG) indicates 11 
percent of seniors and 3 percent of freshmen at the Air Force Academy 
have been victims of an attempted or completed rape (McIntyre, 2003). 
This rate is disproportionately high for the population of female 
cadets, comprising 16 percent of the cadet corps. The sexual assault 
rate may be 25 percent greater than the rate on college campuses 
(Fisher et al., 2000; Hansen, 2004).
    Please note the IG survey contained a narrow, legal definition of 
rape, rather than a scientific or behavioral set of questions. A 
prevalence or evaluation study conducted utilizing the state of the art 
in civilian studies may result in accurate data, generalizability and 
comparative analysis.

                        STATISTICS: DEPLOYMENTS

    According to DOD, one-sixth of 1 percent of female service members 
experience sexual trauma during deployments (Lumpkin, 2004).
    A survey of female Persian Gulf War veterans concluded that 13, or 
8 percent, of female respondents were sexually assaulted. In addition, 
one-third of the respondents reported physical sexual harassment (Wolfe 
et al., 1992 and 1998). The rate of victimization experienced by women 
service members deployed during Operations Desert Storm and Desert 
Shield represents nearly a ten fold increase over rates obtained using 
female civilian community samples (Wolfe et al., 1992 and 1998).
    The DOD has acknowledged 88 reported cases of sexual misconduct in 
the current theater of operations.
    The Miles Foundation has received reports of 68 cases of sexual 
assault occurring in Iraq and Kuwait. Eleven survivors have reported 
the incidents to military authorities including command (3); chaplains 
(3); military criminal investigators (2); military police (MP)/security 
forces (2); and judge advocate general (JAG) (1).
    The number of incidents should not be considered finite as 
colleagues at local rape crisis centers and shelter programs are 
providing services to survivors returning from the theater of 
operations. In addition, cases may overlap among the Foundation, local 
service providers, and VA.
    The common threads or challenges include:

        <bullet> accessibility and availability of medical care and 
        services including testing for STDs, HIV, and pregnancy;
        <bullet> availability of emergency contraception and 
        medication;
        <bullet> accessibility and availability of mental health 
        counselors and/or rape trauma specialists;
        <bullet> accessibility and availability of chaplains;
        <bullet> accessibility and availability of victim advocates, 
        victim witness liasions, and attorneys;
        <bullet> availability of information relative to the rights of 
        a victim;
        <bullet> accessibility and availability of rape evidence kits 
        and trained personnel to perform examinations and evidence 
        collection;
        <bullet> lack or incomplete criminal investigations;
        <bullet> administrative hearings conducted by commanders;
        <bullet> lack of information as to the status of criminal and/
        or administrative investigations;
        <bullet> characterization of an attempted or completed rape as 
        ``fraternization'' and/or ``adultery'';
        <bullet> presence of pornography;
        <bullet> safety, citing the ongoing presence of alleged 
        assailants and weapons;
        <bullet> fear of adverse career impact;
        <bullet> fear of adverse impact on security clearances; and
        <bullet> retaliation or retribution by peers and command.

    In addition, victims and survivors have shared information and 
insight relative to:

        <bullet> lack of privacy for performing daily routines;
        <bullet> lighting in and around the tent cities;
        <bullet> isolation;
        <bullet> existence of a ``sexually charged atmosphere'';
        <bullet> safety concerns relative to staging areas for convoys;
        <bullet> collection and processing of DNA samples;
        <bullet> jurisdictional issues, on post or off post incidents 
        and reporting requirements; and
        <bullet> battle buddy system for enlisted female personnel with 
        limited application to female officers.

                     DEMOGRAPHICS AND CASE STUDIES

    The demographic characteristics among the cases reported to the 
Foundation include a significant number of female officers and 
noncommissioned officers. The characteristics may correlate to issues 
of privacy, fear of adverse career impact, and availability of 
resources.
    The risk associated with rank (enlisted v. officer) has been found 
in several studies documenting domestic violence among active duty 
military women (Caliber Associates, 1996; Coyle and Wolan, 1996; 
Bostock and Daley, 2004).
    The absence of confidentiality is a deterrent to victims reporting 
abuse to military authorities. This lack of confidentiality may be even 
more an issue for officers than enlisted women. Although victimization 
should not adversely affect a woman's career, there is widespread 
concern as to its impact (Campbell, 2003; Defense Task Force on 
Domestic Violence, 2002).
    In addition, the emergence of female officers seeking services with 
the Foundation may indicate a hidden problem among female enlisted 
personnel.
    Talia was sexually assaulted by a fellow soldier while deployed in 
the Persian Gulf. She was, belatedly, flown back from her unit for 
medical leave and long term counseling to cope with rape trauma. The 
rape evidence kit was turned over to local police for DNA analysis due 
to a backlog of 6 months or more. She has been unable to obtain 
information relative to the status of the investigation due to 
transfers and reassignments of military criminal investigators.
    Kelsey was sexually assaulted by an escort while serving in OIF. 
She has received no immediate or subsequent medical treatment for an 
injury occurring during the assault. She has not received testing for 
STDs, HIV, and/or pregnancy. She will engage testing facilities and 
counseling with civilian authorities in the near future.
    Augie was sexually assaulted by a colleague while being transported 
between units. She was driven to a secluded place. She was threatened 
with charges of adultery and fraternization upon reporting the assault.
    Lisa was sexually assaulted by a male soldier following his viewing 
of pornography with fellow service members. She received medical 
attention from medics at a combat support hospital. She has not 
received counseling for the trauma. She has been denied access to 
attorneys until her return from theater.

      ACQUAINTANCE, DATE, AND GANG RAPES IN THE MILITARY COMMUNITY

    According to the most recent survey within DOD, 18 percent of the 
Army women experienced sexual coercion while 5 percent experienced 
sexual assault (Bastian et al., 1995).
    The survey of female veterans, however, indicates that 37 percent 
of the women who reported an attempted or completed rape also reported 
being raped more than once, while 14 percent of the attempted rape or 
completed rape victims reported being gang raped (Sadler et al., 2003).

              INTERSECTION OF SEXUAL AND DOMESTIC VIOLENCE

    The overlap of physical, sexual, and emotional abuse is routinely 
found in studies and case histories of survivors. Research relative to 
active duty military women has cited this overlap concluding that one-
third of female veterans reporting physical assault by an intimate 
partner also reported being seuxally assaulted (Murdoch and Nichol, 
1995). In another study, researchers discovered that psychological 
abuse related significantly to psychological distress in active duty 
military women (Rosen, Parmley et al., 2002). The overlap in types of 
abuse supprots the argument for a broad definition of domestic and/or 
sexual violence within the military (Campbell, et al., 2003).

    Risk Factors: Hostile Environment, Hypermasculinity, and Prior 
Victimization

    The military environment is more powerfully associated with risk 
than individual factors, encompassing young women entering male 
dominanted working groups at lower levels of authority; sexual 
harassment by officers; and unwanted advances on duty and in sleeping 
quarters (Sadler et al., 2003).
    The norms currently prevalent within military organizations include 
a configuration of norms regarding masculinity, sexuality, and women 
that have been found to be conducive to rape, including element of 
hypermasculinity, adversial sexual beliefs, promiscuity, rape myth 
acceptance, hostility toward women, and possibly the acceptance of 
violence against women (Morris, 1996). Morris suggested that military 
cohesion is associated with a culture of hypermasculinity including the 
objectification and denigration of women through the consumption of 
pornography and pervasive use of sexist language. Bonding tends to 
occur around stereotypic masculine characteristics, such as dominance, 
aggressiveness, risk taking, and attitudes that favor sexual violence 
toward women and that reflect distrust, anger, alienation, and 
resentment toward women. Morris concluded that norms reflecting 
hypermasculinity among service members are imparted during the informal 
acculturation process encompassing the consumption of alcohol, 
pornography, bragging about sexual activity, and attending strip shows 
(Morris, 1996; Mercier and Mercier, 2000; Rosen et al., 2003).
    An example of the insidious hostility towards women is evident at 
the Air Force Academy. Sixty-eight percent of the female cadets were 
victims of sexual harassment, according to the survey by the IG. The 
survey also revealed the depth of hostility citing one in four male 
cadets do not support women attending the Service Academy. The birth of 
these cadets occurred well after the military academies began accepting 
women in 1976. Traditional sex roles for men and women are supported by 
male cadets at the military academies; and egalitarianism appears to 
lessen as cadets and midshipmen ascend through the ranks, according to 
earlier studies (Robinson Kurpius et al., 2000; Adams, 1984; Cecil, 
1996; Gill et al., 1997; Stevens and Gardner, 1987). The ``Bring Me 
Men'' sign posted, until recently, on Academy grounds served as a 
symbol.

                   VICTIMIZATION AND REVICTIMIZATION

    Numerous studies have been conducted within the military 
departments which detail the victimization of service members prior to 
military service (Rosen and Martin, 1998; Merrill, Newell, Koss et al., 
1998; Merrill, Thomsen et al., 2001; Stander, 2001; Bostock and Daley, 
2004 ). The studies indicate that individuals who have been challenged 
by sexual or child abuse prior to recruitment are more vulnerable to 
revictimization. I would urge caution as to distorting this evidence 
with notions of instability of victims or adopting the ``asking for 
it'' mentality. The studies have yet to determine the reason for 
vulnerability.
    A recent case at the Naval Academy further illustrates the 
challenges for victims of sexual violence within the military. Naval 
prosecutors withdrew charges prior to the convening of a court-marital 
due to prior victimization of the victim (Associated Press, 2003). The 
victim decided not to permit questioning during the proceedings 
concerning previous sexual trauma. Civilian judicial authorities would 
impose a rape shield or consider relevance. The decision by military 
authorities does not provide equal protection under the law.

                         BARRIERS TO REPORTING

    The barriers to reporting for active duty, cadets, and family 
members within the military include mandatory reporting procedures, 
lack of privacy and confidentiality of communications, fear of adverse 
career impact and fear of being charged with disciplinary infractions 
such as alcohol, drugs, fraternization, or adultery.
    Three-fourths of the women who were raped in a survey by the VA 
acknowledged that they did not report the incident to a ranking 
officer. One-third of the respondents cited not knowing how to report 
as the reason for not reporting (Sadler et al., 2003).
    The survey conducted by the IG in response to the sexual misconduct 
scandal at the Air Force Academy notes that one in six cadets are not 
aware of the protocols for reporting sexual assault. Further, cadets 
reported that the fear of reprisals and retribution as the reason for 
not reporting. The fear of being punished by command officials, such 
as, by being punished by having to march the Terrazzo for hours, was 
cited by 25.2 percent of the female respondents.
    A comparative analysis of the IG data with a recent survey of 
college students indicates significant differences among the 
populations relative to the fear of reprisals and reasons for not 
reporting. The fear of reprisal correlates directly to the assailant 
for victims on college campuses, whereas the fear of reprisals from 
peers, colleagues and command authorities traumatizes Academy assault 
victims.

               PRIVACY PRIVILEGE AND NONDISCLOSURE POLICY

    The lack of confidentiality within the miltitary has been greatly 
debated following the Jaffee v. Redmond decision of the U.S. Supreme 
Court. The American Psychiatric Association, military personnel and 
families have advocated for the adoption of privacy standards in order 
to facilitate mental health diagnosis and treatment within the Services 
(Darcy and Summers, 2002).
    The psychotherapist-patient privilege in cases of sexual assault, 
domestic violence and child abuse is precluded by the rules of evidence 
within the military, Manual for Courts-Martial (Rule 513). The 
limitations of the privacy privilege for victims of domestic and sexual 
violence have been highlighted in reports by the General Accounting 
Office (General Accounting Office, 2000), the Defense Task Force on 
Domestic Violence (Defense Task Force on Domestic Violence, 2001, 2002, 
and 2003), and Report of the Panel to Review Sexual Misconduct 
Allegations at the U.S. Air Force Academy (Department of Defense, 
2003).
    The adoption of a nondisclosure or privacy privilege has also been 
recommended by several task forces including the Defense Task Force on 
Domestic Violence and the Fowler Commission. Congress has encouraged 
DOD to adopting a nondisclosure policy in order to address this barrier 
to seeking help, resources and treatment (Wellstone, 2002; Sense of 
Congress, 2004).

                  GOOD ORDER AND DISCIPLINE OR JUSTICE

    Our society exists upon a foundation of law, policy and protocols. 
The establishment of a foundation of law and procedure will result in 
the creation of a climate providing protection to victims and due 
process to alleged offenders. The precedents in this field include the 
enactment of State and Federal statutes, such as the Violence Against 
Women Act and its reauthorization (Hansen, 2004).
    Civilian laws changed during the 1970s to recognize a broader range 
of conduct encompassing sexual assault including acquaintance, date and 
marital rape. The military case law resulting from the court-martials 
associated with Aberdeen Proving Ground expanded the definition of rape 
within the military to include acquaintance rape and abuse of power. 
Statutory changes have not followed.
    Further, the lack of a rape shield (Rule 412), victim preference 
(Rule 306(b)) or character and evaluation of military service (Rule 
306(b)) provisions within the Manual for Courts-Martial detract from 
equal protection for survivors and due process for assailants within 
the military (Rosenthal and McDonald, 2003; Hansen, 2004).
    A congressionally-mandated study of military sex crime 
investigations, Adapting Military Sex Crime Investigations to Changing 
Times, recommended guidance against command influence; autonomy for 
military criminal investigators; reorganization of military criminal 
investigative organizations (MCIOs) including the establishment of a 
headquarters program manager; development of installation level sex 
crime and domestic violence units; departmental oversight, following 
the abolishment of the Board of Investigators; special training and 
experience within MCIOs; consolidated training at Federal Law 
Enforcement Training Center (FLETC) with an advanced sex crime course; 
development of a manual for operational procedures; changes in titling 
including probable cause; compliance with Defense Incident-Based 
Reporting System (DIBRS) requirements and establishment of a data base; 
and establishment of a special agent misconduct reporting system and 
ethics. No specific recommendations have been implemented since the 
release of the report. The development and implementation of DIBRS 
remains an issue within the military departments (National Academy for 
Public Administration, 1999).
    The Report of the Commission on the 50th Anniversary of the Uniform 
Code of Military Justice (UCMJ) made specific recommendations relative 
to the impact of rank on rape cases and the influence of military 
commanders on criminal investigations. The recommendations included: 
modification of the role of the convening authority during pretrial 
proceedings; establishment of protections in death penalty cases; 
repeal of rape and sodomy laws; establishment of a Criminal Sexual 
Misconduct Article, similar to to the Model Penal Code; and 
independence for military judges. Congress recently extended the 
statute of limitations relative to child abuse (National Institute of 
Military Justice, 2001).
    Recommendations to alter the culture through training, training, 
and more training may not result in policy and/or social change without 
a foundation of laws, policies, and programs (Hansen, 2004).

                   OFFENDER AND SYSTEM ACCOUNTABILITY

    Recommendations to assess military leadership's response to sexual 
violence acknowledges the impact upon force protection, readiness, and 
cohesion. A review of disciplinary actions contained within personnel 
records would illustrate the response of leadership. The recommendation 
mirrors an accountability and personnel system outlined within 
Improving the U.S. Armed Forces Response to Violence Against Women: 
Recommendations for Change (Miles Foundation et al., 1999). The 
recommendations were sponsored by over 80 local, State, and national 
organizations as well as several hundred victim survivors in 1999. The 
Defense Task Force on Domestic Violence and Fowler Commission also 
proposed the development of system accountability standards (Defense 
Task Force on Domestic Violence, 2002; DOD, 2003).

                              JURISDICTION

    The jurisdictional issues between civilian law enforcement and 
military installations warrant review. The traditional concept of a 
military installation as an area under complete Federal control has 
many exceptions. Four types of jurisdiction exist:

        <bullet> Exclusive Federal Jurisdiction--The Federal Government 
        holds all authority in case of exclusive jurisdiction (18 
        U.S.C. 13). Offenses are handled only by the military or other 
        elements of the Federal justice system. Civilian authorities 
        can only enter upon invitation of the installation commander in 
        order to serve process, such as Vandenberg Air Force Base, 
        California.
        <bullet> Concurrent Jurisdiction--State and Federal Governments 
        share authority over the area under concurrent jurisdiction, 
        either may be first responders or prosecute offenders.
        <bullet> Partial Jurisdiction--States may give the Federal 
        Government authority in some areas of law and reserve authority 
        in others under partial jurisdiction.
        <bullet> Proprietary-Interest Jurisdiction--Proprietary 
        interest jurisdiction maintains the right of ownership and use 
        of the land with the Federal Government, however, all legal 
        authority is assigned to the State, such as the housing unit at 
        Subase, Groton, Connecticut (Hansen, 2003).

    The DOD, following recommendation by the Defense Task Force on 
Domestic Violence, is seeking to craft collaborative partnerships 
through the development of memorandums of understanding (Defense Task 
Force on Domestic Violence, 2002 and 2003; Hickman and Davis, 2003). 
Recommendations to develop memorandums of understanding between 
military and civilian services, programs and authorities require 
additional research. The disparity between military protocols and 
civilian statutes relative to definitions of sexual and domestic 
violence, mandatory arrests, equal protection, and due process may 
prevent such collaborations (Taylor, 2003).
    For example, the concurrent jurisdiction at the Academy provides 
that local law enforcement may investigate and prosecute crimes 
occurring on Academy grounds. However, the El Paso County Sheriff's 
Department has entered into a Memorandum of Understanding (MOU/MOA) 
which precludes civilian jurisdiction in sexual assault and domestic 
violence cases on the grounds. The MOU/MOA may deny these victims equal 
protection under the law, as well as enhance municipal and state 
liability (Hansen, 2004).

                            RECOMMENDATIONS

    The decades of indifference to sexual and domestic violence within 
the military community warrant the establishment of an Office of the 
Victim Advocate (Miles et al., 1999; Hansen, 2004). We have learned 
much since the establishment of the victim advocate/victim service 
specialist program in the services (Victims' Advocates Programs in DOD, 
1994).
    The disparity between services in the civilian and military 
communities has been noted by Congress (Wellstone, 2002; Summers and 
Hansen, 2000, 2001 and 2002; Hansen, 2001; Defense Task Force on 
Domestic Violence, 2002 and 2001). Congress has also authorized 
additional funding to support adequate staffing levels at military 
installations (Wellstone, 2002). Further, Congress recently restated 
its support of the program by encouraging the development of a victim 
advocate protocol and nondisclosure policy within the military 
departments (Sense of Congress, 2003).
    The Office of the Victim Advocate would mirror offices of the 
victim advocate and child advocate established by numerous States, such 
as Office of the Victim Advocate and Office of the Child Advocate, 
State of Connecticut and Office of the Advocate, City of New York.
    The goals of this legislative initiative are to restore access to 
services for victims of sexual and domestic violence associated with 
the military; establish protective provisions and protocols; correct 
ommissions within DOD regulations; correct unforeseen implementation 
problems, for example, personnel, staffing, and funding.
    The initiative also removes legal impediments that provide a 
perverse incentive for sexual and domestic violence victims to not 
report and stay with an abuser, rather than seeking help.
    The Office of the Victim Advocate would:

        <bullet> coordinate programs and activities of the military 
        departments relative to services and treatment for victims;
        <bullet> serve as headquarters program manager for the victim 
        advocates/victim service specialists authorized by Congress 
        (Victims' Advocates Programs in the DOD, 1994);
        <bullet> coordinate and navigate services for victims among 
        military and civilian communities;
        <bullet> evaluate the prevalence of interpersonal violence 
        among the ranks;
        <bullet> evaluate the programs established by the military 
        departments providing services to victims of interpersonal 
        violence;
        <bullet> evaluate the delivery of services by the military 
        departments;
        <bullet> review the facilities of the military departments 
        providing services to victims;
        <bullet> review the hotline programs including command and 
        installation hotlines, National Domestic Violence Hotline 
        project, and Child Care Child Abuse Hotline;
        <bullet> review disciplinary actions;
        <bullet> establish system accountability standards;
        <bullet> recommend to the Secretaries of the military 
        departments policies, protocols, and programs to enhance 
        accessibility of services;
        <bullet> recommend changes to policies and procedures to 
        address sexual misconduct, assault and intimate partner 
        violence;
        <bullet> conduct education and training within the military;
        <bullet> develop protocols for accountability of commanders in 
        response to incidents of violence;
        <bullet> report annually to the Secretary of Defense relative 
        to an assessment of the current state of affairs within the 
        military departments related to victims as well as propose 
        initiatives to enhance the response of the military 
        departments;
        <bullet> report annually to Congress relative to an assessment 
        of the current state of affairs within the military departments 
        related to victims as well as to propose initiatives to enhance 
        the response of the military departments;
        <bullet> serve or designate a person to serve on the fatality 
        review panel established by the Secretary of Defense;
        <bullet> conduct training and provide technical assistance to 
        commands, Family Advocacy Program, victim witness assistance 
        liasions, commissions, medical personnel, law enforcement, 
        security forces, and JAG corps; and
        <bullet> conduct programs of public education.

    The staff of the Office of the Victim Advocate would consist of:

        <bullet> Director--a person with knowledge of victims' rights, 
        advocacy, social services, and justice within State, Federal, 
        and military systems. The director shall be qualified by 
        training and expertise to perform the responsibilities of the 
        office.
        <bullet> Victim advocates/victim service specialists--positions 
        authorized by Congress shall be contracted by and assigned to 
        the Office of the Victim Advocate. Personnel shall be qualified 
        by training, certification, and expertise to perform the duties 
        of a victim advocate/victim service specialists within the 
        military departments.
        <bullet> Victim witness liasion personnel--shall be assigned to 
        the Office of the Victim Advocate.
        <bullet> Staff--shall be provided to carry out the 
        responsibilities of the Office of the Victim Advocate 
        including, but not limited to, sexual assault nurse examiners, 
        community liasion, trauma specialist, behavioral specialist, et 
        al.

    The Office of the Victim Advocate would have access to:

        <bullet> Name of a victim receiving services, treatment, or 
        other programs under the jurisdiction of the military 
        departments, and the location of the victim if in custody;
        <bullet> Written reports of sexual harassment, sexual 
        misconduct, sexual assault, spouse abuse, intimate partner 
        violence, child abuse, and neglect prepared by military 
        departments;
        <bullet> Records required to maintain the responsibilities 
        assigned to the Office of the Victim Advocate; and
        <bullet> Records of law enforcement, criminal investigative 
        organizations, health care providers, command and Family 
        Advocacy Programs as may be necessary to carry out the 
        responsibilities of the Office of the Victim Advocate.

    The Office of the Victim Advocate would support and:

        <bullet> Establish levels of care and services which mirror 
        civilian communities, including sexual assault response teams, 
        sexual assault nurse examiners, domestic violence response 
        teams, and enlightened criminal investigators;
        <bullet> Establish protocols to provide for the safety of 
        victims during administrative and criminal investigations, 
        including protective orders and safe havens;
        <bullet> Reform the UCMJ to expand the definition of rape, 
        beyond reasonable resistance (by force and without consent), 
        and age of consent;
        <bullet> Reform the UCMJ to encompass the recent Supreme Court 
        ruling relative to sodomy;
        <bullet> Reform the Manual for Courts-Martial (MCM) to provide 
        privacy for victims of sexual and domestic violence (Rule 513);
        <bullet> Reform victim preference within the MCM (Rule 306(b));
        <bullet> Establish a rape shield for victims of sexual violence 
        within the MCM (Rule 412);
        <bullet> Reform the MCM to preclude the character and military 
        service of an alleged assailant in cases of domestic and sexual 
        violence as a factor in disciplinary actions by commanders 
        (Rosenthal and McDonald, 2003);
        <bullet> Reform the Service Members Civil Relief Act in order 
        to provide sufficient opportunity for the service and 
        enforcement of civilian orders of protection;
        <bullet> Establish a registry for the reporting of sexual 
        assault and domestic violence incidents, disciplinary actions 
        and military justice outcomes;
        <bullet> Establish a registry for sexual offenders associated 
        with the military including notification of Federal and State 
        law enforcement officials;
        <bullet> Adopt a privilege for sexual and domestic violence 
        victims noting that without confidentiality many victims will 
        refuse to report an attack, driving the problem 
        ``underground;''
        <bullet> Craft choice for victims when reporting an incident to 
        a victim advocate, psychotherapist, or chaplain;
        <bullet> Provide transportation to a hospital and/or court, and 
        any necessary support, to a victim who chooses to receive a 
        rape kit examination or protection order; and
        <bullet> Training (Hansen, 2004).

                               CONCLUSION

    Women who chose to serve and endure military training, as well as 
those who dream of service, deserve a thorough quest for truth, 
corrective actions and the establishment of a mechanism to provide for 
the safety and protection of victims of sexual and domestic violence 
associated with the U.S. Armed Forces. The reestablishment of a zero 
tolerance policy is not a sufficient antedotal sign of progress. 
Victims remain fearful for their safety and privacy, as well as desire 
justice and social change.
    On behalf of victims, survivors and the advocates who serve this 
special population, thank you for the opportunity to present this 
testimony. We have learned much since the establishment of the victim 
advocate program within the DOD. The establishment of an Office of the 
Victim Advocate will go far toward ensuring the original purpose and 
legislative intent of the victim advocate/victim service specialist 
program; restoring access to services and treatment; encouraging 
victims to seek help; safeguarding victims; and prosecuting assailants.

                               REFERENCES

    Associated Press. (2003, September 24). Naval Academy students' 
refusal. Associated Press.
    Bastian, L.D., Lancaster, A.R., and Reist, H.E. (1996). Department 
of Defense 1995 Sexual Harassment Survey. (Report No. 96-104). 
Arlington, VA: Defense Manpower Data Center.
    Bostock, D. and Daley, J. (2001). Overcoming difficult 
methodological issues when surveying military populations on sexual 
assault. Unpublished manuscript. Department of the Air Force.
    Bostock, D. and Daley, J. (2004). Air Force women's study. Violence 
Against Women. Caliber Associates. (1996). Final report of the study of 
spousal abuse in the Armed Forces. Washington, DC: Author.
    Campbell, J., Garza, M., Carlson-Gielen, A., O'Campo, P., et al. 
(2003). Intimate partner violence and abuse among active duty military 
women. Violence Against Women, 9(9), 1072-1092.
    Cecil, A.G. (1996). Comparing male cadet attitudes for masculinity 
ideology within civilian and military college environments. Unpublished 
doctoral dissertation. Arizona State University, Tempe.
    Coyle, B.S. and Wolan, D.L. (1996). The prevalence of physical and 
sexual abuse in women veterans seeking care at at Veterans' Affairs 
medical center. Military Medicine, 161, 588-593.
    Darcy, E. and Summers, K. (2002). Red, white, black, and blue: A 
review of the Defense Task Force on Domestic Violence. Domestic 
Violence Report, 7(5), 65, 75-78.
    Defense Task Force on Domestic Violence. (2001). Initial report. 
Washington, DC: Department of Defense.
    Defense Task Force on Domestic Violence. (2002). Second annual 
report. Washington, DC: Department of Defense.
    Defense Task Force on Domestic Violence. (2003). Third annual 
report. Washington, DC: Department of Defense.
    Department of Defense. (2003). Report of the panel to review sexual 
misconduct allegations at the U.S. Air Force Academy. Washington, DC: 
Department of Defense.
    Fisher, et al. (2000) Sexual assault on college campuses. 
Washington, DC: National Institute of Justice.
    General Accounting Office. (2000). Military dependents, services 
provide limited confidentiality in family abuse cases. Washington, DC: 
General Accounting Office.
    Gill, J.K., Bozung, D.B., and Tomlinson, R.G. (1997, March). Male 
midshipmen attitudes toward women 1976-1996. Paper presented at the 
meeting of the Leadership in a Gender Diverse Military: Women at the 
Nation's Service Academies: The Twenty Year Mark, United States Coast 
Guard Academy, New London, CT.
    Hansen, Christine. (2001). A considerable service: An advocate's 
introduction to domestic violence and the military. Domestic Violence 
Report, 6(4), 49, 50, 60-64.
    Hansen, Christine. (2003). Judging jurisdictions: Military 
installations and intimate partner violence. Family Violence Forum, 
National Center for State Courts.
    Hansen, Christine. (2004). Filing a flight plan: Policy and social 
change to address sexual violence in the military. Sexual Assault 
Report.
    Hansen, C. and Rosen, L. (2003). Violence against women associated 
with the military, part I: Intimate partner violence, Introduction. 
Violence Against Women, 9(9), 1039-1044.
    Hickman, L. and Davis, L. (2003). Formalizing collaboration: 
Establishing domestic violence memorandums of understanding between 
military installations and civilian communities. Santa Monica, CA: RAND 
Corporation.
    Lumpkin, J. (2004, February 7). Rumsfeld orders war zone sexual 
assault inquiry. Associated Press.
    McIntyre, J. (2003, August 29). Survey: 20 percent of female cadets 
are victims of sexual assault (Television Broadcast). In J. Barnett 
(Producer), Live From. Washington, DC: CNN.
    Mercier, P. and Mercier, J. (2000). Battle cries on the homefront: 
Violence in the military family. Springfield, IL: Charles C. Thomas.
    Merrill, L.L., Thomsen, C.J., Gold, S.R., and Milner, J.S. (2001). 
Childhood abuse and premilitary sexual assault in male Navy recuits. 
Journal of Consulting and Clinical Psychology, 69(2), 252-261.
    Merrill, L.L., Newell, C.E., Thomasen, C.J., Koss, M.P., et al. 
(1998). Prevalence of premilitary adult sexual victimization and 
aggression in a Navy recruit sample. Military Medicine, 163(4), 209-
212.
    Miles Foundation, et al. (1999). Improving the U.S. Armed Forces 
Response to Violence Against Women.: Recommendations for Change. 
Newtown, CT: Miles Foundation.
    Morris, Madeline. (1996). By force of arms: Rape, war, and military 
culture. Duke Law Journal, 45, 651-781.
    Murdoch, M. and Nichol, K.L. (1995). Women veterans' experiences 
with domestic violence and with sexual harassment while in the 
military. Archives of Family Medicine, 4, 411-418.
    National Academy for Public Administration. (1999). Adapting 
military sex crime investigations to changing times. Washington, DC: 
National Academy for Public Administration.
    National Institute for Military Justice. (2001). Report of the 
commission on the 50th anniversary of the Uniform Code of Military 
Justice. Washington, DC: National Institute of Military Justice.
    Robinson Kurpius, Sharon. (2000, August). Military and civilian 
undergraduates attitudes towards women, masculinity and 
authoritanianism. Sex Roles.
    Rosen, L. and Martin, L. (1998). Childhood maltreatment history as 
a risk factor for sexual harassment among U.S. Army soldiers. Violence 
and Victims, 13, 269-286.
    Rosen, L., Parmley, A., Knudson, K., and Fancher, P. (2002). Gender 
differences in the experience of intimate partner violence among active 
duty military soldiers. Military Medicine, 167, 959-963.
    Rosen, L., Knudson, K., and Fancher, P. (2003). Cohesion and 
culture of hypermasculinity in U.S. Army units. Armed Forces and 
Society, 29(3), 325-352.
    Rosenthal, L. and McDonald, S. (2003). Seeking justice: A review of 
the second report of the Defense Task Force on Domestic Violence. 
Violence Against Women, 9(9), 1153-1161.
    Sadler, Booth, Cook, Turner, and Doebbling. (2001). The military 
environment: Risk factors for women's nonfatal assaults. Journal of 
Occupational and Environmental Medicine, 43(4), 325-334.
    Sadler, Booth, Cook, and Doebbling. (2003). Factors associated with 
women's risk of rape in the military environment. American Journal of 
Industrial Medicine, 34, 262-273.
    Sense of Congress, Pub. L. No. 108-136, Section 578 (2003).
    Service Members Civil Relief Act, Pub. L. No. 108-189 (2003).
    Snel, Alan. (2003, January 17). Male sex abuse revealed in the 
ranks. Florida Today.
    Stander, V.A. (2002). Self-definition as a survivor of childhood 
sexual abuse among Navy recruits. Journal of Consulting and Clinical 
Psychology, 70(2), 369-377.
    Stevens, G. and Gardner, S. (1987). But can she command a ship? 
Acceptance of women by peers at the Coast Guard Academy. Sex Roles, 16, 
181-188.
    Summers, K. and Hansen, C. (2000, 2001, and 2003). Intimate partner 
violence and the military: A victim's handbook. Newtown, CT: The Miles 
Foundation, Inc.
    Taylor, Patsy. (2003). Collaborative project between civilian 
courts and Fort Polk Army installation, Louisiana. Family Violence 
Forum, National Center for State Courts.
    Veterans' Millennium Health Care Act, Pub. L. No. 106-117 (1999).
    Victims' Advocates Programs in the Department of Defense, Pub. L. 
No. 103-337, Section 534 (1994).
    Violence Against Women Act of 1994, Pub. L. No. 10-322 (1993).
    Violence Against Women Reauthorization Act, Pub. L. No. 106-386 
(2000).
    Wolfe, Jessica et al. (1992, November). Self-reported sexual 
assault in female Gulf War Veterans. Presentation to the Annual Meeting 
of the Association for the Advancement of Behavioral Therapy.
    Wellstone, Paul. (2002, October 16). Conference Committee Report on 
Department of Defense Authorization for Fiscal Year 2003. Congressional 
Record: Senate. S 10521.
    Wellstone, Paul. (2002, August 1). Department of Defense 
Authorization for Fiscal Year 2003. Congressional Record: Senate. S7805 
and 7806.
    Wolfe, J. et al. (1998). Sexual harassment and assault as 
predictors of PTSD symptomology among U.S. female Persian Gulf War 
military personnel. Journal of Interpersonal Violence, 13(1), 40-57).
    Yoder, J.D. and Adams, J. (1984). Women entering nontraditional 
roles: When work demands and sex-roles conflict: The case of West 
Point. International Journal of Women's Studies, 7, 260-272).

    Senator Chambliss. Thank you, Ms. Hansen.
    Dr. Rau.

STATEMENT OF TERRY J. RAU, HEAD, POLICY AND PREVENTION SECTION, 
  COUNSELING, ADVOCACY AND PREVENTION BRANCH, NAVY PERSONNEL 
                            COMMAND

    Dr. Rau. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. I truly appreciate this 
opportunity to appear before you to discuss the Navy's SAVI 
program.
    I'd like to just provide a little bit about my background, 
since I think it then provides information for you about what 
perspective I come from.
    My professional career has been focused primarily in the 
areas of family violence. By that, I mean domestic violence and 
child abuse and neglect, and, more recently, sexual assault. 
Like my esteemed colleagues on this panel, I am dedicated to 
fostering cultural and systemic changes necessary to eradicate 
these problems in the military and in our society.
    Prior to 1993, I worked in the private sector of a large 
metropolitan area that's had a relatively progressive approach 
to domestic violence, sexual assault, and child abuse. I came 
to the Navy for 4 years, providing mental health services, 
where I saw victims of sexual assault more than a few times in 
my practice, and I worked with them on intervention. I provided 
intervention and also supported commands in their efforts to 
respond to the sexual assault victims. I was very impressed 
with the Navy's efforts in these areas, so I sought a position 
at headquarters so that I could be a part of the very exciting 
efforts that the Navy was engaging in at the time.
    I bring to this the perspective of having worked both 
within and outside the military system to prevent assaults, 
increase awareness, and respond to these very difficult 
situations. I have oversight not only for SAVI but the Family 
Advocacy Program, the new Parent Support Program, and clinical 
counseling that occurs within our fleet in family support 
centers, which, by the way, is unique to the Department of the 
Navy.
    I work with a staff of very dedicated individuals, who make 
it possible for me to do this work. I want to specifically 
thank Julia Powell, who is our SAVI program manager at 
headquarters. She's worked in SAVI since 1993. She is a 
steadfast supporter of the program. She brings the historical 
continuity that's important in the military system, and she is 
a subject-matter expert in her own right.
    My written testimony complements that of Admiral Mullen's 
with regard to the SAVI program. SAVI was established to 
provide a Navy-wide, comprehensive, standardized victim-
sensitive and oriented system to both prevent and respond to 
sexual assault. The program epitomizes the coordinated 
community response. It provides a series of overlapping 
protocols for all key responders in a sexual assault that I 
believe ultimately increases the effectiveness of any one 
responder.
    The program operates at both the installation and the 
command level, which is absolutely essential for success in the 
Navy, given our operational tempo (OPTEMPO) and mission. My 
written testimony goes on to provide much more information and 
detail about how the program is structured and functions, and I 
also provide some information about program effectiveness. I 
talk some about our efforts with regard to awareness, 
prevention, and education, as well as the fundamentals of our 
approach, which focuses upon victim support, victim advocacy, 
and intervention for those who desire it. I won't repeat that 
here, for the sake of time.
    I would like to thank you again for this opportunity. I am 
looking forward to learning from the other witnesses on this 
panel, and from the ongoing dialogue that will be stimulated by 
the testimony today. We welcome the opportunity in the Navy to 
evaluate where we are with regard to this program and to 
identify new and innovative means by which we can pursue 
continual improvement of the SAVI program.
    Thank you. I look forward to your questions and 
recommendations.
    [The prepared statement of Dr. Rau follows:]

                 Prepared Statement by Dr. Terri J. Rau

                              INTRODUCTION

    Mr. Chairman and subcommittee members, I greatly appreciate the 
opportunity to share with you my perspective on the Navy's efforts to 
increase awareness, prevent, and respond to sexual assault. It has been 
my privilege for the past 10 years to work with and for the Navy, as it 
tackles this difficult challenge.
    I am a clinical psychologist and have devoted my professional 
career to understanding and working in the fields of family violence 
and sexual assault. I first became aware of the Navy's efforts in these 
areas when I began working in military mental health. Having worked for 
a number of years within the civilian sector of a metropolitan area, I 
was immediately impressed with the Navy's forethought and progressive 
policies, practices, and procedures. My respect only grew as I gained 
understanding of the sometimes conflicting challenges Navy commanders 
face every day. I have only passing knowledge and no personal 
experience working for the other military services. However, I bring to 
this hearing the perspective of having worked both outside and within 
the Navy system to improve our society's understanding of, and response 
to, family violence and sexual assault.
    I thank you for your leadership and attention to this issue. We 
welcome the opportunity in the Navy to self-examine, share information 
on lessons learned, and improve our response to sexual assault.

                               BACKGROUND

    It is important that the Navy SAVI program is well-grounded in 
current scientific knowledge and best practice. Toward this end, I 
believe it is useful to examine what is known about sexual assault in 
college populations. Comparisons to the Navy culture and population are 
perhaps appropriate in that colleges offer a relatively closed 
community of predominantly young people who are experiencing the 
freedom and responsibility of adulthood for the first time and who live 
in close, often co-educational quarters. Data from the National College 
Women Sexual Victimization Study is very informative. This was a 
telephone survey of almost 4,500 women attending 2- and 4-year colleges 
in 1996. The study used a method similar to the National Crime 
Victimization Survey, with the exception of asking more behaviorally 
specific sexual victimization screening questions. The results were 
striking. The rate of attempted or completed rape was 27.7 per 1,000 
college females, a rate about 20 times that of the general population. 
Less than 5 percent of college women reported their completed or 
attempted rapes to law enforcement and less than half of the women who 
were raped by legal standards defined the incident as such. Victims of 
attempted or completed rape knew their offenders 9 out of 10 times. 
Most of the sexual assaults occurred at night, in living quarters. 
Factors that consistently increased the risk of sexual victimization 
for these women were: frequent alcohol intoxication, being single, and 
prior sexual assault victimization. Assuming that the parallel is not 
unreasonable, this data suggests that the military services face 
significant challenges in preventing and responding to sexual assault.

                          PROGRAM AND PROCESS

    To complement Admiral Mullen's testimony, I would like to provide 
more detail on how the Sexual Assault Victims Intervention (SAVI) 
program is structured and functions and then speak to program 
effectiveness. Admiral Mullen's written testimony already addresses 
current initiatives and program improvements. SAVI was established to 
provide a Navy-wide, comprehensive, standardized, victim-sensitive 
system to prevent and respond to sexual assault. The program epitomizes 
the coordinated community response in that it provides a series of 
overlapping protocols between key responders that ultimately increases 
the effectiveness of all responders. The program operates at both the 
installation and command level, which is essential for success given 
the Navy's operational tempo (OPTEMPO) and mission.
    At the installation level, the SAVI Coordination Committee 
includes, but is not limited to, representatives from medical, legal, 
security, Naval Criminal Investigative Services (NCIS), Chaplains, and 
the Fleet and Family Support Center (FFSC). The Coordination Committee 
is responsible for ensuring that sexual assault issues are addressed 
and all first responders are working together effectively as a team. 
The SAVI program coordinator is designated by the installation 
commander and usually works within the FFSC. SAVI coordinators provide 
local program oversight and management, to include administration, 
management and supervision of military advocates, providing and 
facilitating SAVI/sexual awareness required training to all components, 
victim advocate training, and insuring availability of victim 
intervention services. All installations are required to provide 24/7 
advocacy services for sexual assault victims, either through the use of 
trained military volunteers, community sexual assault resources or a 
combination thereof. Advocates respond immediately to calls from the 
victim, security, medical, chief duty officer, NCIS, or other official 
sources. SAVI advocates provide emotional support, assistance, and 
information, help secure basic needs, and accompany victims to all 
interviews, examinations, or legal proceedings if requested. SAVI 
advocates provide assistance to both active duty and adult family 
member victims. When requested, professional intervention services are 
available for victims through the FFSC, military mental health or 
referral to available civilian resources.
    With respect to individual commands, the SAVI point of contact 
(POC) is designated by the commander to serve as the command's SAVI 
expert, implement and coordinate all required command training, and 
maintain current information regarding base or community victim 
services and resources for command members. In addition to SAVI POCs, 
SAVI command representatives are mature, responsible individuals who 
are designated by the commander after a sexual assault has been 
reported. They serve as a liaison between the victim or their support 
system and the command. Command Representatives provide a direct line 
of communication for the victim to the command executive level, 
enabling victims to voice safety concerns, express preferences and 
receive information on the command's response to the assault. The role 
of the command representative is generally more supportive and their 
responsibilities extend well beyond those of the Command Victim 
Assistance Coordinator, whose role is more administrative. All commands 
are also required to have a Data Collection Coordinator who is 
responsible for collecting and tracking initial, follow-on and final 
data regarding all alleged sexual assaults involving either active 
duty, adult family members or occurring on Navy property. This 
information is forwarded in unit situation reports and is collected 
from key responders to avoid revictimization. SAVI required data is 
forwarded to headquarters for the purpose of analyzing trends to assess 
program operation and guide program development and, as such, does not 
contain any identifying information with respect to either the victim 
or offender. Maximizing victim privacy is paramount within the SAVI 
program. Deploying/afloat commands are encouraged to have trained 
military advocates aboard to respond to sexual assaults that occur away 
from Navy installation resources. Over 300 deploying commands had 
trained advocates aboard this year. Anecdotally, our active duty 
advocates often become the most vocal supporters of SAVI. It is 
important to note that the SAVI instruction specifically provides 
protocols for afloat commands, both when cases are reported in port and 
when deployed, as well as commander's guidelines for responding to 
sexual assault.
    Awareness and prevention education is a key component within the 
SAVI program. Training on sexual assault awareness and SAVI is provided 
at every initial accession point, throughout the leadership continuum 
schools, and during Navy-wide, annual mandatory general military 
training. We have specifically taken onboard the college data described 
above in developing the mandatory GMT materials for fiscal year 2005. I 
have personally briefed SAVI, on a recurring basis, to prospective 
commanding and executive officers, Command Master Chiefs and other 
senior enlisted. I have generally found them to be receptive and 
committed to effective leadership in this difficult area. The FFSC 2002 
Leadership Survey clearly indicated that command leadership, at all 
levels, recognizes the need for assistance outside the command to 
successfully respond to sexual assault. Increasing general awareness 
and gaining command leadership support of SAVI requires ongoing effort, 
due largely to leadership rotation and accession, but is critical to 
program success. SAVI functions most effectively in commands where 
strong zero tolerance messages are communicated from the top down, 
there is leadership by example, and there are clear expectations with 
regard to compliance with Navy standards of conduct and SAVI 
requirements.
    Although I understand the importance of an effective criminal 
justice response to sexual assault, both to enhance empowerment and 
resolution for victims and to insure community safety, I am as 
concerned with ensuring that there is readily available victim support, 
advocacy and, when necessary, professional intervention. Sensitivity to 
the sexual assault victim is a strong theme within SAVI and is evident 
in Navy policies that:

        <bullet> guard victim privacy by limiting ``need to know'' 
        personnel and providing mechanisms for data collection and 
        tracking that do not rely on victim identity;
        <bullet> reassure victims that reporting was the right thing to 
        do while affording them choice with regard to participating in 
        military law enforcement investigation or reporting sexual 
        assaults that fall under civilian jurisdiction;
        <bullet> provide multiple avenues to receive information about 
        their rights under applicable law and the Victim and Witness 
        Assistance Program; and
        <bullet> consider, if at all feasible, the victim's preference 
        regarding reassignment if the alleged offender is from the same 
        command.

                         PROGRAM EFFECTIVENESS

    SAVI is a vital and active program within FFSCs. In fiscal year 
2002, FFSCs reported over 107,000 SAVI-related contacts including 
awareness and prevention education activities, command consultation, 
victim assistance and advocacy, information and referral, GMT, and 
command leadership training.
    In a 2002 survey of SAVI patrons who received prevention training/
GMT or advocacy services, there were no negative program ratings with 
respect to user satisfaction. Outcomes for those who received advocacy 
services were particularly striking. Over 95 percent of respondents 
indicated that SAVI showed concern for sailors and their families, 
while the program contributed to their overall quality of life and 
their readiness for 88 percent and 78 percent, respectively. All 
respondents who received advocacy services indicated that SAVI helped 
them cope at least somewhat with the sexual assault and 88 percent 
indicated that it helped quite a lot or more.
    Finally, I would like to mention that SAVI has been recognized for 
its efforts by several agencies outside of DOD. In 1996, the National 
Organization of Victim Assistance presented SAVI with a Distinguished 
Service to Victims of Crime Award. SAVI received a Certificate of 
Appreciation from the Department of Justice, Office for Victims of 
Crime in 1999, in recognition of the program's dedication to victims' 
rights.

                         SUMMARY AND CONCLUSION

    While SAVI lays a solid foundation, we recognize that there is 
always room for improvement in our efforts to prevent sexual assault 
and to offer the best possible support, safety and justice for victims, 
their family members and the Navy community. Thank you for holding 
these hearings and for your continued support as we pursue this 
important challenge. I look forward to answering your questions.

    Senator Collins [presiding]. Thank you.
    Ms. Tucker.

 STATEMENT OF DEBORAH D. TUCKER, EXECUTIVE DIRECTOR, NATIONAL 
             CENTER ON DOMESTIC AND SEXUAL VIOLENCE

    Ms. Tucker. Good afternoon, I believe. Thank you for having 
me. All of us are pleased that you have taken the time to look 
at these important issues.
    I'm speaking to you from the position of the work that we 
did on the Defense Task Force on Domestic Violence, and helping 
to look at that work and see how it can assist you and the DOD 
in relating our recommendations to sexual violence. As Dr. Rau 
and Ms. Hansen both already indicated, there are aspects of 
domestic and sexual violence, its prevention, and its 
intervention, that overlap.
    In my testimony, I had so many things I wanted to say to 
you that I essentially did a Letterman list and thought of 10 
things that I had to be sure to bring to your attention.
    Number one is that attitudes about women underlie violence 
against women. That is the core of what we have to attack if 
we're ever going to eliminate the behavior. The culture shift 
that is so critical within the DOD was the number-one 
recommendation coming out of the Defense Task Force, of the 
almost 200 that we made. Creating a shift in the attitudes 
towards women and violence against women will bring about its 
eradication.
    In addition, I call your attention to the fact that we 
specifically talk about sexual violence and sex trafficking of 
women, and the military's ability to use the work that we did 
to address those important concerns. We provide a core of 
principles of intervention, which are things that the military 
needs to ask itself as it implements our recommendations or 
redesigns programs. Those core principles have validity for 
intervention in sexual violence, as well.
    There was a lot of discussion this morning about improving 
care of victims. The most significant factor for a victim of 
sexual assault, in her recovery, is being believed and treated 
with respect at the time that she steps forward. We do not need 
an in-depth kind of long-term counseling, if, in those first 
critical moments, we're treated with empathy.
    I've had many conversations over the last month with board 
and staff members and other leaders in Wichita Falls. I live in 
Austin. It's only 4 hours away. So we share some common 
understandings of how things work. A lot of advice was 
solicited from me about how to deal with the inquiry at 
Sheppard Air Force Base in a professional manner, but, at the 
same time, about how to get the military to understand some 
critical issues. From listening to this interim report this 
morning, I came away realizing that their concerns were valid, 
their fear that if they say too much, they'll be seen as 
hypercritical, and if they don't say enough, the information 
won't reach the people it needs to reach.
    Their three concerns that they asked me to share with you, 
from First Step and from other leaders in the Wichita Falls 
area, is that victim empathy and understanding is probably the 
biggest barrier to effective response. Even persons who have 
received some level of training on responding to sexual 
violence cases tend to ask the kinds of questions of victims 
that we've been able to eradicate in most civilian communities 
over the last 20 and 30 years. For example, were you drinking? 
What were you wearing? Those were the kinds of old-school 
strategies being used for trying to understand what it was 
about the victim's behavior or environment that she put herself 
in that led to her being assaulted.
    One of the points I want to be sure and make, on their 
behalf and also on behalf of the task force, is that we have 
learned that focusing on the victim is not, in fact, an 
explanation for the violence, and that we have to look at our 
perpetrators and our offenders to understand where the violence 
is coming from and what underlying attitudes and beliefs 
they're bringing to the situation.
    I think the second thing that they wanted me to share was 
confidentiality, and this is a very difficult thing for the 
military command to understand. Because they have had a system 
that they've built where they believe that telling command 
everything means that they know about everything, it's hard for 
them to understand that the opposite is true. The more that 
they do not provide a confidential place for victims to come 
forward and get information and support, and for advocates to 
assist them with the process, the more victims go underground. 
Victims are more comfortable, in many instances, talking to 
local domestic violence and sexual assault service agencies 
than they are the Government or the DOD employees, because they 
know that there is no confidentiality. Our experience in the 
civilian world has been that when you offer a confidential 
service, and people are received well, given good information 
and guidance about what is going to happen should they file a 
more formal report, and you are willing to assist them in that 
process, they actually are more willing to come forward and 
cooperate longer, including with efforts to prosecute the 
offender. I urge you to think very carefully about the 
recommendations we made about confidentiality.
    The third thing that they were concerned about is training 
of command, and that command individuals may not realize the 
power that they wield as to whether or not something actually 
happens in these cases. I know that Senator Pryor asked about 
discretion, and that was something that we wrestled with in our 
work on the Defense Task Force on Domestic Violence. From a 
civilian perspective, we saw that there was a tremendous amount 
of discretion. Cases that seemed to have very similar fact 
circumstances to us, that looked like you could prosecute that 
case in River City didn't necessarily go forward in the same 
way. The deciding element would be the commander's position as 
to how to handle that matter. We even broached the subject of 
doing away with the UCMJ as it relates to violence against 
women. Much has been done in some installations where drug 
abuse and alcohol offenses are all handled by local civilian 
authorities in order to remove that command role and 
responsibility.
    What the 12 military members of the task force assured us 
is that they were capable, willing, and would take on these 
incredible issues, and that they understood that ending 
violence against women, and even ending sexism, was just as 
fundamental to the success of the military services as ending 
racism, and that they had to face this head-on. They agreed 
that, in the next few years, we would be able to see, as they 
implemented new programs and new strategies, that offenders 
were, in fact, held accountable, and that a culture and 
attitude shift occurred. It hasn't happened yet, and it takes 
your continued interest and encouragement, I think, for these 
things to remain in the forefront.
    Obviously, our military is called upon in many ways. As 
George Casey indicated, we're in 47 countries right now. There 
are tremendous demands. Even so, I firmly believe that these 
are our sons and daughters. We do not want to find out that our 
sons have raped. We don't want to know that our daughters have 
been violated. We must put these things at a priority, as well, 
and remain vigilant.
    I'm surprised and pleased by Ms. Hansen's recommendation. I 
think it's worthy of consideration, and an Office of Victim 
Advocacy would dovetail very nicely into the recommendations 
that we made for improving victim advocacy. At the same time, 
if you look at what we recommended, we said, right after victim 
advocacy, you have to change your whole way of intervening and 
holding the offender accountable.
    I would also urge you to help the DOD access civilian 
resources in dealing with sexual violence. Part of the reason 
that I think there is great validity to what we recommended in 
our Domestic Violence Task Force is that both military and 
civilian had to massage, argue, arm-wrestle, and otherwise come 
to a consensus, which is not a typical style of decisionmaking 
within the military, but they, in fact, agreed that we would 
operate by consensus. None of the recommendations were made 
without universal support that they were valid. There are a lot 
of civilian resources, some that have gone to work in the 
military, as Dr. Rau has, and some who are on the outside who 
are more than willing to be of assistance.
    I am here to say to you, there has been 3 years of hard 
work and there are a lot of recommendations that we made that 
have immediate relevancy to the issues of sexual violence 
affecting our service members.
    Thank you.
    [The prepared statement of Ms. Tucker follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Chambliss. [presiding]. Thank you, Ms. Tucker.
    Dr. Mather.

 STATEMENT OF SUSAN H. MATHER, CHIEF OFFICER, OFFICE OF PUBLIC 
       HEALTH AND ENVIRONMENTAL HAZARDS, VETERANS HEALTH 
                         ADMINISTRATION

    Dr. Mather. Thank you.
    Mr. Chairman and members of the subcommittee, I'm pleased 
to be here today to report the programs of the VHA addressing 
military sexual trauma.
    I ask that my full statement be included in the record.
    The VHA has been aware of the issue for women since at 
least 1991 through research done at the VA Center for Post 
Traumatic Stress Disorder (PTSD) and through congressional 
testimony of women veterans. The VA staff at the Vet Centers 
and in-treatment programs for PTSD were also receiving reports 
from female patients of rape and other sexual abuse while 
serving in the military.
    We operate on the principle, as is noted by the National 
Victims Center, that approximately only 16 percent of rape 
cases are ever reported, and that rape is generally agreed to 
be an under-reported crime in both the military and civilian 
life.
    In 1992, Congress authorized the VA to provide counseling 
services to women veterans to overcome psychological trauma, 
which, in the judgement of mental health professionals employed 
by VA, resulted from physical assault or sexual harassment that 
occurred while the veteran was serving on active duty.
    In 1994, Congress amended that treatment authority to 
include men as well as women, to include appropriate care and 
services for an injury, illness, or other psychological 
condition that resulted from the sexual trauma, and to require 
the coordination of care and services furnished to the veteran 
under this authority.
    These provisions made screening of patients for sexual 
trauma extremely important because survivors of sexual trauma 
often do not seek mental health services, but present to 
primary-care or other providers with a variety of physical, 
emotional, and behavioral symptoms, such as gynecological 
complaints, headaches, eating disorder, anxiety, depression, or 
poor self-care.
    The VA has developed an extensive program to address 
military sexual trauma. The key components are awareness, 
education, outreach, sensitivity training, screening, and 
treatment. An educational program to train primary-care and 
other practitioners about the prevalence, screening referral, 
and treatment for military sexual trauma is ongoing. Video 
teleconferences have been aired. Written material is available. 
Most recently, a Veterans Health Initiative Module is available 
as a Web-based training program and in-print media.
    The VA has published brochures to alert veterans and staff 
to the programs available for counseling and treatment, and 
information is available on a variety of Web sites. Women can 
access services through the Women Veterans Program manager. We 
feel this ability to contact a woman within the healthcare 
system is an extremely important issue. These program managers 
seek to make VA facilities, which are very masculine, 
comfortable, and welcoming to this special cohort of veterans.
    Also, veterans who receive treatment under VA's Sexual 
Trauma Treatment Authority receive free outpatient pharmacy 
services. In addition, neither enrollment nor payment of 
copayments is required for the care for furnished under this 
authority.
    In 1997, the VA sent letters to approximately 400,000 women 
veterans to advise them about the VA's sexual trauma services 
and to give them the VA's toll-free number so that they could 
contact the Veterans Benefits Woman Veterans Coordinator to 
access care. There again, their contact is with a female. The 
Veterans Benefits Administration (VBA) also has a program to 
assist those who experience military sexual trauma to apply for 
compensation.
    In 1998, the General Accounting Office (GAO) testified 
about the VA's efforts to respond to the challenge of providing 
sexual trauma counseling. The GAO testified that it found that 
the total number of women receiving sexual trauma counseling at 
VA Medical Centers and Vet Centers increased by 230 percent 
between 1993 and 1997, and that patient satisfaction with that 
counseling was high. The VHA fully implemented the reporting 
system to monitor screening for military sexual trauma (MST) in 
March 2002. Between March and October 2002, 1,761,591 veterans 
were screened for MST; 90,000 of these veterans were women. One 
and one-third percent of the men, and 21.6 percent of the women 
reported that they had experienced military sexual trauma. 
While 1 in 5 women, and only 1 in 100 men screened reported 
such experience, almost half the numbers of those reporting 
military sexual trauma are men because of the heavy 
preponderance of males in the veteran population. These 
statistics show that military sexual trauma is not just a 
woman's problem in our population.
    More detailed tracking of military sexual trauma care and 
treatment has been a challenging project, because veterans do 
not always report the sexual trauma early in their mental 
health encounters, and the treatment is often coded as 
treatment for the resulting symptoms or disability, such as 
depression or PTSD.
    Focused studies, such as the evaluation of the four women's 
veteran stress disorder treatment teams conducted in 2002, 
however, have indicated that women veterans treated on the team 
show a significant improvement, specifically for PTSD, 
violence, medical conditions, overall adjustment, quality of 
life, and perceived impact of their illnesses on social 
functioning.
    Caring for the men and women who have experienced sexual 
trauma while serving their country in the military is a serious 
mission for the VHA. We are committed to screening all patients 
and getting the message out to those who are suffering the 
consequences, that they are not alone and, more importantly, 
that help and treatment are available.
    Thank you for inviting me and allowing me to share what the 
VA is doing to treat patients who have experienced military 
sexual trauma.
    [The prepared statement of Dr. Mather follows:]

               Prepared Statement by Dr. Susan H. Mather

    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to report on the programs in the Veterans Health 
Administration (VHA) addressing military sexual trauma (MST).
    The VHA has been aware of the issue for women since at least 1991 
when there were reports of sexual abuse among women who served in the 
Gulf War. Jessica Wolfe, who was then working at the Veteran's 
Administration (VA) Center for Post-Traumatic Stress Disorder (PTSD), 
reported that 8 percent of the female Gulf War veterans that she 
surveyed reported attempted or completed sexual assault during their 
deployments. In July 1992, one woman veteran testified at a Senate 
Veterans Affairs Committee (SVAC) hearing about her experiences in the 
Gulf War and other women told of sexual abuse from earlier eras. Even 
prior to these hearings, VA staff at the Vet Centers and in treatment 
programs for PTSD were receiving reports from women patients of rape 
and other sexual abuse while serving in the military. Following these 
hearings, the U.S. Army released statistics indicating that 26 women 
had reported rape or other sexual abuse during service in the Gulf War. 
It is important to note that the National Victim Center has estimated 
that only 16 percent of rape cases are ever reported, and it is 
generally agreed that the crime is underreported in military, as well 
as civilian life.
    In 1992, Congress passed Public Law 102-585, which authorizes VA 
the authority to provide counseling and other services to women 
veterans to ``overcome psychological trauma which, in the judgment of 
mental health professionals employed by the VA resulted from physical 
assault or sexual harassment that occurred while the veteran was 
serving on active duty.'' In 1994, Congress amended that treatment 
authority to include men as well as women, to include appropriate care 
and services for an injury, illness, or other psychological condition 
that resulted from the sexual trauma, and to require the coordination 
of care and services furnished to the veteran under this authority. 
These provisions made screening of patients for sexual trauma extremely 
important because survivors of sexual trauma often do not seek mental 
health services but present to primary care or other providers with a 
variety of physical, emotional and behavioral symptoms such as 
gynecologic complaints, headaches, eating disorders, anxiety, 
depression, or poor self care.
    The VA has developed an extensive program to address MST. The key 
components are awareness, education, outreach, sensitivity training, 
screening, and treatment. An educational program to train primary care 
and other practitioners about the prevalence, screening, referral and 
treatment of MST is ongoing. Video teleconferences have been aired, 
written material is available, and most recently, a Veterans Health 
Initiative module is available as a web-based training program and in 
print media. I am particularly proud of the Quick Reference Guide, a 
brief synopsis in a pocket manual format to help clinicians better 
serve their patients who have experienced MST, which is part of that 
module. The VA has published brochures to alert veterans and staff to 
the programs available for counseling and treatment, and information is 
available on a variety of Web sites including the Women Veterans Health 
site, the National Center for PTSD's site, and a number of VHA network 
web sites. Women can access services through the Women Veterans Program 
Manager at each VA facility. These program managers seek to make VA 
facilities comfortable and welcoming for this special cohort of 
veterans.
    Also, veterans who receive treatment under VA's sexual trauma 
treatment authority receive free outpatient pharmacy services. In 
addition, neither enrollment nor copayments is required for the care 
furnished under this special authority.
    In 1997, in its efforts to reach those who may have experienced MST 
and advise them about VA's services, VA sent letters to approximately 
400,000 women veterans that advised:
    ``. . . We know that a number of women veterans experienced sexual 
trauma while serving on active military duty. While some of them have 
sought counseling and treatment, many have never discussed it with 
anyone. They are very uncomfortable talking about it or even wonder if 
they can, or if it would matter. Unfortunately, this is a common 
reaction to sexual trauma.''
    The letter also explained that counseling and treatment are 
available and provided VA's toll free number so that veterans could 
contact a Veterans Benefits Women Veterans' Coordinator to access care.
    In 1998, the U.S. General Accounting Office (GAO) testified before 
the Subcommittee on Health of the House Committee on Veterans Affairs 
(HVAC) about VA's efforts to respond to the challenge of providing 
sexual trauma counseling. GAO testified that it found that the total 
number of women receiving sexual trauma counseling at VA medical 
centers and Vet Centers increased by 230 percent between 1993 and 1997. 
GAO also found patient satisfaction to be high. They recommended that 
VA continue to evaluate the effectiveness of the program.
    Since 1999, VA initiated an automated system to track when MST 
services are provided, and in the year 2000 MST coordinators were 
appointed to assure proper usage of the software and proper input of 
data. The Veterans Benefits Administration (VBA) also has a program to 
assist those who experienced MST to apply for compensation.
    VHA fully implemented the reporting system to monitor screening for 
MST in March 2002. Between March and October 2002, 1,761,591 veterans 
were screened for MST; 90,075 of these veterans were women. One and 
one-third percent of the men and 21.6 percent of the women reported 
they had experienced MST. The statistics for fiscal year 2003 show 0.93 
percent of men and 19.03 percent of women reported they had experienced 
MST. Fiscal year 2004 data indicate 1.18 percent of male veterans and 
20.69 percent of females report experience with MST. This shows that a 
large percentage of women veterans who seek care in VA bear a heavy 
burden of sexual trauma. Also, while 1 in 5 women and only 1 in 100 men 
screened report that they have experienced MST, almost half of the 
numbers of those reporting MST are men because of the heavy 
preponderance of males in the veteran population. These statistics show 
that MST is not only a women's problem in VA's patient population.
    VA plans to do additional detailed tracking of MST care and 
treatment, but it has not been implemented across the system. This is a 
challenging project because veterans do not always report the sexual 
trauma early in their mental health encounters, and the treatment is 
often coded as treatment for the resulting symptoms or disability such 
as depression or PTSD. Focused studies, such as the evaluation of the 
four Women Veterans Stress Disorders Treatment Teams (WSDTTs) conducted 
in fiscal year 2002, have indicated that women veterans treated in the 
WSDTTs showed significant improvement, specifically for PTSD, violence, 
medical condition, overall adjustment, quality of life and perceived 
impact of their illnesses on social functioning. These results are 
comparable to those of male veterans treated for PTSD in PTSD Clinical 
Teams, and, like their male counterparts, most female veterans improve 
by the fourth month of care.
    Caring for the men and women who have experienced sexual trauma 
while serving their country in the military is a serious mission for 
the VHA. We are committed to screening all patients and getting the 
message out that those who are suffering the consequences are not alone 
and more importantly that help and treatment are available.
    Thank you again for inviting me and allowing me to share what VA is 
doing to treat veterans who have experienced MST.

    Senator Chambliss. Thank you very much, Dr. Mather, as well 
as each of you, ladies. We appreciate your testimony very much.
    Ms. Hansen, you made a recommendation relative to this 
office that I assume would be Service-wide. You all heard our 
inquiry to the previous panel about trying to reach some sort 
of standardized arrangement relative to the treatment of sexual 
assault cases. I'd just be curious in your comments. Dr. Rau, I 
know you already have something established at the Navy that 
you all feel comfortable with, as does everybody else. It looks 
like you may be a little further along than maybe the other 
Services are. However, I'd like for all of you just to comment 
on that, as to what you think about some sort of standardized 
procedure. I do not need to know what it would look like 
necessarily, but is this the type of thing that would make our 
female members of the service feel better.
    Ms. Hansen. Senator, standardized care and treatment and a 
response or intervention approach would provide some safety and 
comfort level for the victims and survivors, and would also 
provide some indication to a potential assailant as to what may 
follow disciplinary-action-wise.
    The reason I suggest that is that we have seen, with the 
cases in Iraq, Kuwait, and Bahrain, in particular, that the 
victim may be from one Service, and the alleged assailant from 
another. The victim is not certain what the response will be of 
the other Service, but may be familiar, say, with what the 
Navy's response would be, for example. We think that would 
provide additional information, as well as that comfort level I 
mentioned, if there was some standardized treatment and care 
throughout the Services.
    Senator Chambliss. Okay.
    Dr. Rau.
    Dr. Rau. I also agree with Ms. Hansen, in that I believe 
that a standardized approach to victim advocacy and support is 
certainly warranted, and there is certainly a huge amount of 
data from the civilian response with regard to the issue.
    In the Navy, we respond to domestic violence advocacy and 
sexual assault advocacy through different channels and 
programs. In the SAVI program, one key component is that we 
have a very active victim advocate program at each installation 
through trained military volunteers, through the use of 
civilian advocacy resources in the community, or through a 
combination of both. Now, this arrangement for the Navy is 
absolutely essential, because we want to be able to provide 
advocacy services regardless of whether the ship is at port at 
their home port, in port at another Navy installation, or even 
out in the middle of the sea.
    Senator Chambliss. That was really my next question. I 
think this is so critically important.
    Dr. Rau. Go ahead, sir.
    Senator Chambliss. You heard my question to General Casey 
about the one case that I'm familiar with where there was 
constant movement between the victim, the alleged assailant, 
the prosecutor, the counselor, and the command.
    Would you talk a little bit about that while you're talking 
about this right now, relative to in-port and out-of-port?
    Dr. Rau. Certainly. In the Navy instruction and 
requirements, when a ship is in any Navy port, they, of course, 
will rely heavily on the available services that are available 
through the installation or through partnership agreement out 
in the community, both for providing advocacy as well as 
providing intervention for those victims who want something in 
addition to the advocacy services. However, when a ship doesn't 
have ready access to that, again, we strongly encourage every 
afloat or deploying command to have at least one trained 
military advocate aboard. I'm very pleased to report that, in 
this past fiscal year, we have at least 320 afloat and deployed 
commands that do have trained military advocates aboard.
    Anecdotally, it's also a very important point that our 
trained military advocates become some of our most vocal 
supporters of the program. So at the same time, we also have 
other key responders within each command who have certain key 
roles and responsibilities with regard to the sexual assault 
response, regardless of whether that sexual assault occurs in 
the United States, outside the United States, or at sea. We 
have points-of-contact that are the experts about the SAVI 
program. When there is a sexual assault victim, every command 
has a command representative who's specifically liaisons 
between the victim and the command executive level. They are 
there to ensure that victim safety and protection is the 
primary priority for the command. They also provide information 
to the victim on their rights as a victim, and they also 
provide information to the victim about what command actions 
are being taken. They communicate from the victim to the 
commanding officer. They have a direct line of communication 
with the commanding officer so that the commanding officer 
knows what the victim's preferences, needs, concerns, and fears 
are. Again, we are able to take the program on the road, which 
is a very important thing for us to do within the Navy.
    I hope I began to get at what you were asking Mr. Chairman.
    Senator Chambliss. Ms. Tucker.
    Ms. Tucker. In our work, we recommended a number of 
protocols. We devised protocols for advocates, for command, for 
law enforcement, and for those staff doing intervention and re-
education with offenders. We recommended that other protocols 
might be needed for healthcare, chaplains, and other 
professionals, who have a role in both responding and 
preventing these kinds of incidents.
    I think an Office of Victim Advocacy is a good idea, in the 
sense that it elevates what, for some services, is a new 
player. The victim advocate is not new in the Marine Corps, and 
it's not new in the Navy, but it is a newer role being played 
in the other two. An advocate, by definition, is the person who 
speaks for and represents the interests of another person in a 
situation. That means they have to have the respect and the 
power to speak up to command and to gig law enforcement who's 
not following up on investigation, to get that forensic 
evidence out of a medical institution that's part of all these 
players that might have pieces of the picture so that command 
has available to them everything.
    I see two reasons why it makes sense. One is to elevate 
that position and to clarify that the victim advocate is a 
player at the table, with the same level of responsibility to 
support something getting done. Helping the victim and holding 
the offender accountable is powerful.
    I grew up in an Air Force family, and I sort of thought 
that the Services are much more hierarchical than they truly 
are. As a civilian working with them over the last 3 years, 
I've learned that there is a lot of individual discretion in 
many different situations from base to base, from Service to 
Service, and from command to command.
    When General Casey was at Fort Hood years ago, he did an 
excellent job on domestic violence. I would have to say that 
the man who came after him was very concerned about drunk 
driving, and did an excellent job on that. Essentially, the 
whole domestic violence intervention program at Fort Hood went 
away. That's a very blunt way of saying, standardizing begins 
to ensure that this issue and responding to it remains a 
priority regardless of who happens to be the installation 
commander.
    Senator Chambliss. Dr. Mather, any comments?
    Dr. Mather. Well, I think people who are in distress need 
advocates, so the stronger you can make that advocacy for 
someone who's probably in the ultimate distress, a rape victim 
who survives the better. I think evidenced-based protocols have 
been shown to improve the standard of care in any care 
community, whether you're talking about diabetes, depression, 
or recovery from sexual trauma. I'd also like to put in a plug 
for education. I think advocates can be very important in 
educating the culture in which they work. Advocates can educate 
them to the point that perhaps more therapeutic, where their 
response to rape is, ``What a terrible thing to have had happen 
to you?'' Instead at, ``How in the world did that happen?'' The 
latter puts the onus on the victim, whereas, ``What a terrible 
thing to have happen to you,'' as a first response, says 
something which I think everybody would agree to.
    Senator Chambliss. Ms. Hansen, there's general consensus 
that there have been 80-plus incidences of sexual assault in 
the current conflict in Iraq and in that part of the world. I 
believe you said 68 of these ladies have contacted your 
organization. I think I know what your answer is, but I want to 
get it in the record as to why you think these ladies contacted 
you, as opposed to going through the chain of command within 
their respective branches?
    Ms. Hansen. First, Senator, I'm not certain of the level of 
overlap between the reported cases to our office, as well as 
the reported cases to the military. I can speak to the fact 
that 13 of our 68 reported cases did report to military 
commanders, or auspices within the military.
    I would also like to note that our initial contact may have 
been through a family member, either a mother, a father, a 
sister, or a husband who reported this initially, and we 
subsequently followed up directly with the victim.
    In that regard, I believe that, number one, it's the issue 
of privacy and confidentiality that affords them the desire to 
come forward and to speak with our office so that we can secure 
services as well as support for them. I also think there is a 
significant level, if you will, of the fear of career impact.
    Within our office, our demographics differ from that within 
the Service branches. I noted that Dr. Chu talked about those 
who have recently finished basic training. Demographic 
characteristics of our population, both the intimate partner 
violence survivors as well as the sexual assault survivors, 
predominantly are associated with NCOs, senior NCOs, and 
officers. Predominantly in the cases we have seen in Iraq, 
Kuwait, and Bahrain, they have been female officers reporting 
these incidents to us.
    The other issue that we believe brings them forward to our 
office is their availability and accessibility to resources, 
which may be more extensive than other enlisted personnel. 
Thus, they avail themselves of our services.
    Senator Chambliss. Thank you.
    Senator Nelson.
    Senator Ben Nelson. Ms. Hansen, I noticed that, during the 
other panel, the reference was typically to a female victim.
    Ms. Hansen. Right.
    Senator Ben Nelson. However, Dr. Mather says that a lot of 
the victims are male, and so it may be fallacious to assume 
that most of these are heterosexual victim situations. There 
were very few references to men.
    Ms. Hansen. Yes.
    Senator Ben Nelson. These references were made very 
casually, not recognizing or identifying that many of these who 
came through the Veteran's Office are obviously male victims. 
Do you have any thoughts about why that may be the case?
    Ms. Hansen. We have seen male veterans and male active-duty 
members come forward to our office to request services, 
information, and support, as well. Within the military 
departments, I believe their percentage levels are at about 1 
percent.
    Senator Ben Nelson. Right.
    Ms. Hansen. I do believe that there are active-duty males, 
as well as veterans, who have experienced MST.
    Senator Ben Nelson. Under-reporting?
    Ms. Hansen. Yes. I think that it may be related to culture. 
There are a number of reasons that there may be under-reporting 
or that underground type of issue.
    Senator Ben Nelson. I see.
    I was surprised by your statement that a significant number 
of victims are female officers and NCOs and I think you just 
reconfirmed it. Do you have any idea why it would relate to 
officers, as opposed to enlisted personnel?
    Ms. Hansen. I think in regards to accessing services in our 
office, they may actually have more resources available to them 
or to discover and avail themselves of resources. I think, 
also, it is directly related to that fear of adverse career 
impact, and that our office, because of the statutes, etc., is 
guided by our professional and ethical standards. We provide 
them privacy and confidentiality until such time that they wish 
to come forward.
    Senator Ben Nelson. Have you been able to determine whether 
there's any difference in reporting, varied by Service? Is 
there one Service where there might be more reluctance to make 
a report than in another Service?
    Ms. Hansen. Senator, I can actually break down that 68 
cases for you, Service-wide. I cannot do it State by State 
because of the issues of State of origin, and the State in 
which a duty station would be, et cetera. However, Service-
wide, 26 cases reported related to the Army, 18 to the Marine 
Corps, 16 to the Air Force, and 8 to the Navy.
    Senator Ben Nelson. Is there any reluctance based on which 
Service a victim might be in? In other words, are members of 
one Service more likely to report, while others are more likely 
not to report?
    Ms. Hansen. What we've actually seen in regards to that, as 
I mentioned to Senator Chambliss, is that overlap, where the 
victim may be in one Service and the alleged assailant is in 
another. We see that causing great consternation for the victim 
about coming forward, reporting, seeking services, seeing what 
is and isn't available, and what the response, potentially, of 
the command of the alleged assailant would be.
    Senator Ben Nelson. Okay, thank you.
    Ms. Hansen. You're welcome.
    Senator Ben Nelson. Dr. Mather, in your review of veterans 
reports and providing the care for veteran victims, have you 
any indication why there may be fewer male victims reporting at 
the time of the incident, as opposed to later, following their 
veteran status?
    Dr. Mather. ``Why'' is a difficult question, because it 
probably differs for every individual.
    Senator Ben Nelson. Have you been able to find any common 
trend among them?
    Dr. Mather. We have some indication, because the first men 
we became aware of were people who came to the women veterans 
counselors because they knew about rape, and they were afraid 
to go to anybody else. Since there's a common misperception, 
and misinformation out there, that rape victims ``ask for it,'' 
many women don't report, not because they're afraid for their 
career, but because they're ashamed. They feel shame by this, 
because they feel that somehow they brought this on. Think 
about how that affects women, think of the effect it would have 
on men, if somehow they were a ``come on,'' or that they 
somehow brought on. To me, it's a very noxious thought, but 
it's out there in society, that somehow they ``ask for it.''
    They're afraid that not only will they be labeled a rape 
victim and not able to defend themselves, but also maybe gay. 
There is a great deal of shame involved. This is not something 
that anybody ever asked for. You never ask to be violated or 
attacked or raped. That's part of the educational process that 
needs to go. I think of them as patient survivors. They are 
victims, but that's not a therapeutic concept, for me, 
personally.
    Senator Ben Nelson. Well, thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Chambliss. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Dr. Mather, if I can start with you, I must note that the 
previous panel was all men. [Laughter.]
    This panel is all women.
    Dr. Mather. You noticed.
    Senator Pryor. I don't think that's by coincidence. I 
remember when I was the Attorney General (AG) of my State. I 
wish Senator Cornyn was here, because we served the same time 
as AGs of our respective states, and we did a lot of sexual 
harassment/sexual assault cases that we had to deal with on 
behalf of State government. But one thing that I noticed in 
some cases, but certainly not all--I don't mean this as a 
disparaging comment toward the previous panel at all. Please 
don't misunderstand it. I noticed that men just don't ``get 
it.'' They just don't get it. They just don't understand what 
some women in the workforce have to face. I don't want to go 
into some of the details of our cases that we dealt with, but 
it was clear in a few of those cases that, absolutely, the men 
just didn't get it.
    Also, one thing that you talked about, Dr. Mather, which I 
think is important, is that women like to report these issues 
to women. I think there's a real human reason for that. I don't 
think that's rocket science. I think there are real reasons for 
that. I just wonder, Dr. Mather, in your view, if we have 
enough women involved in the system in strategic places where 
these incidents can be reported in a circumstance that women 
can report to women. Is that one of the problems that we have 
in the military?
    Dr. Mather. Well, I don't know about the military, but 
certainly we've found it to be helpful in the VA to have women 
available who can talk. They aren't always able to refer to 
other women, but they can accompany the veteran. One of the 
things that we teach is that there are certain procedures, such 
as endoscopies or pelvic examinations, that even many years 
after the rape are very threatening. We only have a male 
gynecologist, and we talk about that with the patient, and 
offer to accompany them to the appointment knowing that it's 
possibly going to be re-traumatizing. We've at least had women 
available in that setting.
    Sometimes we have problems referring to women providers. 
Fortunately, there are many women psychologists, and the VA is 
considered a good place for psychologists and social workers to 
work, so we can usually manage that. Many of our chaplains are 
also, increasingly, women.
    It sometimes takes a little creativity on the part of the 
coordinator and the women veterans health program manager. It's 
amazing, talking about leadership and the importance of an 
individual in a VA medical center, the importance of one 
individual to get things done and to make things good for 
patients can't be underestimated.
    Senator Pryor. Am I being oversensitive in my concern?
    Dr. Mather. No, you can't be oversensitive.
    Senator Pryor. But am I being oversenstitive in my concern 
about having women strategically placed there, where they're 
available and accessible?
    Dr. Mather. I'm not sure you can be. We have women veteran 
coordinators or program managers for our women veterans health 
program, because in the VA women are 6 percent of our 
population.
    Senator Pryor. Right.
    Dr. Mather. We have to be sensitive to that. The problem 
with mandating that it be a woman is that you can always find, 
in any medical center, or probably in any societal institution, 
as negative a woman as you want. Therefore, mandating doesn't 
always solve the problem. Cultural change is what solves it.
    Senator Pryor. Dr. Rau, since you're with the Navy, can you 
comment on that?
    Dr. Rau. Certainly. Within the SAVI program, we are 
sensitive to the issue of gender in the response. The 
requirements are to specifically have advocates of both male 
and female gender and to allow victim preference with regard to 
the gender of the advocate. I think it's important to be sure 
that we allow victims preference in as many of these things 
that we do and how we respond. Victims seem to respond in a 
myriad of ways to these events, and allowing them to voice 
their preference is a very important point.
    I will also say that the majority of our program 
coordinators, who function at the installation level, work 
within Fleet and Family Support Centers (FFSCs), and, as you 
see in the panel here, the majority of them are female, as 
well.
    It is important, though, to have male advocates in the 
system, because we do have reports of male victims that do come 
to our attention at headquarters, at about a rate of 8 percent 
annually. Again, it's important to look with regard to both 
genders in the response.
    Senator Pryor. Okay.
    Ms. Tucker, I think in your comments a few moments ago you 
mentioned the UCMJ, and I had asked the previous panel about 
whether they felt like there should be some revisions there or 
at least whether they should look at the UCMJ and see if it's 
time to do an update. I'm sorry, I didn't completely get your 
comments, but do you think we should look at the UCMJ and 
possibly revise it?
    Ms. Tucker. What I was trying to explain is the process 
that we went through in the task force. We argued about this 
into the wee hours of the morn on many occasions during the 
course of events. Military folks would always come down on the 
side of, ``Command discretion is necessary, and we still need 
this level of authority over the people that serve with us.'' 
Civilian folks would almost universally say, ``We don't get it. 
We don't see why these offenses can't be adjudicated within 
local authorities and dealt with as crimes, separate from the 
military system.'' So we came from those very different points 
of view. What we agreed was that we would give them 2 years, to 
try to show us a significant change in their education, 
command, training, and accountability systems. How do we know 
that Commander A in Company B actually responded at all to a 
sexual assault or a domestic violence case in a way that is 
appropriate if the command above that person isn't monitoring 
and looking for that as an element of command performance?
    It was our agreement that, rather than recommending that we 
do away with the UCMJ in relationship to domestic and sexual 
violence or crimes of this nature and have a civilian response, 
they would put every bit of energy they could into 
demonstrating to us that they could handle this duty well and 
that command discretion would not cover command ignorance, and 
that command discretion would be appropriately applied for in 
those instances where you have an offender who's potentially 
salvageable or who has not engaged in the level of violence 
that warrants an immediate court-martial. There are cases that 
have this opportunity for people to change, and if people are 
going to change when they belong to some organization that they 
take pride in and they want to be part of, then I think we 
should try, but not over and over and over.
    Command discretion becomes very disturbing when it's the 
third incident or the fifth incident, and the person is still 
not receiving any kind of response that's serious enough, nor 
is the commander above that person saying, ``What a minute, 
you're not exercising appropriate judgement on these cases.''
    Senator Pryor. That dovetails into my comment a few minutes 
ago. I've experienced some people that just don't get it, they 
just don't see it. You know?
    Ms. Tucker. Exactly.
    Senator Pryor. If you have one person that has a lot of 
discretion, but who just doesn't understand it, and doesn't 
comprehend it, it just may end up perpetuating very bad 
circumstances in the command. That's something that I'm anxious 
just to continue trying to find a balance.
    Mr. Tucker. Right.
    Senator Pryor. Mr. Chairman, I have one last question for 
Dr. Rau. Someone at least mentioned some of the incidents that 
have happened over in and around Iraq. I can't remember if it 
was you, Dr. Rau, who had those statistics. Do we see more 
sexual assaults and incidents related to sexual misconduct in-
theater, so to speak, during a deployment? Do we see more of 
that during a deployment, statistically, or is it kind of the 
same in both a deployed situation and for lack of a better 
term, peace-time situation? What are the numbers on that, do 
you know?
    Dr. Rau. Our sense, from the reports that we receive at 
headquarters in SAVI, is that, in actuality, the majority of 
the sexual assaults occur in-port, off-base. We do know, 
though, at least for those reports that we receive that a 
preponderance of the assaults do constitute blue-on-blue 
assault.
    Senator Pryor. Wait a minute. When you say ``in-port, off-
base,'' tell me what you mean by that.
    Dr. Rau. I mean they occur while the ship is in port.
    Senator Pryor. Over there.
    Dr. Rau. Or even in the United States.
    Senator Pryor. Okay.
    Dr. Rau. When they do occur, they occur off base.
    Senator Pryor. Okay.
    Dr. Rau. Now, our circumstances, in terms of the particular 
theater of operation, OIF, is unique in that while we certainly 
have ships deployed to the Persian Gulf, we don't have a huge 
number of Navy forces on the ground.
    Senator Pryor. Right.
    Dr. Rau. It's not surprising to me that, of those assaults 
that Admiral Mullen referred to earlier, the majority of those 
occurred in Bahrain, where we have the largest concentration, 
on the ground, of Navy forces.
    Senator Pryor. Okay.
    Mr. Chairman, that's all I have. Thank you.
    Senator Chambliss. Thank you very much, ladies. Well, this 
has been very enlightening. We made a conscious decision to 
have you here, as opposed to having victims come and testify, 
because we felt like you certainly would represent the thought 
process that brings victims in to see you. You have given us 
exactly the kind of explanation that I think we need. I would 
say to you, as you heard my comment to the previous panel, that 
we're not leaving this here. This is only the beginning of 
where we expect this to go, and we may not totally resolve this 
during the tenure of any member of this subcommittee, because 
it may be that long an ongoing process.
    Just as we will stay in touch with every branch of the 
Service and the previous individuals, we'd like to stay in 
touch with you and have you feel free to contact us relative to 
any significant changes, good or bad, that you see may be 
taking place. As we move forward with additional hearings, we 
may very well want to bring you back for any updates or get 
your opinions regarding the way that changes that are being 
made are perceived, and if they're the proper things that need 
to be done.
    I thank you for your very professional service that you 
give to both the civilian world, and in this case, 
particularly, the world of the military.
    I did not know she was here, but a family member of one of 
the victims, Barbara Wharton, is here. Ms. Wharton's daughter 
is the example that I used earlier. I just happened to pick 
that case as being one of the situations involving the movement 
of individuals and the problems that it causes.
    Ms. Wharton, I will insert your statement in the record, 
and it will be a part of this record.
    [The prepared statement of Ms. Wharton follows:]

                 Prepared Statement by Barbara Wharton

    Dear Under Secretary, Generals Casey, Nyland, Moseley, Admiral 
Mullen, Doctor, and ladies: Thank you for holding this important and 
timely hearing on sexual assault in the military. I appreciate the fact 
that this subject has come to your attention, particularly since my 
daughter, a sergeant in the U.S. Army, has experienced a brutal sexual 
assault, and to date, there has been no obvious direction in the 
military's response. Her unit, the Stryker Brigade, also known as the 
3rd Brigade, 2nd Infantry Division, was trained at Fort Lewis, 
Washington. There are about 310 women in a brigade of about 5,000 
soldiers.
    I regret that active-duty women are unable to participate directly 
in this hearing, and I would like to take the opportunity to share a 
civilian mother's perspective in this venue.
    My daughter was one of the 37 service women who were sexually 
assaulted and reported to authorities from the end of 2003 to early 
2004 at the Udairi base 7.5 kilometers from the Iraqi border. She was 
knocked unconscious on November 28, 2003. She was on guard duty to 
protect not soldiers, but parts in the military's High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs). She went off guard duty at 2:30 
a.m. and went to a water closet at the other end of the base. She felt 
a strong blow at the head and lost consciousness. When my daughter 
regained consciousness she felt she was blindfolded, had a gag in the 
mouth and a noose around her neck. Her hands were tied fast. A man who 
assaulted her cut her clothes with a knife and she felt a steel knife 
touch her body and bleeding wounds. She remembered that his face was 
covered with a mask.
    When she put up resistance she heard an American voice telling her 
to shut up, then received another blow in the face and lost 
consciousness completely. When she came to, she was alone on the 
ground. She was found by another soldier, who covered her with his 
clothing, and helped to take off the restraints. In several minutes, 
the woman met the commanders. She was sent to a hospital where doctors 
confirmed she had been raped. However, at that time my daughter was 
rendered no medical aid, despite head injury, leg injuries, and cuts.
    ``This brigade's overall focus is getting ready for Iraq,'' Colonel 
Piek told The Tacoma News Tribune November 30, 2003. ``That does not 
diminish the seriousness of the alleged crime. . . . But it's not the 
kind of thing we need to be dealing with just a short time before we go 
north.'' As a result of this story, Susan Avila-Smith, Director of a 
Seattle-based veteran's advocacy group, Women Organizing Women, an 
organization which has experience with military sexual trauma (MST), e-
mailed the reporter who was embedded with the Stryker Brigade. She has 
been our only source of support and advice in getting more accurate 
information and help for my daughter. This woman has warned me, ``Do 
not focus on justice here, it is a waste of time; focus instead on what 
you can do for your daughter.''
    My daughter's husband tried to send a message to her through Fort 
Lewis' Army Family Advocacy Program contact with the Red Cross on post. 
The Red Cross refused to send any message, and would not elaborate on 
the reasons why they could refuse.
    My daughter was eventually moved to a neighboring base where she 
stayed with some other service women. When the unit was activated to 
deploy to Iraq, this woman left too. Her unit was gone, and along with 
them, the person who raped her. Her command made no attempt to find 
this person, saying that the Criminal Investigation Division (CID) was 
investigating. (Since that time the CID investigator has transitioned 
in his job to another duty station in Hawaii and there has been no one 
appointed to follow up.) Ginny Clawson, a Victim Advocate at Fort 
Lewis, admitted on February 20, 2004, that she does not even know who 
has been assigned to handle my daughter's case at the Judge Advocate 
General's (JAG) office. According to Clawson, there is no protocol for 
handling these cases; they are left completely up to the commander, and 
each is handled on an individual basis as the command sees fit. After 
speaking with several people on this subject however, I have heard of 
no cases to date that have been followed through on. No one was held 
accountable, either the rapist or the command, for allowing the case to 
disintegrate before trial. According to ``Betrayal in the Ranks,'' a 
series in The Denver Post, there are not just a few of these; there are 
thousands past and present.
    My daughter's requests for an Army chaplain or a psychologist were 
rejected. Because the time line of statements from both her and the 
soldier who found her were somewhat different, my daughter was told to 
undergo a lie detector test, and refused. The soldier who found her was 
not in question, but due to the fact my daughter was knocked 
unconscious, her sense of time was apparently not accurate. This is a 
specific incident that shows the command's lack of understanding of the 
problems surrounding sexual trauma. As a result of being abandoned, not 
being able to talk with someone who could help her, and of encountering 
a lack of compassion on the military's side, she attempted to commit 
suicide with an overdose. She then had to walk alone to the clinic, 
which was quite far away, and tell them what had happened. None of the 
hospital doctors who saved the woman's life had been informed by the 
authorities regarding a rape in camp. I contacted my Senator and family 
attorneys, since I was not able to find out what was going on, and what 
was being done to protect my daughter. It was only thanks to their 
assistance, and their standing up to the threats of hurting my daughter 
from the Pentagon that she got back to the U.S. Even though my daughter 
suffered from severe headaches and had eye and back problems, she was 
told to take up her duties immediately after discharge from the 
hospital.
    My daughter thinks that commanders want to treat her suffering as a 
minor incident. ``They treated me as if I wanted to deceive them. I 
felt the commanders abandoned me, and I had the distinct feeling that 
they viewed this as a way for me not to be deployed with my unit. They 
act as if I had planned this.''
    After my daughter was transferred to medical care at the request of 
Senator Arlen Specter, the Pentagon provided two high ranking male 
``escorts'' who said things like, ``Well, I would go get raped too, if 
I could get a private room, soft bed, and TV.'' She never watched TV. 
She was still traumatized and waiting for medical care.
    Did my daughter get proper medical treatment? Was she checked for 
sexually transmitted diseases (STDs), pregnancy, damage to her 
reproductive organs? I simply don't know. How can I assume that they 
are giving her proper treatment when they ignored a serious head trauma 
injury? Where is her advocate now? Where is the CID? How can I be sure 
that they are not continuing to harm her?
    ``Just because I came back with all four limbs intact, they're 
treating me like I'm faking,'' her daughter said. ``I feel like my 
chain of command betrayed me. I gave 4 years to that unit, and I feel 
like it kicked me in the teeth when I was down.''
    A Fort Lewis spokesman, Jeff Young, said her case is being 
investigated and that she has received proper health care. ``Those who 
deploy are served well. She received medical treatment both in overseas 
and here.'' It's clear that what Jeff Young and I consider as proper 
health care are two vastly different concepts. Why was it that a 
soldier in the same unit who had a shrapnel wound was medivaced out the 
same day? My daughter obviously had more complicated medical issues.
    Agents from Camp Arifjan, another Army post near Kuwait City, were 
handling the investigation. It wasn't immediately clear if the 
investigators had detained anyone in the case or had any suspects. It 
is also not clear where or who is following up on this, or if the case 
follows the unit, or the soldier.
    Major Shawn Phelps in Ft. Lewis, Washington, said he could not 
comment on how my daughter's case was handled in Kuwait, but said that, 
since her return to Fort Lewis, she has received counseling and been 
given a Military Victim Advocate. I have spoken to that advocate, and 
while she is a nice person she has no clue about directing my daughter 
to services she needs. I have spoken with my daughter, and when she had 
returned to work and she had not yet received counseling.
    I did find it odd that they put her right back to work, knowingly 
endangering the lives of the soldiers in her unit in Iraq, before 
addressing any of her serious medical and psychological issues. Others 
in her unit have ostracized her in an effort to maintain their military 
careers. I have found that providing support to a rape victim in the 
military is the next worse thing to enduring and reporting rape.
    Susan Avila-Smith, who has helped nearly 300 women to get benefits 
and treatment, reports women veterans of all other eras of service, 
both enlisted and officers alike, who suffered from sexual assaults and 
harassments during military operations and at home feel the same. It is 
my understanding that the majority of sexual assaults are registered in 
Kuwait, where U.S. troops are deployed before departure to Iraq. 
Knowing this, the Army commanders still provide no medical and 
psychological aid to these women. What is more, service women have to 
continue their military duties with the knowledge that the perpetrator 
is still there, and nothing is being done to him. Women generally know 
if they report a sexual assault their military career is over. Life is 
made unbearable while the noncommissioned officers (NCOs) and officers 
in their command do what they can to sweep their grievances under the 
rug. Women essentially are punished for reporting. So, they are 
betrayed not only by their comrades to whom they are told to trust 
their lives, but also by the commanders who are leading them ``with 
integrity'' on behalf of the U.S. military. Most civilians think that 
the problem of sexual assault to women is from ``the enemy.'' We have 
seen the enemy and it is us. Why do the investigators not check all the 
current rape kits to see if they have a serial rapist? Why can't they 
do a DNA match right then, or if he is known, remove the individual 
from the unit? What are they thinking? Consider the women who know 
their attacker, and have to salute him, or confront him everyday at 
work, knowing that he will ``get away'' with his criminal behavior. It 
has come to my attention that once a woman has been assaulted, and it 
has become common knowledge among the troops, she will be continually 
assaulted by others.
    I believe other elements of change should include the following:

        <bullet> Agencies outside the military are needed to police 
        efforts by the military because they cannot be trusted.
        <bullet> Commanders and posts need a written protocol to follow 
        that includes a list of all agencies involved, and what their 
        responsibilities are.
        <bullet> Likewise, medical personnel need a written protocol at 
        all levels.
        <bullet> Exercise a no tolerance and punishment policy with 
        regard to any sexual abuse issues. Currently there is ``zero 
        tolerance'' with no consequences.
        <bullet> Provide a neutral place to report incidents of 
        harassment and assault, out of the control of the military; 
        this could be any local or State agency where medical/military 
        records and rape kits cannot be ``lost.''
        <bullet> Screen males prior to military service: use legal and 
        psychological profiles to identify sex offenders. If this 
        information is posted in local neighborhoods, shouldn't the 
        military at least check, if not be required to post?
        <bullet> Educate the command, medical staff, and Veterans 
        Service Officers that rape is a violent crime that contributes 
        to a real disability, and there are treatments and compensation 
        available. These services are never to be a forum to lecture 
        women on ``sexual conduct.''
        <bullet> Act differently from the Catholic Church in matters of 
        abuse . . . namely, don't ship the offender off to some new 
        location and act as if it never happened.
        <bullet> Provide safety for women generally; recognize that 
        sexual assault happens.
        <bullet> Provide proper support, treatment, and whatever else 
        is needed for the survivor of sexual abuse.
        <bullet> The military culture needs to change, and if men and 
        women are going to co-exit in such settings, officers and NCOs 
        must never tolerate even subtle forms of sexism.
        <bullet> All officers in command positions should take 
        responsibility for any failings among the troops in their 
        units.
        <bullet> Report crimes to local agencies. Congress mandated 
        this procedure in 1988, and to date the military has not set 
        this up. Murderers and rapists are allowed to get out of the 
        military without this information on their civilian records, 
        Federal Bureau of Investigations (FBI), etc.
        <bullet> It is also vital that all personnel know what steps to 
        take if they are assaulted, for example whom to report to, what 
        to do for their own personal protection, and what social 
        support systems are available to them for counsel.
        <bullet> The sexual assault in the U.S. military identified 
        links between gender violence and the need for humanitarian 
        assistance when violence is perpetuated towards women by those 
        in power and rank. Should we go to the United Nations for 
        recognition of this problem?
        <bullet> It was determined in the late 1990s by the Yugoslav 
        War Crimes Tribunal that rape is a war crime. Rape and sexual 
        assault in the military should be taken just as seriously.
        <bullet> Powers that perpetrate discrimination against women 
        and violate their human rights through rape and sexual assault 
        need to surface and not remain hidden and secret. Women's 
        vulnerability--fear of losing their job, rank, and position--is 
        used by the power and rank to avoid accountability and to 
        silence the female.
        <bullet> The military should not consider cutting back on 
        women's roles, but rather to hold ranking officers and the 
        system accountable for the safety of all. Understand that women 
        fill positions, rather than taking them away from male 
        counterparts.
        <bullet> Screen women with sexual abuse histories prior to 
        service. Often times these women make the perfect target for 
        offenders, who may be able to read their ``sexual abuse 
        target'' status.

    While discussing this issue with many people, I have been appalled 
to hear that some men say that ``rape is better than no sex at all.'' 
With that mentality, we have a very long road ahead of us.
    In addition, the civilian world and media does not seem to 
understand that my daughter is considered military property. I was told 
that she can be severely punished for a bad sunburn--``damaging 
military property,'' so I do not think it unreasonable to say that 
others should be accountable for more serious damage. The media have 
hunted her down since she is apparently the only active duty rape 
survivor from Iraq on U.S. soil. She is being retraumatized by this 
media frenzy, and most are not able to understand they are threatening 
her safety.
    In short, the military fails to pursue perpetrators; fails to 
prosecute perpetrators, and makes the injury worse by persecuting the 
victim.
    We have started to see recognition of this problem, but much more 
work needs to be done to actually set changes in motion.
    I look forward to sharing my proposals and working with others 
toward a viable solution. When government and military come together 
with proper input from women who have experienced this problem to guide 
them, we will truly be able to offer our service members a trustworthy, 
safe, and productive environment.
    From a mother's standpoint, I have seen the changes in my daughter 
and I am deeply saddened that this will affect her life forever.

    Senator Chambliss. With that, our hearing will conclude.
    Again, thank you very much.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Elizabeth Dole

                           DOMESTIC VIOLENCE

    1. Senator Dole. General Casey and General Nyland, immediately 
following operations in Afghanistan, the Army was faced with an 
unfortunately high number of domestic violence cases at Fort Bragg. 
These recent reports of sexual violence against military women from 
within their own ranks raise my concerns about further fallout once 
some of these soldiers return home. The focused ability to use violence 
is a necessary part of a soldier's warfighter training. What is your 
Service doing to ensure these young men are indeed ``trained'' to 
resume a day-to-day life mentally separated from the war zone and 
``decompressed'' enough to handle stresses free from a conflict 
mentality?
    General Casey. The Army has taken great strides to ensure the 
transition from battlefield to home is as conflict-free as possible. 
After the tragedies at Fort Bragg, North Carolina, in 2002, the Army 
put a greater focus on soldiers redeploying from war and peacekeeping 
missions who face reunion challenges as they transition from a high-
stress combat environment to garrison duties and re-assumption of their 
positions as heads of households, fathers, mothers, and spouses.
    The Assistant Secretary of the Army (Manpower and Reserve Affairs) 
directed a review and evaluation of Army domestic violence prevention 
and intervention programs/policies to ensure Army-wide actions are 
consistent with Department of Defense (DOD) efforts and the DOD 
Domestic Violence Task Force.
    In conjunction with the studies conducted by the Domestic Violence 
Task Force, and in recognition of the significant hardships and stress 
brought on by deployments, especially in combat environments, the Army 
implemented the Deployment Cycle Support (DCS) initiative in May 2003. 
DCS is designed to ease the transition of soldiers and Army civilians 
from a combat environment back to a garrison/home environment. DCS 
brings together the programs that have existed separately: medical 
programs, Family Service Center support, chaplain programs, well-being 
initiatives and unit programs to name a few. DCS operations begin in 
the theater of operations, continue at home and/or demobilization 
station, and continue through the sustainment phase at home station.
    The Army's goal with DCS is to standardize the process of providing 
our forces with the proper psychological screening, debriefing, and 
most importantly, identify those ``at risk'' personnel that may require 
immediate attention. Soldiers, Department of the Army civilians, and 
family members are provided information that will educate them on the 
need for individual reconstitution. This information includes 
preparations for returning home, family reunion, health care, and 
agencies that are available to provide assistance in their individual 
reconstitution.
    In ongoing efforts to ensure DCS is implemented to all deploying 
and redeploying soldiers, the Army has a tracking system that allows 
commanders and Senior Army Leadership to track unit and individual 
participation in all phases of DCS.
    General Nyland. In recognition of the importance of the transition 
home for both marines and their families, the Marine Corps developed a 
standardized return and reunion program developed in coordination with 
Marine Corps Community Services (MCCS) personnel, health professionals, 
chaplains, and building on existing programs and agencies. The 
Commandant of the Marine Corps instructed all commanders on the 
elements of the program and stressed the importance of its successful 
implementation as marines returned from Operation Enduring Freedom 
(OEF) and Operation Iraqi Freedom 1 (OIF 1), and its continued use in 
the future. The elements of the program include:

        <bullet> Warrior Transition presentations--Focusing on mental 
        and emotional reorientation from the battlefield to the 
        domestic setting to be delivered to all returning marines prior 
        to returning stateside. Due to the speed of some of the returns 
        from theater, some units received the presentations in theater, 
        some on ships while in transit from the theater, and some upon 
        their return to the United States. The brief covered three 
        reunion components: ``Where I've Been,'' ``Where I'm About to 
        Be (Home),'' and ``Where I'd Like to Be,'' to walk recipients 
        through the process of reintegration with family and society. 
        Other available chaplains and Medical Corps personnel were on 
        hand to observe the command briefs, to help identify service 
        members exhibiting signs of combat stress and offer supportive 
        services as needed. Mental health professionals in the theater 
        were used for the more serious cases.
        <bullet> Upon arrival at the home location, unit commanders 
        ensured that marines were aware of the supportive services 
        available through the chaplains, MCCS, and Medical Treatment 
        Facilities (MTFs). Commanders of MTFs provided mental health 
        professionals who were readily available for marines, and unit 
        commanders allowed time for returning marines to ``decompress'' 
        from their battlefield experience.
        <bullet> Return and Reunion Guidebooks were made available to 
        both returning marines and their family members, online and in 
        hard copy; and presentations on return and reunion were 
        conducted at the home installations to equip the family members 
        for the stressors possible in the reunion process.
        <bullet> Marketing of available support resources was 
        accentuated, and reported utilization of those services 
        indicates the message has been received, and marines and family 
        members are engaging the resources.

    2. Senator Dole. General Casey and General Nyland, what type of 
training are you providing your young women and is it tailored 
differently?
    General Casey. The training as outlined in the above answer is not 
gender specific, and is geared toward all soldiers and deploying 
Department of the Army civilians.
    General Nyland. The Marine Corps provides Warrior Transition and 
Return and Reunion training to all marines, regardless of gender. In 
this regard, we do not offer specialized or tailored training to either 
female marines or male marines. Our experience is that the issues of 
reunion in relationships are gender-neutral and are oriented around the 
deployed person and the home-front person--the changes they undergo in 
those roles, the renegotiation of roles, and reinvestment in one 
another upon reunion--not the gender of each. Our Return and Reunion 
Guidebook is written to provide insights into all of the elements of 
the reintegration equation (deployed single service members, married 
service members, home-front partners, children, extended family 
members, reservists, civilian co-workers, etc.), hopefully raising the 
awareness of all to the positions of the others.
    Some examples of the return and reunion support offered to spouses 
and family members include:

        <bullet> 54,000 copies of a ``Return and Reunion Guide for 
        Marines and Families'' were prepared and distributed. This 
        guide covered the different aspects of return and reunion 
        dynamics, from different perspectives (Single Marines and their 
        Significant Others, Married Marines and their Spouses, Marines 
        with Children, Single Parent Marines, and reservists going back 
        to civilian jobs).
        <bullet> A standardized ``Return and Reunion for Spouses'' 
        presentation was provided and posted on the MCCS Web site for 
        use by installation staff. All installation commanders and 
        Reserve commanders provided briefs to family members (spouses, 
        children, and significant others) aboard receiving 
        installations and at appropriate Reserve locations as early as 
        30 days prior to the return of units.
        <bullet> A brief titled ``Caring for the Caregivers,'' was 
        established online for installation staff and command 
        representatives to offer to Key Volunteers and spouses who have 
        been particularly challenged in support of the units during 
        deployments. Additionally, the MCCS Web site and MCCS One 
        Source services provide valuable information, resources and 
        referrals service.

                    SEXUAL ASSAULTS IN THE MILITARY

    3. Senator Dole. Dr. Chu, each Service approaches the problem of 
sexual assaults within their ranks somewhat differently. What is your 
department doing to identify ``best practices'' and to standardize the 
policies and procedures under the Uniform Code of Military Justice 
(UCMJ) in dealing with this crime?
    Dr. Chu. Sexual assault will not be tolerated in the DOD. In order 
to determine the most useful preventive measures and the most effective 
corrective actions, we are conducting a detailed review of our policies 
and programs, the manner in which we deal with sexual assault cases, 
and our effectiveness in precluding an assault. The task force, under 
the leadership of Ellen Embrey, is currently performing that review.
    During February, Ms. Embrey and the task force members conducted a 
series of focus group discussions at seven military installations in 
order to identify what works well and where improvements are needed. In 
March, the task force is traveling in-theater. The feedback from these 
focus group discussions will be added to the input from recent 
discussions with more than 1,100 individuals. This information will be 
incorporated into the task force's report and recommendations that will 
be provided to me not later than April 30.

    4. Senator Dole. General Casey, Admiral Mullen, and General 
Moseley, following the report of an assault, I cannot imagine a 
commander would want the accused and the accuser together in his combat 
unit or even reporting to the same orderly room. What is your Service's 
procedure for unit reassignment once an assault has been reported?
    General Casey. Commanders and leaders at every level have a duty to 
take appropriate steps to prevent sexual assault, protect victims, and 
hold those who commit offenses accountable. When a soldier reports a 
criminal act such as this, our Army is resolved to take immediate and 
proper action. Commanders have a large number of options to protect a 
soldier who reports an assault. In cases of sexual assault, the law 
permits commanders to order the suspect into pre-trial confinement or 
restriction if warranted by the circumstances. In other cases, the 
command may permanently or temporarily transfer an alleged perpetrator 
to another unit pending completion of the investigation or may retain 
that soldier in the unit but temporarily detail the soldier to other 
duties. Commanders may also issue a ``no contact'' order to protect the 
victim. Such orders are very effective and enforceable under military 
law.
    To ensure that our current policies and programs are effective, the 
acting Secretary of the Army has directed the establishment of a task 
force to conduct a detailed review of the effectiveness of our Army's 
policies on reporting and properly addressing allegations of sexual 
assault. This review will examine our policies, programs, procedures, 
and training with regard to the prevention of sexual assault. The task 
force will further review the processes in place to ensure a climate 
exists where victims feel free to report allegations and leaders at 
every level understand their responsibilities to support those victims. 
This task force will render its report by the end of May 2004. 
    Admiral Mullen. Under Navy's Sexual Assault Victim Intervention 
(SAVI) program, the commanding officer is responsible for providing a 
safe physical and emotional environment for the victim upon report of a 
sexual assault and the SAVI program is specifically designed to 
minimize revictimization. The commanding officer has the authority to 
reassign either victim or accused if deemed appropriate for the comfort 
and welfare of the victim (the victim's desires receive preferential 
consideration) or to maintain good order and discipline within the 
command. If the victim requests to remain with the command, the accused 
must be assigned to another department within the command or 
temporarily reassigned in a manner that will preclude contact or a 
chain-of-command relationship between victim and accused.
    The commanding officer with about 18 years of experience is further 
advised by key members of his/her command: an Executive Officer with 
about a dozen years of experience, a Command Master Chief (senior 
enlisted member of the command) with 15-20 years of experience, a 
specially trained Command SAVI point of contact for general and 
programmatic issues, and a command representative specifically assigned 
for a particular case. In total, these elements provide several 
interested parties within the command that are specifically tasked to 
ensure a victim of sexual assault is:

    a. Given as much credibility as a victim of any other crime;
    b. Considered a victim of sexual assault when any unwanted act of 
sex is forced on him or her through any type of coercion, violent or 
otherwise;
    c. Considered a victim of sexual assault, regardless of the his/her 
behavior at the time of the sexual assault (e.g., fraternization, 
underage drinking, etc.);
    d. Considered a victim of sexual assault, regardless of the 
assailant's relationship to the victim (e.g., boyfriend, co-worker, 
acquaintance, etc.);
    e. Asked only those questions that are relevant to a potential 
court case or to medical treatment;
    f. Provided medical and mental health treatment, only after giving 
his or her informed consent;
    g. Consulted about their desires to participate in legal 
procedures;
    h. Treated fairly and without prejudice;
    i. Treated in a manner that does not usurp control from the victim, 
but enables him or her to determine his or her own needs and how to 
meet them;
    j. Not identified to the news media without his or her consent;
    k. Afforded access to victim advocate services where available, to 
resource information, and to referral to appropriate support/
counseling; and
    l. Informed of options concerning involvement with investigative/
legal personnel and potential consequences.

    One measure of effectiveness in cases of sexual assault is derived 
from the victim's perspective. In a 2002 survey of SAVI program users, 
100 percent indicated that the SAVI program helped them cope. 
Reassignments are used in some case; in all cases, however, the 
latitude for on-scene commanders to reassign personnel as a matter of 
policy is an important guarantor of minimizing the potential for 
revictimization and protecting victim rights in general.
    General Moseley. For deployment locations, removal or redeployment 
from a contingency billet is the deployed commander's situational 
decision, with full consideration for: (1) currently stated Air Force 
policies; (2) seriousness of the offense/allegations; (3) assessment of 
impact on the unit's order and morale; (4) the members' perceptions of 
safety, and ultimately; (5) the impact on the unit's ability to 
accomplish its mission.
    For non-deployment locations we have the Threatened Person 
Assignment (TPA) procedures within our assignment program which can 
rapidly remove a military member and dependents from a life-threatening 
situation. Pending the completion of the investigation, the 
installation commander can reassign the victim temporary duty (TDY) 
until the situation is resolved.
    Our commanders can use any or all of the following discretionary 
actions: (1) issue ``no contact order;'' (2) allow the member to take 
leave; (3) send member (victim) TDY; (4) change member's residence 
(e.g., change dorms, move member from dorm to off base, move member 
from off base to on base, etc.); and (5) move member to another duty 
location on-base.
    Once the investigation is completed and disciplinary actions are 
taken, members may be moved to another base. The current commander will 
work to ensure the members (victim/accused) do not relocate to the same 
subsequent location. While there is no tracking system to guarantee 
members will not be stationed together later in their careers--if the 
accused remains on active duty; the victim may request special 
reassignment assistance, if necessary.

    5. Senator Dole. General Casey, Admiral Mullen, and General 
Moseley, what is being done to assist your commanders in obtaining an 
immediate separation for individuals involved in a sexual assault case, 
especially while the investigation is ongoing?
    General Casey. Commanders, with the advice of their supporting 
judge advocates, make case-specific decisions regarding pretrial 
options to protect soldiers who report assaults while remaining mindful 
of the presumptive innocence of the accused during the investigative 
process. Commanders and leaders at every level have a duty to take 
appropriate steps to prevent sexual assault, protect victims, and hold 
those who commit offenses accountable. When a soldier reports a 
criminal act such as this, our Army is resolved to take immediate and 
proper action.
    Commanders have a large number of options to protect a soldier who 
reports an assault. In egregious cases, commanders can direct pretrial 
confinement of the accused soldier if there is a reasonable belief that 
the accused soldier committed an offense under the UCMJ and that 
pretrial confinement is necessary to prevent flight or to prevent 
serious misconduct, and lesser forms of restraint are inadequate. 
Alternatively, commanders may transfer a soldier to another unit 
pending completion of the investigation. Commanders may also issue a 
``no contact'' order to protect the victim. Such orders are very 
effective and enforceable under military law.
    To ensure that our current policies and programs are effective, the 
acting Secretary of the Army has directed the establishment of a task 
force to conduct a detailed review of the effectiveness of our Army's 
policies on reporting and properly addressing allegations of sexual 
assault. This review will examine our policies, programs, procedures, 
and training with regard to the prevention of sexual assault. The task 
force will further review the processes in place to ensure a climate 
exists where victims feel free to report allegations and leaders at 
every level understand their responsibilities to support those victims. 
This task force will render its report by the end of May 2004.
    Admiral Mullen. The commanding officer has the authority and 
latitude to physically separate a sexual assault victim and the accused 
by relocating one or the other, providing a safe and supportive 
environment for the victim in which to begin the recovery and healing 
processes. At a minimum, the victim and the accused must be 
departmentally separated and all chain-of-command relationships 
removed, while the option to reassign either outside the command 
remains the commanding officer's discretion. It is Navy policy to 
comply with the victim's needs and requests, to the extent practicable, 
with respect to the network of available support services, e.g., 
victim's advocate, legal services, medical care, command support, etc. 
The victim may be immediately assigned to a medical treatment facility 
to meet all required physiological and psychological needs. At no time 
are medical or advocacy services dependent upon a victim's extent of 
cooperation in legal and disciplinary proceedings; victim services are 
provided in all reported cases.
    Concerning administrative separation of the victim from the naval 
service, it is not standard practice. Historically, it is not the 
desire of the victim to separate. Additionally, retaining command 
jurisdiction permits commanding officers to provide all necessary care 
and support in the aftermath of the incident and facilitates the 
conduct of appropriate investigations and related actions initiated in 
response to the assault.
    In terms of the accused, a full and fair investigation of every 
case is initiated with disciplinary action following as warranted. The 
victim has the right to cooperate with the investigation to the extent 
they see fit, and are often the best source of material evidence. 
Disciplinary action could result in punishment at Commanding Officer's 
Nonjudicial Punishment (NJP) or courts-martial, either of which could 
result in the separation of the accused from the naval service.
    General Moseley. For deployment locations, removal or redeployment 
from a contingency billet is the deployed commander's situational 
decision, with full consideration for: (1) currently stated Air Force 
policies; (2) seriousness of the offense/allegations; (3) assessment of 
impact on the unit's order and morale; (4) the members' perceptions of 
safety; and ultimately, (5) the impact on the unit's ability to 
accomplish its mission.
    For non-deployment locations we have the TPA procedures within our 
assignment program which can rapidly remove a military member and 
dependents from a life-threatening situation. Pending the completion of 
the investigation, the installation commander can reassign the victim 
TDY until the situation is resolved.
    Our commanders can use any or all of the following discretionary 
actions: (1) issue ``no contact order;'' (2) allow the member to take 
leave; (3) send member (victim) TDY; (4) change member's residence 
(e.g., change dorms, move member from dorm to off base, move member 
from off base to on base, etc.); and (5) move member to another duty 
location on base.
    Once the investigation is completed and disciplinary actions are 
taken, members may be moved to another base. The current commander will 
work to ensure the members (victim/accused) do not relocate to the same 
subsequent location. While there is no tracking system to guarantee 
members will not be stationed together later in their careers-if the 
accused remains on active duty; the victim may request special 
reassignment assistance, if necessary.

                     PREVENTION OF SEXUAL ASSAULTS

    6. Senator Dole. General Nyland, in your statement you cited 
leadership as the key to prevention. I agree with you and encourage you 
to expect that leadership at all levels. You also mentioned a goal for 
recruit training that would require that each marine knows appropriate 
personal protection measures for themselves and for those in their 
charge. Could you go into greater detail on this proposed program?
    General Nyland. The Marine Corps defines personal protection 
measures as an education and awareness training process that empowers 
our marines with the knowledge and support to make the right choices to 
prevent sexual assault or deal with the incident appropriately when it 
occurs. A portion of sexual assault prevention training at the Marine 
Corps Recruit Depots is dedicated to educating recruits on both active 
and passive resistance measures. Passive resistance requires dealing 
with attackers with methods other than force (e.g. pretending to faint, 
claim to be sick, etc.). Active resistance is intended to distract, 
discourage, or forcefully stop the attacker. Active resistance however, 
is situational dependent, and may not be prudent in all circumstances. 
Personal protection and awareness is the sum of all the training parts. 
The cumulative training that recruits receive in core values, sexual 
assault prevention, sexual harassment, equal opportunity, ethics, moral 
courage, fraternization, martial arts (mental, character, and physical 
disciplines), substance abuse, and operational risk management training 
all contribute to developing a marine who can identify potential 
hazards, make appropriate decisions, and apply appropriate protection 
measures regardless of the threat. Finally, creating a proper command 
climate is critical to preventing sexual assaults before they occur. We 
reinforce character that values honor, integrity, and taking care of 
our fellow marines; this includes treating each other with dignity and 
respect.

    7. Senator Dole. General Casey, Admiral Mullen, and General 
Moseley, I am uncomfortable with the generalized image of our female 
military members being portrayed as victims. Do you have any examples 
of how the women within your Services are proactively working to 
prevent rape, battery, and sexual harassment?
    General Casey. Women make up approximately 16 percent of the total 
Army population and serve in a variety of leadership positions 
including drill instructors, military police (MPs), equal opportunity 
(EO) advisors, commanding officers, and first sergeants. All leaders 
have a duty to work proactively to prevent rape, battery, and sexual 
harassment. Over 30 percent of EO advisors serving throughout the Army 
are women and all EO advisors are trained to recognize and assess 
indicators of discrimination and sexual harassment, and work to manage 
the human relations environment within their units. Women soldiers 
bring the same level of professionalism, training, patriotism, and 
commitment to their duties, as do our male soldiers. They are working 
to defend America and advance peace and freedom, for which we are 
grateful.
    Admiral Mullen. The Navy is actively working to reduce sexual 
harassment, prevent rape, battery, or sexual assault, and improve both 
organizational support to individual victims and command action against 
all assailants. Over 1,250 command SAVI points of contact responsible 
for program execution and compliance at the unit level were trained in 
just fiscal year 2003; many of them women. Significantly, these 
specially trained personnel are active members of their commands--they 
maintain, train, and deploy overseas with their units, providing a 
ready and accessible resource to their fellow servicemembers as well as 
fostering a respectful environment daily that ultimately aids in 
preventing sexual assaults from occurring in the first place. Navy SAVI 
training and policy guidance clearly emphasize that the responsibility 
for awareness and knowledge of sexual assault prevention/response rests 
with every member of the United States Navy.

        <bullet> In addition to all-Navy training, leadership training 
        in general and sexual assault prevention and response training 
        in particular are embedded in curriculums spanning an officer's 
        career, usually in preparation for positions of greater 
        leadership (e.g., department head, executive officer, and 
        commanding officer leadership training courses). Similar 
        training is also incorporated in enlisted leadership training 
        courses, beginning at the petty officer level with additional 
        courses required for each increase in leadership level/
        paygrade.
        <bullet> Every Navy member must attend annual General Military 
        Training (GMT), which addresses sexual assault awareness and 
        prevention, Navy's SAVI program, services, and where these 
        services can be obtained Navy-wide. Prevention through 
        education is seen as the best tool to prevent sexual assault in 
        the Navy. Identifying behavior or environments that increase 
        the risk of sexual assault and then working to control or 
        minimize exposure to that risk will reduce the number of 
        instances. Navy training presents scenarios to highlight those 
        risks and include behavior tips such as: 

                <bullet> Deglamorization of alcohol as drug and alcohol 
                use increases the risk of sexual assault. 
                <bullet> Trust your instincts. If you feel something is 
                wrong, it probably is. 
                <bullet> Always pay attention to your surroundings and 
                anticipate potentially dangerous situations. 
                <bullet> Watch out for each other's safety. Take care 
                of one another. Speak up! 
                <bullet> Travel in groups--the ``buddy system'' works. 
                <bullet> Avoid isolated places, day and night. If you 
                must work alone, lock the doors. 
                <bullet> Tell a family member, friend, spouse, or 
                shipmate where you are at all times. 
                <bullet> Take an accredited self-defense class. 
                <bullet> Most victims know their attackers. Be sure of 
                your surroundings, with friends or strangers. 
                <bullet> Get together for a first date at a public 
                place.

        <bullet> Each installation is required to designate a SAVI 
        Coordination Committee comprised of, but not limited to, all 
        first responders and key base personnel to address local sexual 
        assault needs and issues. 

                <bullet> Trained sexual assault victim advocates, 
                comprised mostly of women, are first responders and are 
                made immediately available to victims.

        <bullet> Each Navy command, whether a shore facility, ship, air 
        wing/squadron, must designate: 

                <bullet> SAVI Command Point of Contact who has detailed 
                knowledge of SAVI program requirements, services 
                available at that site and how to coordinate training, 
                victim services and response for command members. 
                <bullet> SAVI Command Representative, from among 
                command's senior enlisted or officer personnel, who, 
                upon report of a sexual assault, serves as liaison 
                between the victim, the support system and the 
                commanding officer.

    General Moseley. In the Air Force, all airmen are responsible for 
proactively preventing rape, battery, and sexual harassment. Since 
women serve in over 99 percent of our career fields and have performed 
incredibly in our conflicts in Iraq and Afghanistan, we hardly share in 
the opinion that they are victims. In terms of women working on this 
very important issue, women serve as commanders, first sergeants, 
supervisors, special agents with the Air Force Office of Special 
Investigations (the criminal investigative agency most closely 
paralleling the Federal Bureau of Investigations), security forces, 
members, judge advocates, physicians, mental health professionals, and 
chaplains. Women are involved in the training and education at every 
phase of development of airmen (officers, enlisted and civilian). Thus, 
women in the Air Force take a major role in a matter that is important 
to each of us and the responsibility of all of us--prevention of rape, 
battery, and sexual harassment.

    8. Senator Dole. General Casey, Admiral Mullen, and General 
Moseley, what are you doing to ensure that all members, even those at 
the most junior ranks, are empowered to intervene when they see abusive 
situations developing?
    General Casey. All new recruits receive instruction on sexual 
assault prevention techniques during basic training. They are taught:

        <bullet> That sexual assault is a crime that will not be 
        tolerated in the United States Army and that the Army will hold 
        those who commit these crimes accountable;
        <bullet> That Army policy includes awareness and education to 
        prevent sexual assault, sensitive care for sexual assault 
        victims, and aggressive and thorough investigation of all 
        reported sexual assaults;
        <bullet> That the Army demands and expects soldiers at every 
        level to support a positive command climate in which victims 
        have the confidence in the chain of command and criminal 
        investigators to report these crimes immediately;
        <bullet> That the Army treats sexual assault victims with 
        dignity, fairness, and respect for their privacy; and
        <bullet> That medical and legal policies and programs exist to 
        assist soldiers.

    Admiral Mullen. All Navy members must attend annual sexual assault 
awareness, prevention, and response training. During training, sailors 
and officers are instructed that upon becoming aware of a potentially 
abusive situation, they are required to inform the suspected potential 
offender of their suspicion and immediately report the situation to the 
chain-of-command or law enforcement authorities. Sexual assault victims 
themselves have a multitude of reporting avenues available: chain-of-
command, law enforcement, command designated program representatives or 
medical caregivers. Multiple options reduce the barriers to initial 
reporting and increasing the Service's ability to provide important 
care and advocacy services early. Throughout our training program, 
significant emphasis is placed on the importance of assigning the 
highest priority to the needs and requests of victims or potential 
victims. Moreover, senior Navy leadership at each command level, both 
enlisted and officer, is provided with additional training and 
resources to help promote the kind of positive command climate that 
eliminates fear of reprisal, rewards respectful, responsible behavior, 
and advocates awareness for programs like SAVI in those instances which 
warrant sexual assault response and intervention.
    General Moseley. In the Air Force, we are continuously working to 
improve the training of our young airmen to ensure they are aware of 
their responsibilities to take care of each other. All airmen are held 
to the same high standard. If they are aware of, or observe criminal 
activity, they will be held accountable if they fail to take charge of 
the situation and exercise their leadership responsibilities. In 
addition, airmen at every level of the Air Force have a number of 
avenues to report abusive situations and are encouraged to do so. 
Recently our Chief of Staff of the Air Force, General Jumper, 
specifically addressed and charged all of our airmen with this 
responsibility and continues to focus ox efforts in this area.

    9. Senator Dole. Ms. Hansen, in your statement you recommend the 
availability of Sexual Assault Nurse Examiners (SANE). Many of these 
recent military assault charges have occurred months after the alleged 
attack, either because of fear, poor reporting procedures, or limited 
access to resources. This recommendation seems extremely worthy 
especially in a war zone, for both the protection of the accused as 
well as the accuser. How do you propose implementing this type of 
advocacy?
    Ms. Hansen. Senator Dole, thank you for your question. The 
education, training, and certification of SANEs within the military 
could be performed prior to deployments. The certification would 
supplement medical training of military personnel, such as nurses, 
corpsmen, or medics. Medical units of reservists called to active duty 
could also supply Central Command (CENTCOM) with the required 
personnel. The deployment of SANEs would aid in the restoration of 
access to services for victims and survivors. Further, the availability 
of SANEs at the unit level would foster reporting of incidents, 
processing of evidence and justice in a timely manner.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                        PROGRAM STANDARDIZATION

    10. Senator Reed. Dr. Chu, why are you waiting for the task force 
to decide whether or not Services should standardize their programs and 
can't you take the best from each and put together a plan of action 
now?
    Dr. Chu. Each of the Services has developed slightly different 
approaches to dealing with many of the challenges of military service, 
because members of the Services function in different environments and 
under different circumstances. Currently, the task force is comparing 
each of the Services' policies, programs, and practices. Before making 
any changes, we want to be certain that a careful review has been 
appropriately accomplished.
    The task force will complete its effort in the next 5 weeks. In the 
event that the task force identifies a policy, program or practice that 
requires immediate action, I am confident that Ms. Embrey will bring 
the matter to my attention. The April 30 deadline will not prevent us 
from taking corrective action sooner than that date, if necessary.

                        SEXUAL ASSAULT EDUCATION

    11. Senator Reed. General Casey, Admiral Mullen, General Nyland, 
and General Moseley, do you believe that this increased emphasis on 
sexual assault education will potentially deter commanders from sending 
qualified female soldiers, sailors, airmen, and marines forward?
    General Casey. Commanders are not deterred from sending qualified 
female soldiers forward. Female soldiers are an important part of our 
force structure. Our Army remains committed to taking care of soldiers 
and dealing expeditiously with any complaint or allegation. The Army 
holds leaders accountable to ensure that a climate exists where a 
soldier who is a victim of a sexual assault or any other crime, feels 
free to report that crime to their chain of command and that leaders 
understand their responsibilities to support the victims and 
investigate allegations. Our Army will not tolerate sexual misconduct 
within our ranks, and one key to correcting this problem is effective 
education. Education is critical to the creation and maintenance of a 
positive human relations environment where soldiers are willing to 
report any crime, without fear of retribution, reprisal or impact on 
their careers.
    Admiral Mullen. No. First, the Navy is a rotationally deploying 
Service, in peace and in war, with women fully integrated. While tense 
periods may require long or additional deployments, the deployment 
experience in and of itself is not unique; it is, rather, inherent in 
Navy culture. On a typical day, the U.S. Navy has about half of its 
fleet underway and about a third of the entire fleet deployed, most 
with integrated crews. Second, and significantly, each of these units 
is required to have specially trained SAVI Points of Contacts onboard 
even at sea, many have crewmembers trained in advocacy services and the 
larger units have medical services available.
    We also believe that our SAVI program affords commanders a greater 
degree of confidence that, as sailors forward deploy, they are better 
prepared to focus on mission accomplishment. Through dedicated training 
and a public discussion concerning the prevention of sexual assault, 
the effects on sexual assault victims and the definition of these acts 
as a crime in violation of the UCMJ, service members are clear on 
policy expectations and consequences. We find this direct, forward 
approach contributes to military readiness by removing uncertainty 
concerning sexual assault, enabling service members to remain mission 
focused.
    SAVI is seamlessly integrated into our training continuum and 
serves to better prepare sailors, male and female, for operating under 
the conditions, and within the environments, in which they are required 
to perform while in close proximity to each other. It prepares them for 
the reality of working as members of gender-integrated crews while 
stressing the inherent responsibility to maintain mutual respect, for 
each other as professionals and as shipmates, without regard to gender.
    Our training emphasizes the fact that sexual assault is not solely 
a women's issue. An average of 10 percent of Navy sexual assault 
victims are male. Sailors must be aware that, while all are potential 
victims, they may reduce the risk, and contribute to the prevention, of 
sexual assault through knowledge and awareness of the dynamics of the 
crime and the issues and trauma suffered by its victims. SAVI assists 
Navy leaders in providing the safest possible physical and emotional 
environments for all sailors, afloat and ashore.
    General Nyland. No! All marines will continue to deploy regardless 
of gender. Sexual assault training is part of the continuing education 
that marines receive in Core Values, sexual harassment, equal 
opportunity, ethics, morale courage, fraternization, martial arts 
(mental, character, and physical disciplines), substance abuse, and 
operational risk management which all contribute to developing a marine 
who can identify potential hazards, make appropriate decisions and 
apply appropriate protection measures regardless of the location or the 
threat. We reinforce character that values honor, integrity, and taking 
care of fellow marines; this includes treating each other with dignity 
and respect.
    General Moseley. I do not. 99.9 percent of Air Force Specialty 
Codes are open to women in the Air Force, which shows how highly their 
contribution is valued. Increased emphasis on sexual assault education, 
understanding it is a crime and will be treated accordingly, is 
critical to good order and discipline. Educating both men and women to 
be proactive in preventing sexual assault, to not be bystanders or 
unwitting facilitators, will enhance the safety of female airmen 
wherever they are assigned. 

    12. Senator Reed. General Casey, Admiral Mullen, General Nyland, 
and General Moseley, isn't this sexual assault one more thing to be 
concerned with when preparing to go to war?
    General Casey. Commanders must constantly be concerned about the 
state of readiness, training, discipline, and morale of their soldiers 
and units. The prevention of sexual assault is a component of good 
order and discipline. Ensuring proper leadership action to deal with 
sexual assault, if it occurs, is a training issue. Providing services 
and support to victims is taking care of soldiers. The Army is 
committed to doing this in garrison and in a theater of operations. 
    Admiral Mullen. No. Navy operational forces are, by their very 
nature, flexible, rotational and forward deployed. Most ships and 
squadrons are comprised of gender-integrated crews that prepare in 
peacetime precisely as they operate in war. In the sense that we 
maintain high standards of inter-personal behavior through a number of 
personal policy programs (conduct ashore, sexual harassment prevention, 
deglamorization of alcohol, personal behavior, etc.), sexual assault 
prevention compliments, rather than competes with, the expectations set 
by these other programs and is a natural part of normal, continuous 
preparations for deploying, in peace or war. Sexual assault awareness, 
prevention and victim intervention is seamlessly integrated into the 
training continuum for every member, from initial accession training 
through the most senior levels of leadership. At a minimum, every 
sailor and officer must attend training annually.
    Sexual assault is a serious violation of the UCMJ, corrosive to 
unit cohesion and, more importantly, a gross violation of human 
dignity. While the Navy has made progress and the overall trends are 
down, perpetration of any sexual assault is intolerable and 
unacceptable. It is our duty to make every effort to thwart such acts 
in the first place; to respond with compassionate, empathetic care and 
support for the victims; and aggressive investigation and prosecution 
of the perpetrators. To do otherwise is contrary to maintaining good 
unit morale, cohesiveness and operational readiness.
    General Nyland. No. The nature of sexual assault is that it can 
happen at any time; therefore ensuring a climate that deters sexual 
assault should be the norm. Sexual assault has no place anywhere in the 
Marine Corps. Creating a proper command climate is critical to 
preventing sexual assaults before they occur. We reinforce character 
that values honor, integrity, and taking care of our fellow marines; 
this includes treating each other with dignity and respect.
    General Moseley. Any factor impacting readiness is always of 
concern. The safety, health, and well-being of our airmen, women and 
men, is a concern regardless of whether we are engaged in conflict with 
the enemy or not. We do not want our airmen unnecessarily put in harms 
way. We make every effort to prepare airmen for war and educating them 
regarding sexual assault should be part of that preparation.

                        BREAKDOWNS IN PROCEDURES

    13. Senator Reed. General Casey, the Army seems to have the highest 
number of incidents. You said that you were taking a good look at all 
the procedures in place and looking for breakdowns. Any young soldier 
or new officer knows that leadership comes from the top down. Are you 
also assessing or evaluating the involvement of your more senior 
officers and staff noncommissioned officers in this matter?
    General Casey. We are currently assessing all of the Army's 
policies and programs pertaining to sexual assault. Good leadership is 
critical to the creation and maintenance of a positive human relations 
environment where soldiers are willing to report any act of sexual 
misconduct, without fear of retribution, reprisal, or impact on their 
careers. Additionally, the Army expects our leaders to ensure that 
soldiers treat sexual assault victims with dignity, fairness, and 
respect for their privacy.

            AFFECTS ON PERFORMANCE EVALUATION AND REPUTATION

    14. Senator Reed. General Casey, Admiral Mullen, General Nyland, 
and General Moseley, I know that all of you would agree that one of the 
factors brought to light on why young enlisted do not report incidents 
of sexual assault is because they feel it will impact their career. At 
present, you leave it to your commanders to decide whether the 
perpetrator and victim will be removed. We know of one instance where 
the victim was made to work for her attacker, based on one commander's 
discretion. How will each of you ensure a victim's career is not 
impacted, either in their performance evaluation, next billet, or 
reputation within the military?
    General Casey. In the past, the Army has faced and overcome 
daunting challenges in its human dimension. We have the people, the 
will, and the tradition to achieve and maintain an environment of 
mutual dignity and respect--for all our soldiers. The leadership of 
this great Army wants the very best for all of our soldiers. When the 
unthinkable happens to one of our soldiers, we owe it to them to 
provide the very best in victim support and services. Respecting and 
protecting the dignity of every soldier are cornerstones of this great 
institution. Additionally, our leaders must ensure that soldiers treat 
sexual assault victims with dignity, fairness, and respect for their 
privacy.
    To ensure that our current policies and programs are effective, the 
Acting Secretary of the Army has directed the establishment of a task 
force to conduct a detailed review of the effectiveness of our Army's 
policies on reporting and properly addressing allegations of sexual 
assault. This review will examine our policies, programs, procedures, 
and training with regard to the prevention of sexual assault. The task 
force will further review the processes in place to ensure a climate 
exists where victims feel free to report allegations and leaders at 
every level understand their responsibilities to support those victims. 
This task force will render its report by the end of May 2004.
    Admiral Mullen. It is contrary to Navy policy to force a victim of 
sexual assault to work for or with an alleged perpetrator. Commanding 
officers are directed to afford due deference to the victim's needs and 
to assign the highest priority to accommodating the victim's desires, 
particularly with respect to remaining within or being removed from the 
command, or even being reassigned within the command.
    The command must apprise the victim of his or her rights, as 
required by law, including the right to fair treatment, dignity and 
privacy; and the right to be reasonably protected from the accused 
offender. Additionally, the command must designate a trained ``Command 
Representative'' who serves as a liaison between the victim, the 
support system and the commanding officer, with a particular emphasis 
on conveying any information, needs or desires, which the victim may be 
reluctant to report or request.
    The command is also required to submit an electronic unit 
situational report to the Chief of Naval Operations on every sexual 
assault incident (with non-identifying data only). Copies of the report 
are simultaneously transmitted to senior levels in the chain of 
command, including the Commander, Navy Personnel Command, Counseling, 
Advocacy, and Prevention Branch (Pers-661), and Navy Corrections Branch 
(Pers-83). The command must track the case through resolution and 
report the outcome via the same message format and routing.
    The Navy is committed to ensuring a victim's career is preserved 
following incident of sexual assault. Navy policy restricts inclusion 
in a member's documented service record and evaluations, any 
information pertaining to an ongoing investigation. Following a sexual 
assault incident, Navy policy ensures the immediate safest possible 
physical and emotional environment for the victim as well as the 
protection of a victim's career aspirations and opportunities. Follow-
on assignments for victims of sexual assault remain consistent with a 
member's skills and rank, considering any special needs. A victim's 
promotion or advancement will not be delayed, and the potential for 
future career progression will not be negatively impacted.
    General Nyland. In cases of sexual assault, commanders are directed 
to:

        <bullet> Ensure the victim is provided reasonable protection 
        from the offender
        <bullet> Minimize the re-victimization of all sexual assault 
        victims by:

                <bullet> Ensuring victims and offenders do not remain 
                in the same work area
                <bullet> Protect the interest and privacy of sexual 
                assault victims,
                <bullet> Limit the viewing of documents that identify 
                victims to only those with a ``need to know'' (i.e. 
                incident reports, charge sheets, military protective 
                orders, etc.)

        <bullet> Foster a command climate where sexual assault, like 
        any other offense, is not tolerated, and all feel safe to 
        report wrongdoing without fear of rejection or reprisal.

    General Moseley. Performance evaluation, career decisions, and 
assignments are based on the individual airman's performance with the 
needs of the Air Force taking precedence. But in the case of a victim 
of sexual assault, the safety and well being of the individual must be 
considered first. The individual circumstances of the victim must be 
considered by the commander, with personal input from the individual 
and professionals who may be assisting the individual toward restored 
health and well-being. Additionally we consider: (1) currently stated 
Air Force policies; (2) seriousness of the offense/allegations; (3) 
assessment of impact on the unit's order and morale; (4) the members' 
perceptions of safety; and ultimately, (5) the impact on the unit's 
ability to accomplish its mission. We are aggressively examining ways 
in which we can provide commanders additional tools and information 
they need to consider as they make these important decisions. 

    [Whereupon, at 1:30 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
